    OFFICE OF INSPECTOR GENERAL


SEMIANNUAL REPORT TO THE CONGRESS





           April 1–September 30, 2009

     OFFICE OF INSPECTOR GENERAL

SEMIANNUAL REPORT TO THE CONGRESS

          April 1–September 30, 2009
                              Inspector General


                        HOTLINE

The Office of Inspector General (OIG) maintains a Hotline to make it easy to report allegations of
fraud, waste, abuse, mismanagement, or misconduct in the programs and operations of the United States
Agency for International Development (USAID), the Inter-American Foundation (IAF), the United States
African Development Foundation (USADF), and the Millennium Challenge Corporation (MCC). USAID,
IAF, USADF, and MCC employees, contractors, and program participants or the general public may report
allegations directly to OIG. Complaints may be submitted electronically by using email or OIG’s online
complaint form.

Email 	     ig.hotline@usaid.gov

Complaint
Form      http://www.usaid.gov/oig/hotline/hotline.htm

Individuals who are concerned about the confidentiality or anonymity of electronic communication may
submit allegations by telephone or mail.

Telephone 1–202–712–1023
           	
           1–800–230–6539

Mail 	    USAID OIG HOTLINE
           P.O. Box 657

           Washington, DC 20044–0657


The Inspector General Act of 1978, as amended, and other laws protect persons making Hotline
complaints. Individuals who contact the Hotline are not required to identify themselves and may request
confidentiality when submitting allegations. However, OIG encourages those who report allegations to
identify themselves so that they can be contacted if OIG has additional questions.

OIG will not disclose the identity of an employee of USAID, IAF, USADF, or MCC who provides
information unless that employee consents or unless the Inspector General determines that such
disclosure is unavoidable during the course of an investigation.
                                                                       CONTENTS


Message From the Inspector General ................................................................................................................ 3


Introduction .............................................................................................................................................................. 5 


Semiannual Report to the Congress ................................................................................................................... 9 


      United States Agency for International Development (USAID)

      United States African Development Foundation (USADF)

      Inter-American Foundation (IAF)


Significant Accomplishments—USAID..............................................................................................................11 


      Peace and Security
          Afghanistan ................................................................................................................................................11 

          Philippines..................................................................................................................................................14 

          Iraq ..............................................................................................................................................................14 

          West Bank/Gaza.......................................................................................................................................18 

          Jordan .........................................................................................................................................................18

          Egypt ...........................................................................................................................................................18


      Just and Democratic Government
           Democracy................................................................................................................................................18

           Human Rights ...........................................................................................................................................19


      Economic Growth and Prosperity
          Economic Security ...................................................................................................................................20


      Investment in People
          Health.........................................................................................................................................................22

          Education ...................................................................................................................................................26


      Management Capabilities
         Information Technology ..........................................................................................................................27


      Financial Management
          Management Accountability ..................................................................................................................27

          Expanding Accountability .......................................................................................................................30

          Accountability Over Contractors and Grantees .............................................................................31





                                                                                                        SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009               1
                                                                   CONTENTS (con’t)


      Significant Accomplishments—USADF .............................................................................................................35


      Significant Accomplishments—IAF .....................................................................................................................37


      Appendix 1: Reporting Requirements—USAID, USADF, and IAF .............................................................39


      Appendix II: Summary Tables—USAID, USADF, and IAF .............................................................................75


      Semiannual Report to the Congress—Millennium Challenge 

      Corporation (MCC) .............................................................................................................................................81


      Introduction ............................................................................................................................................................83


      Significant Accomplishments—MCC .................................................................................................................85


            Economic Growth and Prosperity
                   Economic Security ...................................................................................................................................85

                   Compact Programs .................................................................................................................................86


            Management Capabilities
                   Financial Management .............................................................................................................................90

                   Fund Accountability Statements ...........................................................................................................92


      Appendix III: Reporting Requirements and Summary—MCC ....................................................................99


      Appendix IV: Abbreviations...............................................................................................................................113





2   USAID OFFICE OF INSPECTOR GENERAL
             MESSAGE FROM THE INSPECTOR GENERAL

I am pleased to present the Semiannual Report to the Congress for the 6-month period ending September 30, 2009.
This report, issued in accordance with the requirements of the Inspector General Act of 1978, as amended, features
highlights of oversight functions of the Office of Inspector General (OIG) for the U.S. Agency for International
Development (USAID), the United States African Development Foundation (USADF), the Inter-American Foundation
(IAF), and the Millennium Challenge Corporation (MCC).

During the reporting period, OIG activities resulted in:

    •    225 audits issued
    •    $150,954,399 in questioned costs and funds put to better use
    •    66 investigations opened and 53 investigations closed
    •    6 arrests, 1 indictment, and 3 convictions
    •    7 administrative actions
    •    $72,058,563 in investigative recoveries and savings
    •    80 fraud awareness briefing sessions with 1,769 attendees

The efforts of our employees around the world demonstrate our commitment to improving foreign assistance
programs. Sustainable development is an ever more important instrument in America’s efforts to address the global
issues of health, hunger, poverty, rule of law, and political and economic instability. Our work seeks to ensure that
American taxpayers’ dollars are being spent wisely and effectively and that these investments are making a beneficial
difference in people’s lives.

Among our top priorities in this reporting period has been the oversight of activities in Afghanistan, where our
work since 2002 has paralleled the evolution of USAID’s programs from relief and stabilization to reconstruction
to sustainable development. Foreign assistance programs have attempted to create economic growth, effective and
representative governance, and the human capital base that will eliminate conditions that contribute to extremism.

OIG has also provided continuing oversight of programs in Iraq, where reconstruction and development programs
focused on community stabilization, economic governance, and national capacity building. Another priority area for OIG
has been oversight of programs to combat HIV/AIDS, malaria, and tuberculosis. Our recommendations have involved
strengthening contract oversight and improving data integrity and quality.

In addition to working toward improving USAID programs and operations, we have a responsibility to prevent fraud,
waste, and abuse in foreign assistance programs. Our investigators work diligently to ensure that appropriate action is
taken against those who would illegally divert U.S. Government funds.

Within OIG, we recognize that we must improve our own programs and initiatives by continually reexamining our
strategies and goals and by taking advantage of technologies that enable us to better implement programs and respond
to our stakeholders.

This report further describes OIG activities and achievements and includes comprehensive statistics and data regarding
our efforts. OIG continues to pursue a collaborative, proactive, and results-oriented approach in support of USAID,
USADF, IAF, and MCC programs and operations. We look forward to working with the Congress and our partners and
stakeholders to continue to improve the efficiency and effectiveness of U.S. foreign assistance programs.


                                                                        Donald A. Gambatesa




                                                                     SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   3
4   USAID OFFICE OF INSPECTOR GENERAL
                                                INTRODUCTION

History and Mandated Authority
USAID’s OIG was established on December 16, 1980, by statutory amendment to the Foreign Assistance Act of
1961.1 On December 29, 1981, the President signed the International Security and Development Cooperation Act
of 1981,2 bringing the USAID Inspector General under the purview of the Inspector General Act of 1978.3 OIG
assumed audit and investigative oversight of USADF and IAF in 1999,4 and of MCC in 2004.5

The Inspector General Act of 1978, as amended, authorizes the Inspector General to conduct and supervise audits
and investigations. OIG’s mission is to protect and enhance the integrity of U.S. foreign assistance programs and
operations administered by USAID, USADF, IAF, and MCC. Some of our work is mandated by statute or other
requirements, and other work is performed at the discretion of OIG. When identifying the audits and activities
to undertake, and setting priorities in performing them, OIG considers stakeholder interests and needs, alignment
with strategic goals, and program funding levels. Each decision to perform specific work is made after considering
the risks associated with the agencies’ programs and assessing potential vulnerabilities in internal controls.

Areas of Responsibility
Audits. The Office of Audit is responsible for supervising audit activities relating to worldwide foreign assistance
programs and agency operations of USAID, USADF, IAF, and MCC. Audit activities include performance audits of
programs and management systems, financial statement audits required under the Chief Financial Officers Act, and
audits related to financial accountability of grantees and contractors.

Investigations. The Office of Investigations is responsible for supervising the performance of investigative
activities relating to the foreign assistance programs and agency operations of our client agencies. Investigations
of criminal, civil, and administrative violations cover all facets of these worldwide operations. OIG also conducts
proactive investigations and fraud awareness training, develops and distributes fraud awareness literature and
audiovisual aids, and offers advice on antifraud strategies.

Management. The Office of Management is responsible for managing all administrative activities for OIG
headquarters in Washington, DC, and OIG regional offices overseas. Administrative functions include human
resources, budgeting, contracting, and information management.

Millennium Challenge Corporation. OIG is responsible for oversight of the Corporation’s programs and
operations worldwide. OIG’s MCC office has its own performance and financial audit divisions, but it coordinates
with OIG’s Investigations and Audit offices for investigative and supplementary audit support.

Overseas Offices of Inspector General. OIG carries out its audit and investigative work in about
100 countries through offices in:

       •   Kabul, Afghanistan
       •   Islamabad, Pakistan


1
 International Security and Development Cooperation Act of 1980, Public Law 96–533; Foreign Assistance Act of 1961,

Public Law 87–195.

2
    Public Law 97–113.

3
    Public Law 95–452.
4
 Admiral James W. Nance and Meg Donovan Foreign Relations Authorizations Act, Fiscal Years 2000 and 2001, Public Law 106–113,
Appendix G.
5
    Millennium Challenge Act of 2003, Public Law 108–199, Division D,Title VI.



                                                                                 SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   5
             •    Baghdad, Iraq
             •    Cairo, Egypt
             •    Dakar, Senegal
             •    Manila, Philippines
             •    Pretoria, South Africa
             •    San Salvador, El Salvador

      Joint Work and Partners
      OIG participates on task forces and cooperates with other interagency groups. In this reporting period,
      OIG contributed to task forces to provide oversight for accountability and transparency in USAID
      operations in Afghanistan and Pakistan and to assist the Department of Justice in addressing procurement
      and grant fraud, especially in Iraq and Afghanistan.

      Southwest Asia Joint Planning Group. This group, formed to coordinate oversight activities in Afghanistan
      and other countries in the region, issued its first Comprehensive Audit Plan for Southwest Asia in June 2008, in
      accordance with the FY 2008 National Defense Authorization Act.6 The group comprises representatives of the
      Offices of Inspector General for USAID, the Departments of Defense and State, the Defense Contract Audit
      Agency, and the Government Accountability Office (GAO), and the Special Inspector General for Afghanistan
      Reconstruction.

      Afghanistan–Pakistan Subgroup. The U.S. Government’s efforts to stop terrorism require support from
      the major oversight organizations to ensure accountability and transparency in multi-billion-dollar programs
      implemented in Southwest Asia. To avoid overlapping or redundant efforts and reduce the burden that the
      oversight process places on overseas staff, a subgroup of the Southwest Asia Joint Planning Group has been
      formed to coordinate multiagency work to guard against fraud, waste, and abuse in military and civilian programs
      implemented in Afghanistan and Pakistan. The Afghanistan–Pakistan Subgroup comprises representatives
      of the Offices of Inspector General for USAID, the Departments of State and Defense, and GAO, and the
      Special Inspector General for Afghanistan Reconstruction. The subgroup acts as the central point for sharing
      information and coordinating planned and ongoing audits, reviews, and inspections. The subgroup is chaired by the
      representative from USAID/OIG.

      Iraq Council of Inspectors General. Oversight organizations operating in Iraq meet quarterly to discuss
      ongoing and planned activities to share information, resolve conflicts, and avoid duplication. The Special
      Inspector General for Iraq Reconstruction chairs the meetings, which are attended by representatives of Offices
      of Inspectors General for USAID, the Departments of State and Defense, GAO, and other oversight offices
      within the Department of Defense, such as the Army Audit Agency and the Defense Contract Audit Agency.
      Representatives located in Washington, DC, and Iraq participate in these meetings, either in person or by phone.

      USAID Afghanistan–Pakistan Task Force. The USAID Afghanistan/Pakistan Task Force seeks to make
      USAID assistance to U.S. Government reconstruction and development efforts in Afghanistan and Pakistan
      as effective as possible by providing analyses, strategies, and recommendations and by cultivating interagency
      coordination and cooperation. The Task Force includes an OIG representative to respond to the Agency’s
      oversight needs and to promote accountability and transparency in these two countries critical to U.S. foreign
      policy. Recently, the Inspector General invited the Special Inspector General for Iraq Reconstruction and the
      Special Inspector General for Afghanistan Reconstruction to address the Task Force. All three spoke to the Task
      Force to explain their coordinated oversight strategies.



      6
          Public Law 110–181, § 842,“Investigation of Waste, Fraud, and Abuse in Wartime Contracts and Contracting Processes in Iraq and
      Afghanistan.”



6   USAID OFFICE OF INSPECTOR GENERAL
National Procurement Fraud Task Force. For more than 2 years, OIG has participated on two
Department of Justice task forces—the National Procurement Fraud Task Force (NPFTF) and the International
Contract and Corruption Fraud Task Force (ICCTF). The mission of both task forces is to promote the early
detection, prevention, and prosecution of procurement and grant fraud associated with increased contracting
activity for national security and other Government programs.

OIG Program Areas and Priorities
OIG structures its work to achieve progress in worldwide foreign assistance programs. OIG audits have also
included recommendations to improve the infrastructure of USAID systems and operations to increase the
efficiency of the work the Agency undertakes.

Priority program areas covered in this reporting period include

Peace and Security
    • Afghanistan
    • Egypt
    • Iraq
    • Jordan
    • Philippines
    • West Bank and Gaza

Just and Democratic Government
     • Democracy
     • Human Rights

Economic Growth and Prosperity
    • Economic Security

Investment in People
     • Health
     • Education

Management Capabilities
   • Information Technology

Financial Management
    • Management Accountability
    • Expanding Accountability
    • Accountability Over Contractors and Grantees




                                                                  SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   7
8   USAID OFFICE OF INSPECTOR GENERAL
       SEMIANNUAL REPORT TO THE CONGRESS


United States Agency for International Development (USAID)

 United States African Development Foundation (USADF)

                             and

              Inter-American Foundation (IAF)





                                 SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   9
10   USAID OFFICE OF INSPECTOR GENERAL
                      SIGNIFICANT ACCOMPLISHMENTS

                                  USAID
                                    PEACE AND SECURITY

Afghanistan
Audit of USAID/Afghanistan’s Local Governance and Community Development Project in
Southern and Eastern Regions of Afghanistan. Despite recent successes in Afghanistan—increased
economic growth, more student enrollments in schools, and better access to health care—continuing violence
and severe underdevelopment in the provinces threaten to undermine the legitimacy of the central government
and reverse gains made to date.To assist the provincial governments and improve stability within the provinces,
in October 2006 USAID/Afghanistan launched its Local Governance and Community Development Project
in the southern and eastern provinces by awarding a 3-year, $95 million contract (subsequently increased to
$164 million) to Development Alternatives, Inc. As of August 31, 2008, USAID/Afghanistan had obligated
$119 million and disbursed $41 million for the project activities.The project included four main components:
(1) supporting local public administration and governance, (2) promoting community mobilization and
development, (3) aiding local stability initiatives, and (4) providing expertise to support the provincial
reconstruction teams’ mandate.




              Canal-cleaning project in Lagham Province, shown before work began and after completion.
                                 (Photos by project implementer, left, and OIG, right)



The audit found that the project had suffered from substantial delays in the first three components. Because these
components accounted for almost all of the project’s disbursements, as the project enters its third and final year, its
success seems highly questionable.

Besides these delays, the project also has been hindered by the need for improvements in the contractor’s
monitoring and evaluation system, refinements in the mission’s operational plan indicators, and timely approval of
annual contractor work plans. Moreover, the contractor did not properly establish performance targets for the
14 key indicators in its performance monitoring plan for fiscal year (FY) 2008.

The project did achieve some planned results, such as on-the-job training for Government staff and assistance to
ministries in preparing solicitations for donor funds. In addition, the contractor was able to construct a school in
Nangarhar Province that brought two competing tribes together for a common project.




                                                                   SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   11
                         Goshta School in Nangarhar Province, Afghanistan. (Photo by project implementer)


      Of the 12 recommendations to assist the mission in improving its implementation and monitoring of local
      governance and community development activities, final actions have been taken on 8, and management decisions
      have been reached on 4.

      (Audit Report No. 5-306-09-003-P)

      Audit of USAID/Afghanistan’s Land Titling and Economic Restructuring in Afghanistan Project.
      The Government of Afghanistan is committed to reducing poverty and increasing economic growth in the private
      sector, as reflected in its National Development Strategy and as part of the larger goal of achieving a prosperous
      and stable Afghanistan.Two primary constraints impede the Government’s efforts: (1) limited or ambiguous rights
      to land and (2) state ownership of underutilized or unutilized enterprises.To help the Government of Afghanistan
      address these conditions, USAID/Afghanistan designed the Land Titling and Economic Restructuring in Afghanistan
      Project and, to implement it, awarded a 3-year, $29.2 million contract to Emerging Markets Group, Limited, in
      2004 under USAID’s Support for Economic Growth and Institutional Reform Privatization II Indefinite Quantity
      Contract. In October 2007, USAID/Afghanistan extended the project for 2 more years, through October 2009,
      and increased the total estimated cost to $56.3 million.

      The project has two components.The first focuses on land titling and registration to help the Government of
      Afghanistan improve land tenure security in urban areas, with the ultimate goal of introducing a consolidated land
      administration system in Afghanistan.The second focuses on privatizing state-owned enterprises.




                                 Two areas of the property deed office, shown before the project office
                                assisted with reorganizing the property deeds and after reorganization.
                                                       (Photos by project office)


      Our audit found that the project had achieved some of its planned results. Under the two project components,
      USAID/Afghanistan tasked the contractor to implement 18 tasks during the first 3 years of implementation, and
      the contractor completed 14 of them. Under the first component, the project laid a foundation that could benefit




12   USAID OFFICE OF INSPECTOR GENERAL
the Government of Afghanistan’s land administration system. Under the second component, in the first 3 years
the project provided technical assistance toward liquidating 23 state-owned enterprises, 3 state-owned banks, and
1 state-owned corporation. As a result, state-owned assets valued at $10.6 million have been auctioned.




                        As a result of the project’s assistance, the Agriculture Development
                       Bank was scheduled for public auction at a starting price of $5.8 million.
                                                    (Photo by OIG)



As a whole, the project achieved positive results under both components. However, because the project will end
in October 2009, little time remains to complete the remaining activities.The audit identified the following issues,
which the mission should consider during the implementation of the project over the remaining contract period:

    • 	 The liquidation process took longer than expected.
    • 	 The State-Owned Enterprise Department lacked the capacity to manage the liquidation 

        process.

    • 	 USAID investment in privatization was not always successful.
    • 	 More collaboration could strengthen the project’s impact.
    • 	 Reduction in scopes of work was not properly administered.

Final action has been taken on three of the four recommendations, and management decision has been reached
on the remaining one.

(Audit Report No. 5-306-09-004-P)

Two Americans Arrested and $60 million Subcontract Solicitation Canceled Pursuant to
Investigation of Conspiracy To Solicit Kickbacks. An investigation of a conspiracy to sell privileged
information for a security subcontract in Afghanistan, valued at approximately $60 million, led to the arrest of
two Americans and termination of the related procurement.The subjects had conspired with an employee on
the subcontract evaluation committee at an American contracting firm.That firm was required to fill a gap after
one of its incumbent security firms was debarred from U.S. Government programs pursuant to indictments in an
unrelated USAID/OIG case. One of the arrested subjects has pleaded guilty to conspiracy to solicit a kickback.
USAID determined that,“given the extent of the impropriety,” the subcontract solicitation had to be canceled.




                                                                    SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   13
      Philippines
      Former USAID Contracting Officer Indicted for Making False Claims. OIG initiated an investigation into
      allegations that a regional contracting officer had fraudulently collected a separate maintenance allowance after
      being legally separated from his spouse. The OIG investigation verified that the officer had signed various divorce-
      related documents that established his legal separation from his spouse while continuing to claim and receive more
      than $14,000 in allowance payments from USAID.

      The officer pleaded guilty to making false claims after being charged at the U.S. District Court for the District of
      Columbia.The officer faces a maximum sentence of 5 years of imprisonment, a fine of $250,000, a 3-year term of
      supervised release, and an order of restitution. Sentencing is pending.

      Iraq
      Investigation Leads to First U.S. Extradition From Estonia. In November 2007, an Estonian citizen was
      indicted in the U.S. District Court for the Middle District of North Carolina (MDNC) on charges of wire fraud,
      money laundering, and bribery pursuant to an OIG investigation.The individual had worked on a $239 million
      USAID governance contract in Iraq from May 2003 through October 2003. During that time, among other
      offenses, he unlawfully directed two subcontract agreements to a Dubai firm, which was then paid more than
      $7 million.The Dubai firm subsequently provided the contractor with hundreds of thousands of dollars in
      goods and services, including significant improvements to his North Carolina home and funds for the purchase
      and furnishing of two condominiums in Miami. After an indictment was brought, OIG worked with the U.S.
      Departments of Justice and State, Interpol, and Estonian officials to find, arrest, and return the individual to the
      United States. In September 2008, the subject was arrested in Estonia. For the next 11 months, the Department
      of Justice sought to effect his extradition under an untested 1923 treaty between the United States and Estonia
      while the subject filed motions from jail to prevent it. Finally, in August 2009, the subject was transported by U.S.
      Marshals to North Carolina, where legal proceedings will continue.

      OIG Investigation Leads to $9.5 Million Claim Against Vendor. OIG began an investigation on the basis
      of allegations that a vendor, who was providing technical assistance to USAID, had overbilled the Agency by falsely
      certifying that the vendor had completed unfinished work. An analysis, in collaboration with OIG’s Office of Audit,
      led to a claim for disallowed contract costs.

      Audit of USAID/Iraq’s Local Governance Program II Activities. To address Iraq’s lack of experience in
      local and decentralized self-governance, USAID/Iraq developed the Local Governance Program—Phase II (LGPII).
      Started in May 2005 with a $90 million base contract to Research Triangle Institute, this $370 million program
      was designed to consolidate gains made during the first Local Governance Program, which ran from 2003 to 2005,
      and to continue working with Iraqis to establish and strengthen the conditions, institutions, capacity, and legal and
      policy frameworks for a democratic local governance system.

      The audit concluded that the activities had achieved some success with the technical assistance and training it had
      provided to Iraq’s provincial councils. For example, 16 of 18 provincial councils had met the program’s criteria
      for functioning. In addition, each provincial council had finalized provincial development strategies for use as their
      provinces’ public investment plans, and 16 had invested in projects listed in their respective provincial development
      strategies. However, USAID/Iraq had not established criteria for selecting recipients of training, and the mission
      had approved a demand-driven and decentralized approach that allowed Iraqi officials to enroll in whatever training
      courses they felt would benefit them. Consequently, some 27,000 Iraqis received training, but the success or short-
      term impact of that significant amount of training on improving local governance was not measured. In addition,
      the mission’s contractor had not established controls to prevent officials from taking courses more than once, and
      some officials misused the training program by taking courses multiple times.




14   USAID OFFICE OF INSPECTOR GENERAL
LGPII’s project activities largely ended on December 31, 2008.This report contained five recommendations
that should be addressed during LGPII’s follow-on project, the Local Governance Program—Phase III. OIG
recommended that USAID/Iraq increase its oversight of training courses by approving curriculums of courses
offered to Iraqi Government officials; implement controls to minimize repetitive training; develop criteria for
identifying and selecting participant trainees; prepare contractor performance reviews promptly; and establish
policies and procedures to ensure that the reviews portray the contractors’ actual performance.

USAID/Iraq concurred with all the recommendations.

(Audit Report No. E-267-09-003-P)

Audit of USAID/Iraq’s Economic Governance II Program. USAID/Iraq’s Economic Governance II (EGII)
Program, begun in September 2004, was designed to provide technical assistance to the Government of Iraq to
develop and enable economic reforms through policy, regulations, laws, and institutional structures that would
foster a competitive private sector. To implement the program, USAID/Iraq awarded a $223 million contract to
BearingPoint, Inc.7 However, after 4 years the program has not been successful in providing the foundation for an
open, modern, mixed-market economy, and it has not made a significant impact on the economic environment in
Iraq. Further, although the program provided a great deal of technical assistance, the audit could not find any direct
or indirect connections between the contractor’s deliverables and improvements in the seven functional areas
upon which the program was expected to make an impact.

The EGII Program aimed to improve 7 key economic areas through the accomplishment of 398 individual tasks.
However, USAID officials did not establish a systematic mechanism to monitor the myriad tasks and thus could not
track whether the tasks had been performed and were on schedule.Therefore, the mission was unable to manage
the contract effectively or measure improvements in the seven key functional areas. Consequently, in September
2008, after 4 years and $192 million in incurred costs, fewer than half of the 398 tasks had been performed. In
addition, implementation of a major information system (the Iraq Financial Management Information System) was
behind schedule.

Several factors contributed to the mission’s lack of oversight of the economic governance contract, including a high
turnover of contracting officer’s technical representatives (COTR), who had been assigned to monitor the contract,
and problems with the contract itself. For example, the contract did not include a monitoring and evaluation clause
to measure the program’s results or any requirement to report progress periodically, thus impeding the ability to
monitor the program’s progress or the completion of the contract deliverables.

In addition, the program needs to conduct mandatory, program-funded information technology reviews; reduce the
contractor’s subcontract approval level; implement controls over nonexpendable property; ensure that COTRs
maintain better work files; and include an antiterrorism provision in two of the contractor’s subawards.

USAID/Iraq concurred with all 12 recommendations.

(Audit Report No. E-267-09-004-P)

Audit of USAID/Iraq’s Iraq Rapid Assistance Program. USAID’s Iraq Rapid Assistance Program (IRAP)
is designed to provide provincial reconstruction teams (PRTs) in Iraq with a flexible mechanism to support
community-based leaders and local Iraqi organizations and institutions in their efforts to improve access to public
services, education, and economic opportunities. USAID/OIG awarded a $200 million contract to Development




7
    A contract modification, signed September 30, 2008, between USAID/Iraq and BearingPoint, reduced the contract ceiling by
$1,707,314 to $223,292,653. The contract was extended to an ending date of September 2, 2009.



                                                                           SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   15
      Alternatives, Inc., to manage the grants and support the PRTs in developing grant proposals. Grants awarded under
      the program, ranging from $25,000 to $2 million, fund activities with the overarching goal of strengthening ties
      between Iraqi citizens, civil society, and government bodies.This audit was conducted to determine whether the
      program was achieving this goal.

      The program was achieving its goal for the majority of the grants reviewed. Specifically, the audit found that at
      least 30 of the 40 sampled grants tested (75 percent) were contributing toward this goal and had either fully or
      substantially achieved their intended results, as specified in their grants. Some of the reviewed grants had not
      fully achieved their intended results, however, because of a host of problems such as design-related issues, lack of




                               One of two electrical generators, costing $35,000 each, provided under an
                                IRAP grant in connection with an Iraqi rail yard rehabilitation project.
                                                           (Photo by OIG)



      coordination with local authorities, poor performance by the implementing partner’s subcontractors, and
      weak monitoring. In addition, the audit identified a series of financial irregularities—involving at least 18 of the
      40 grants reviewed (45 percent)—consisting of evidence of fictitious invoices, possible cost manipulation, and
      other improper billing practices, all underscoring the need for improved oversight. Since these irregularities
      warranted followup, they were referred to OIG/Iraq’s Office of Investigations for further review.




16   USAID OFFICE OF INSPECTOR GENERAL
                     An IRAP-funded billboard showing a sample ballot.The billboard was used as
                      part of an election awareness campaign in preparation for Iraq’s provincial
                            elections held in January 2009. (Photo by project implementer)



To address these issues, OIG recommended that USAID/Iraq require its implementing partner to establish
improved monitoring procedures and controls to ensure that (1) implementation problems are identified,
addressed, and reported to USAID promptly and the quality of goods and services provided are acceptable;
(2) the partner’s subcontractors are adhering to prescribed procedures in administering grantee payroll activities;
and (3) invoices and other financial records supporting expense claims are reviewed more thoroughly so that
irregularities, such as those identified by the audit, are detected and addressed without delay.




                          An administrative building at a large market in Baghdad that was
                                renovated under an IRAP grant. (Photo by USAID)



The mission concurred with OIG’s findings and recommendations.

(Audit Report No. E-267-09-005-P)




                                                                  SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   17
      West Bank and Gaza
      OIG’s Oversight Activities Continue in the West Bank and Gaza. OIG’s oversight activities in the West
      Bank and Gaza included an examination of USAID’s cash-transfer program to the Palestinian Authority and
      continuing audits of USAID’s contractors and grantees.

      USAID contracted with independent public accounting firms to conduct examination procedures of cash
      transfers to the Palestinian Authority; financial audits; and examination procedures of contractors, grantees,
      subcontractors, and subgrantees.These audits help ensure the validity of costs claimed and compliance with
      Executive Order 13224 regarding blocking assistance to terrorist organizations.8 During this period, OIG issued
      21 final reports. The reports identified questioned costs of approximately $16,000 of the $169.1 million audited.
      In addition, the reports identified areas for improvement in internal controls and instances of noncompliance
      with agreements. OIG oversight activities during this period did not identify any instances in which terrorist
      organizations received USAID funds.

      Jordan
      OIG Investigation Leads to Disciplinary Action for Inappropriate Personal Use of USAID
      Computer. Following allegations that a USAID locally employed staff (LES) member had misused his USAID
      computer regarding sexually explicit material, the OIG investigation verified that two LES employees had
      accessed, stored, and forwarded the prohibited material. The employees also admitted to investigators that
      they had received, viewed, forwarded, and saved the material on their computers. The mission suspended the
      employees for 5 days without pay for the inappropriate use of Government equipment.

      Egypt
      OIG Investigation Leads to USAID Employee’s 45-Day Suspension Without Pay. An OIG investigation
      verified allegations that a USAID U.S. direct-hire employee had submitted a false travel voucher for attendance at
      a conference in Washington, DC, that he did not attend. Upon completion of the investigation, the employee was
      suspended for 45 days without pay.




                          JUST AND DEMOCRATIC GOVERNMENT

      Democracy
      Audit of USAID/Sudan’s Civil Society Program. For FY 2008, USAID/Sudan reported total planned funding
      of $19.5 million for the program, awarded to four major implementing partners. The audit focused on agreements
      with three: Mercy Corps, BearingPoint, and the National Democratic Institute.

      The audit determined that USAID/Sudan’s civil society program has had a positive impact on Sudan’s civil society
      at the activity level. U.S. Government-funded programs were supporting participation and inclusion of traditionally
      marginalized ethnic minority and/or religious minority groups, media relations staff and journalists have been
      trained with U.S. Government assistance, people have completed U.S. Government-assisted civic education
      programs, and nonstate news outlets have been assisted by the program.



      8
       Executive Order 13224 of September 23, 2001—“Blocking Property and Prohibiting Transactions With Persons Who Commit,
      Threaten to Commit, or Support Terrorism.”



18   USAID OFFICE OF INSPECTOR GENERAL
Although USAID/Sudan’s civil society program has made progress, the mission can strengthen its program by
(1) ensuring that reported results are valid and reliable, (2) producing a completed performance management plan
approved by management, (3) performing thorough data quality assessments, (4) conducting thorough site visits,
and (5) completing a letter of designation for the COTR.

Management decisions have been reached on all three recommendations, which were designed to strengthen
USAID/Sudan’s civil society program by addressing the areas described above.

(Audit Report No. 4-650-09-006-P)

Audit of USAID/Honduras’ Democracy and Governance Program. USAID/Honduras’ Democracy
and Governance Program is designed to strengthen the rule of law through activities that improve the legal
framework, increase the justice sector’s capacity, expand access for traditionally marginalized groups, and develop
a more decentralized government. USAID/Honduras spent $18 million under its Democracy and Governance
Program from October 1, 2004, through September 30, 2008. USAID/Honduras implemented the program mainly
through five contracts and agreements with Florida International University, Management Systems International,
Federation of Honduran Nongovernmental Organizations, Honduran Association of Municipalities, and the
Consortium for Electoral and Political Processes.

The audit examined whether the mission’s reporting on the program had provided stakeholders with complete
and accurate information on the progress of the activities and results achieved.

Although OIG determined that there were gaps in available information on accomplishment of results, the
program showed evidence of progress. USAID/Honduras improved the efficiency of criminal court procedures,
helped strengthen the formal legal framework for the justice system and citizen access to government
information, and helped increase audit coverage of municipal governments. Through a contract with Florida
International University, USAID/Honduras helped implement a reformed criminal procedures code; draft a law
concerning a judicial council and judicial career, the Organic Law of the Judicial Branch; and reform the criminal
process code that provides for oral trials in appeals.

OIG determined that USAID/Honduras’ reporting on its Democracy and Governance Program did not always
provide stakeholders with complete and accurate information on the progress of the activities and results
achieved. Reported information was inaccurate or did not meet the definition of the indicator for 13 out of the
45 items tested from the performance reports for FY 2007 and 2008. In addition, USAID/Honduras has not
established performance targets for any performance management plan indicators, and the plan has not been
updated since January 2005.

The report included 10 recommendations for USAID/Honduras, which included actions to strengthen the follow-
on program and to determine the allowability of about $380,000 in unsupported cost-sharing contributions.
Management decisions have been reached on two recommendations.

(Audit Report No. 1-522-09-009-P)

Human Rights
Audit of USAID’s Faith-Based and Community Initiatives. OIG conducted this audit to determine
whether USAID-awarded funds have been used for religious activities and whether USAID implemented policies
and procedures for awards with faith-based and community organizations in accordance with the principles
contained in Executive Order 132799 and relevant regulations.



9
    Executive Order 13279 of December 12, 2002—“Equal Protection of the Laws for Faith-Based and Community Organizations.”



                                                                        SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   19
      The audit found that some USAID-awarded funds were used for religious activities in four contracts that
      amounted to more than $325,000.These funds were used for the rehabilitation of mosques and adjoining
      community centers in Iraq. USAID also funded lesson plans within an HIV/AIDS program in Africa that contained
      Biblical applications and discussions.

      USAID officials cannot determine whether such uses of Agency funding violated Agency regulations or the First
      Amendment to the Constitution, due to the complex nature of the constitutional issue.The process of deciding
      what activities should or should not be funded was complicated by the limited relevant legal precedent regarding
      the separation of church and state and its application overseas—especially in light of foreign policy objectives.
      USAID requested legal clarification on this issue from the Department of Justice but has not received final
      guidance.

      Generally, USAID implemented policies and procedures for awards to faith-based and community organizations
      in accordance with the Executive order and Agency regulations. USAID has policies and procedures in place to
      inform partners of the requirements and to assist in enforcement. Nevertheless, the audit identified opportunities
      to improve the administration of the Agency’s awards in accordance with the principles contained in Executive
      Order 13279.

      The report presented seven recommendations to correct identified issues.The first recommended that USAID
      consult with the executive director of White House Office of Faith-Based and Neighborhood Partnerships
      to resolve its legal question about which program activities it may or may not fund. The second and third
      recommended revisions to internal guidance to make it more thorough and to agree with the policy that
      faith-based organizations should have an equal footing in competing for Federal financial assistance. The
      fourth encouraged changing the standard clause for awards to better inform partners of USAID’s regulatory
      requirements. The remaining three recommended corrections to awards that did not provide complete
      notification of the requirements for faith-based organizations.

      USAID management has taken final action on recommendations 1 and 6, and management decisions have been
      reached on recommendations 2, 3, 4, 5, and 7.

      (Audit Report No. 9-000-09-009-P)



                          ECONOMIC GROWTH AND PROSPERITY

      Economic Security
      Audit of USAID’s Reporting on Global Development Alliances. USAID established the Global
      Development Alliance business model in 2001.These alliances are agreements between USAID and other parties
      in the development community to jointly define a development problem and contribute to its solution. Public-
      private alliances have been increasingly emphasized as a business model to enhance USAID’s effectiveness in
      delivering foreign assistance since 2001.

      The FY 2007 Joint Department of State/USAID Highlights Report stated that USAID employed a public-private
      alliance model that had leveraged $5.8 billion in cash and in-kind contributions from more than 1,700 alliance
      resource partners since 2001. Such partners included more than 100 universities and 20 of the top 50 Fortune
      500 companies.




20   USAID OFFICE OF INSPECTOR GENERAL
As a followup to a July 2005 audit, OIG conducted an audit to determine whether USAID has fully and clearly
disclosed the nature and limitations of Global Development Alliance data in monthly and annual reports. OIG
found that USAID has not done so. Although a new partnership reporting system has provided some benefit, the
following weaknesses have made the data less useful:

    • 	 USAID has not consistently met USAID standards for data quality when reporting on 

        the alliances. This reduced the usefulness of the data that the USAID Administrator and 

        others used to make decisions.

    • 	 USAID has not included sufficient disclosure statements about data limitations in 

        reports that contain data on the alliances. Without proper disclosures, the transparency 

        of the alliance data is limited and users may be unable to properly assess the data’s value 

        in drawing conclusions and making decisions.

    • 	 USAID has not followed legal and Agency requirements for security controls for a 

        new electronic partnership reporting system.Without the required due diligence on 

        system security controls, this system and other USAID systems are susceptible to 

        fraudulent activity or unauthorized access to sensitive information.


OIG provided three recommendations to correct these problems: (1) establish better controls over the reliability
of reported data on Global Development Alliances, (2) require operating units to disclose any data limitations in
monthly and annual reports, and (3) strengthen controls for the new electronic reporting system.

USAID has made management decisions on all the recommendations.

(Audit Report No. 9-000-09-007-P)

Audit of USAID/Sudan’s Road Infrastructure Activities. USAID/Sudan’s major road infrastructure activity
is upgrading the 192-kilometer Juba–Nimule road in southern Sudan from a gravel road to a paved road.The main
goals of the Juba–Nimule road project are to foster economic growth by increasing capacity for trade, facilitating
refugee resettlement and the transportation of humanitarian aid, and strengthening southern Sudanese capabilities
in road maintenance and construction.This activity is one initiative under the Sudan Infrastructure Services
Project, a 5-year, $700 million indefinite quantity contract through September 2011 with the Louis Berger Group,
Inc. As of June 2009, $66.2 million had been obligated and $36.1 million disbursed pursuant to the Juba–Nimule
road task order. Currently, the road has a projected total cost of $163.8 million and is scheduled to be completed
in November 2010.

Although USAID/Sudan’s activities thus far have been mainly preparatory, the Juba–Nimule road project is likely
to achieve its main goals. Preliminary actions, such as road grading and bridge repairs, accomplished by local firms,
have already reduced travel times and transport costs, leading to increased traffic volumes and business activity.




                        A bridge shown before repairs began and after repairs were completed.
                                          (Photos by project implementer)



                                                                  SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   21
      Newly established villages attest to the road’s use in refugee resettlement. Moreover, there was widespread
      confidence that paving the road would yield even more benefits.

      Nevertheless, implementation of the project has suffered setbacks.The project is 8 months behind schedule,
      primarily because policy questions arose during procurement of the main road construction subcontracts.
      Moreover, the total cost has risen from an estimated $87 million in the road’s feasibility study to the current
      estimate of $163.8 million.This increase resulted from such factors as erroneous assumptions and a lack of
      technical data in the feasibility study. Problems in bridge construction also contributed to higher costs. In addition,
      the audit determined that none of the people interviewed along the Juba–Nimule road were aware that this road
      was being financed by the United States. Finally, several contracts between the Louis Berger Group, Inc., and its
      subcontractors had omitted required antiterrorism language.

      To address these problems, the audit recommended that USAID/Sudan develop policies and procedures
      to provide adequate funding, scheduling, and instructions for future feasibility studies; retain an engineering
      consultant through the completion of the Juba–Nimule road; revise its branding strategy to focus more on
      direct communication with project beneficiaries; and ensure that subcontracts are modified to include required
      antiterrorism language.

      Management decisions were reached on three of four recommendations.

      (Audit Report No. 4-650-09-009-P)



                                         INVESTMENT IN PEOPLE

      Health
      Audit of USAID’s Commodities for Avian Influenza Activities. The U.S. Government has become
      increasingly concerned about the presence and rapid spread of the H5N1 strain of highly pathogenic avian
      influenza virus around the world and the potential that it could spark a deadly flu pandemic among humans.
      U.S. Government support for avian influenza control is designed with the overall goal of protecting human and
      animal health and mitigating the economic, social, and security consequences of highly pathogenic avian influenza in
      all regions of the world.

      In accordance with the U.S. Government’s National Strategy for Pandemic Influenza, USAID plays a leading role
      in the international effort to combat avian influenza. In December 2005, Congress appropriated $56.3 million to
      USAID for the prepositioning and deployment of essential supplies and equipment to prepare for and respond to
      the avian influenza virus.

      This was OIG’s second audit related to USAID’s avian influenza activities.The objective of this audit was to
      determine whether USAID had properly procured, deployed, and warehoused its avian influenza commodities.

      The audit found that, in general, USAID had properly procured, deployed, and warehoused its avian influenza
      commodities for the locations tested. However, the audit noted some opportunities for USAID to improve
      program operations. Some areas of concern noted in Indonesia and Thailand were related to (1) determining
      the usefulness and necessity of the regional distribution center in Thailand, (2) reducing excess warehouse space,
      (3) properly identifying and disposing of unusable, expired, and damaged commodities, and (4) obtaining a formal
      agreement with one of the implementing partners.

      The report included five recommendations to address these issues and improve USAID’s management of the
      commodities for avian influenza. Actions taken by management in response to our recommendations included


22   USAID OFFICE OF INSPECTOR GENERAL
deciding to close the regional distribution center in Thailand; proposing disposal of 446 unusable items (valued at
$2,325); and reducing the amount of warehouse space leased for a cost savings of approximately $106,000.

As a result of management’s actions, final action has been reached, and all five recommendations were closed upon
issuance of this report.

(Audit Report No. 9-000-09-006-P)

Worldwide Audit of USAID’s Procurement and Distribution of Commodities for the President’s
Emergency Plan for AIDS Relief and Audit of USAID/West Africa’s Procurement and Distribution
of PEPFAR Commodities in Côte d’Ivoire. In May 2003, Congress enacted legislation to fight HIV/AIDS
globally through the President’s Emergency Plan for AIDS Relief (PEPFAR). Although PEPFAR originally intended
to provide $15 billion over 5 years for the prevention, treatment, and care of individuals with HIV/AIDS,
$18.8 billion had been committed through January 3, 2008, with 58 percent allocated to programs in 15 focus
countries. On July 30, 2008, additional legislation expanded the U.S. Government’s commitment to this successful
program for 5 additional years, from 2009 through 2013.10 The legislation also increased the U.S. financial
commitment to $48 billion, of which $39 billion was set aside for HIV/AIDS programs.

As part of a worldwide audit of USAID’s procurement and distribution of HIV/AIDS commodities, OIG conducted
audits at five selected missions. Audits of the programs in Haiti, Mozambique,Vietnam, and Zambia have been
summarized in previous reporting periods. An audit of the procurement and distribution of USAID/West Africa’s
HIV/AIDS commodities in Côte d’Ivoire is summarized below.11

All five audits concluded that, in general, USAID had procured, deployed, and warehoused its HIV/AIDS
commodities to help ensure that intended results were achieved. Moreover, the audits concluded that USAID
efforts had resulted in a positive impact on the program overall.

The worldwide audit report addressed three issues to strengthen commodities management and data quality
assurance: (1) improving storage conditions for HIV/AIDS commodities, (2) limiting the expiration of commodities
and deterring the storage and use of expired commodities, and (3) verifying reported data.

USAID’s Office of HIV/AIDS agreed with the recommendations and has implemented them.

As part of the worldwide audit, the Regional Inspector General in Dakar conducted an audit to determine
whether USAID/West Africa had procured, deployed, and warehoused its HIV/AIDS commodities in Côte d’Ivoire
to help ensure that intended results were achieved and to determine the impact of these results.

One of the focus countries, Côte d’Ivoire, received $53 million in FY 2008 for HIV/AIDS activities. In
September 2005, USAID contracted with the Partnership for Supply Chain Management to procure commodities
for the care and treatment of HIV/AIDS and related infections and to provide related technical assistance to the
host countries.

Generally, USAID/West Africa procured, deployed, and warehoused its HIV/AIDS commodities to help achieve
the intended results. However, some intended results were hindered by significant problems with the inventory
management system. Antiretroviral service outlets visited did not have laboratory supplies and were short of
some critical antiretroviral drugs. Storage conditions at several pharmacies and antiretroviral service outlets did
not meet acceptable standards. Boxes were stored in unsecured hallways, upside down, and exposed to high



10
   The Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,Tuberculosis, and Malaria Reauthorization 

Act of 2008 (Public Law 110–293).

11
   The worldwide audit report summarized audit work conducted at the five missions between October 2007 and June 2008.




                                                                        SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   23
      humidity and heat.The auditors also found problems with a cost-recovery system established by the Government
      of Côte d’Ivoire to generate revenues to strengthen the country’s HIV/AIDS program. The system lacks
      transparency and accountability concerning proceeds collected from patients, and it still cannot account for an
      estimated $1.5 million collected since 2004.

      Despite these challenges, USAID/West Africa’s efforts in procuring, deploying, and warehousing its commodities
      have had a substantially positive impact on the number of individuals receiving antiretroviral therapy. Information
      in PEPFAR annual reports shows that the number of individuals undergoing antiretroviral therapy increased from
      11,097 in FY 2005 to 20,923 in FY 2006 and to 46,000 in FY 2007; the target for FY 2007 was 47,500.

      USAID/West Africa agreed with the findings and all nine recommendations and took corrective actions to
      improve the procurement and distribution of its PEPFAR commodities in Côte d’Ivoire.

      (Audit Reports No. 9-000-09-011-P and No. 7-624-09-002-P)

      Audits of Activities and Commodities for the Prevention of Mother-to-Child Transmission of HIV
      in Ethiopia, Kenya, and Tanzania. Programs to prevent mother-to-child transmission of HIV (PMTCT) are an
      important part of U.S. efforts to combat HIV/AIDS. Transmission of the virus can occur during pregnancy, at the
      time of delivery, or through breastfeeding. Approximately 630,000 babies became infected with HIV last year,
      90 percent of them in Africa.The best way to avoid mother-to-child transmission is to prevent HIV infection
      among women of reproductive age.The primary objectives of PMTCT initiatives are to expand voluntary HIV
      counseling and testing for pregnant women; administer antiretroviral drugs to mothers and infants; support safe
      options for feeding infants; and enable women and their spouses to begin full antiretroviral therapy whenever a
      country’s health care system capacity allows.

      As part of a worldwide audit of USAID’s PMTCT activities, as described in the FY 2009 annual plan, OIG
      conducted audits in Ethiopia, Kenya, and Tanzania.The audit objectives were to determine whether the programs
      had contributed toward meeting mandated targets and to determine whether the programs had procured, stored,
      and distributed PMTCT commodities to help ensure that intended results were achieved. The audits also assessed
      the activities’ impact.

      The audits found that, at all three missions, PMTCT activities had contributed to meeting targets and had made a
      positive impact on the PMTCT program. However, at all three missions, the audits also found areas that needed
      improvement.

      Ethiopia. USAID/Ethiopia has used Intrahealth International, Inc., as a key implementing partner for its program
      activities through the use of a cooperative agreement. During FY 2008, the period covered by this audit,
      $6.3 million had been allocated for the mission’s program activities, of which approximately $5 million went to
      Intrahealth International, Inc.

      The audit found that USAID/Ethiopia’s PMTCT activities had contributed toward meeting mandated targets
      for (1) pregnant women receiving HIV counseling and testing for prevention of mother-to-child transmission,
      (2) outlets providing the minimum package of program services according to standards, and (3) health workers
      providing program services according to standards. USAID/Ethiopia had procured buffer stocks for antiretroviral
      drugs, HIV test kits, and opportunistic-infection drugs to address emergency shortages and prevent running out
      of stock. USAID partners had assessed national commodity needs and provided technical training to health facility
      staff in Ethiopia. Further, the mission had taken action to address commodity storage problems by obtaining cold-
      storage space for commodities and renting warehouses.

      However, the activities had been less successful in meeting the target for HIV-infected pregnant women receiving
      antiretroviral prophylaxis to prevent mother-to-child transmission. The audit also found that the program needed
      to improve data quality; produce a mission performance management plan that reflects the current program; help



24   USAID OFFICE OF INSPECTOR GENERAL
health centers avoid shortages of opportunistic-infection drugs, lab supplies, and some types of HIV test kits; and
improve inventory records to provide complete information on the status of commodities on hand.

The audit made five recommendations to address areas in need of improvement. USAID/Ethiopia concurred and
developed plans to address the recommendations.

(Audit Report No. 9-663-09-008-P)

Kenya. USAID/Kenya’s HIV/AIDS activities are structured on a provincial basis, each province having its own
cooperative agreement implemented by a consortium of partners and comprehensively covering HIV/AIDS
prevention, care, and treatment services as well as tuberculosis, child survival, and malaria. PMTCT activities in
all provinces have expanded rapidly, increasing from 250 sites providing services in 2004 to 1,084 by mid-2006.
PMTCT services in Kenya received $21.9 million of U.S. Government funding in FY 2007 for FY 2008 activities, of
which $11.4 million was managed by USAID.

The mission reported that its activities had provided counseling and testing to 499,415 pregnant women for
FY 2008, exceeding its target for that period. The mission also indicated that it had provided antiretroviral drugs
to 21,600 HIV-infected women, a number far short of its target. However, that target was unrealistically high and
was based upon assumptions that later were modified, so the shortfall should not be viewed as diminishing the
mission’s achievement in this area. Finally, the audit found that although USAID/Kenya had properly procured,
stored, and distributed antiretroviral medications, the mission had also experienced significant challenges in
ensuring that HIV test kits were available to meet demand.

Among the program’s areas for improvement, the audit advised USAID/Kenya to (1) redistribute workload to
increase technical oversight of program activities, (2) improve documentation of site visits, (3) reevaluate the
mission’s use of the Kenya Medical Supplies Agency for distribution of HIV test kits, (4) take steps to bring the
warehousing and distribution of HIV test kits up to industry standards, (5) quantify the value of HIV test kits that
have been lost since the program’s inception and determine whether this or any amount is recoverable under
existing agreements with the Government of Kenya, and (6) work with the Government of Kenya to monitor and
evaluate systems for the procurement, storage, and distribution of HIV commodities.

The audit report included six recommendations to strengthen USAID/Kenya’s program by addressing the
areas described above. Management decisions were reached and final action taken on three recommendations.
Management decisions have been reached on the remaining three recommendations.

(Audit Report No. 4-615-09-007-P)

Tanzania. USAID/Tanzania’s FY 2008 PMTCT program involved 12 implementing partners, which received
$13.8 million under a variety of agreements.The program’s strategy began in 2004 and runs through 2014.

Among its contributions to the countrywide PMTCT program, the mission began by establishing antenatal clinics,
or service outlets, that furnish the minimum package of services to patients. By the end of FY 2008, USAID/
Tanzania had established 1,111 of these outlets, surpassing its target of 765. USAID-supported service outlets
constitute almost half of the 2,474 service facilities reported by the Government at the end of FY 2008 for all
program donors and 53 percent of all antenatal clinics in the country. In addition, although data quality problems
prevented the audit from determining the precise number of women who had received HIV counseling and testing
or who had received antiretroviral prophylaxis to prevent mother-to-child transmission in a PMTCT setting, audit
tests did indicate that a significant number of women had been counseled and tested and that HIV prophylaxis had
been administered when necessary.

Among the areas for improvement, the audit advised USAID/Tanzania to (1) improve the accuracy of reported
results, (2) prepare a complete performance management plan that provides for data quality testing, (3) complete



                                                                  SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   25
      thorough data quality assessments in a timely manner, (4) conduct thorough site visits, and (5) improve PMTCT
      commodities management.

      Management decisions have been reached on all seven recommendations in the audit report.

      (Audit Report No. 4-621-09-008-P)

      Education
      Audit of USAID/Lebanon’s Lebanon Education Assistance for Development Program. Lebanese
      schoolchildren are educated under two separate standards. Students attending private schools enjoy better
      classrooms and laboratories and better trained teachers. In contrast, students attending public schools frequently
      do not have well-equipped classrooms, which lack adequate laboratory equipment, computers, and the Internet.
      Furthermore, about 30 percent of the 1,405 Lebanese primary and secondary public schools do not meet
      minimum building code standards. According to USAID/Lebanon, this deteriorating situation has resulted in
      increased public school dropout rates.




                             School classroom in Lebanon shown with mold and mildew on the wall (left),
                                    and after renovation (right). (Photos by project implementer)


      USAID funded the program under two cooperative agreements on December 6, 2006, to International Orthodox
      Christian Charities, Inc., and Cooperative Housing Foundation International. As of January 2009, USAID/Lebanon
      had obligated $9.7 million, and the implementers had expended approximately $3.6 million and $3.1 million,
      respectively. The agreements have completion dates of June 5 and September 10, 2009.

      The audit found that USAID/Lebanon’s Lebanon Education Assistance for Development Program achieved its
      intended results and had a significant impact on improving the learning environment in Lebanese public schools
      during 2007 and 2008. Specifically, this education program improved the learning capacity of public school
      students by:

           • 	 Rehabilitating public school physical infrastructure and providing school supplies and 

               laboratory equipment.

           • 	 Providing educational material, awareness lectures, and performances on health,

               environment, civics, and computer technology.

           • 	 Establishing school clubs and parent-teacher associations.
           • 	 Providing educational posters and club newsletters.

      Despite the program’s successes, OIG made eight recommendations for USAID/Lebanon to improve several
      management controls related to program management and oversight.




26   USAID OFFICE OF INSPECTOR GENERAL
All recommendations received management decisions and final action.

(Audit Report No. 6-268-09-005-P)



                                    MANAGEMENT CAPABILITIES

Information Technology
Audit Finding on Funding for Information Technology Security and Upgrades. Under the American
Recovery and Reinvestment Act of 2009 (Recovery Act), USAID received $38 million for immediate information
technology security and upgrades to support mission-critical operations. USAID determined that the funding
would be used for the development and deployment of the Global Acquisition and Assistance System over a
2-year period. Although USAID implemented procedures for separating Recovery Act payments from other
payments, it erroneously used Recovery Act funds to pay for services that were not related to the Recovery Act.
Two invoices totaling $116,700 were improperly paid with Recovery Act funds in August 2009.These invoices
were for services rendered in February and March 2009, before USAID had received its Recovery Act funding,
and thus should not have been paid with funds obligated under the Recovery Act.These payments reduced the
funds available for satisfying current obligations incurred under the Recovery Act and have resulted in improper
payments, as defined by the Improper Payments Information Act of 2002.12 In September 2009, USAID corrected
this error and reimbursed the $116,700 to the Recovery Act Fund.

(Memorandum Report No. 0-000-009-01K)


                                      FINANCIAL MANAGEMENT

Management Accountability
Audit of USAID’s Implementation of the Millennium Challenge Corporation’s Threshold Program.
The Millennium Challenge Corporation (MCC) is a U.S. Government corporation established by Congress to
further global development by promoting economic growth, eliminating extreme poverty, and strengthening good
governance, economic freedom, and investments in people. Under the Threshold Program, MCC provides limited
funding to help countries address weaknesses that may be preventing them from obtaining large-scale MCC
assistance.

In cooperation with MCC, USAID is the primary agency implementing the Threshold Program. USAID’s
participation has expanded rapidly, from no countries in September 2004 to 18 countries in December 2008, and
has obligated about $431.5 million as of December 31, 2008. This audit was conducted to determine whether
USAID was implementing MCC’s Threshold Program in accordance with applicable policies, regulations, and
memorandums of agreement.

In some areas, USAID has implemented the Threshold Program in accordance with applicable policies and
regulations and is fulfilling the responsibilities contained in a memorandum of agreement with MCC. USAID
provided useful assistance to develop various countries’ Threshold plans, completed host-nation agreements
within established timeframes, and efficiently integrated Threshold Program activities into existing mission
operations.



12
     Public Law 107–300, 31 U.S.C. 3321 note.



                                                                SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   27
     In two areas, however, USAID’s efforts were less successful. First, USAID did not submit fourth-quarter final trial
     balances on time or notify MCC of subsequent adjustments to reported final trial balances, which created a
     $5.2 million discrepancy in MCC’s financial statements and contributed to a material weakness related to MCC
     quality control over financial reporting. Second, data quality assessments for the Threshold Programs were not
     always performed, reducing the reliability of reported data. OIG made two recommendations.

     Management decisions have been reached on both recommendations, and final action has been taken on one.

     (Audit Report No 9-000-09-010-P)

     Audit of the MCC’s Threshold Program Administered by USAID/Paraguay. To help Paraguay meet a
     criterion for control of corruption, which would make Paraguay competitive for expanded funding from the MCC,
     the MCC approved a 2-year Threshold Program in February 2006 to help Paraguay fight corruption.The program
     was extended to May 30, 2009.Totaling $34.6 million, the program was designed to focus on reducing impunity for
     corrupt practices in the public sector and informal economic activity. As of February 2009, $34.6 million had been
     obligated and $28.7 million had been spent.

     According to the most current information available from the World Bank, the program did not achieve its overall
     goal of enabling Paraguay to exceed the median score on the World Bank’s “control of corruption” indicator
     for low-income countries and thus become eligible for assistance through a compact with MCC. However, the
     program was successful in reducing informal economic activity and was partially successful in reducing impunity.
     Because of this progress, MCC has agreed to a second Threshold Program, estimated at more than $30 million.




                           As part of MCC’s assisted enforcement effort, this wine was seized near the
                         Asuncion border with Argentina from an importer that was allegedly attempting
                                            to evade customs duties. (Photo by OIG)


      More specifically, the program achieved planned results related to (1) average time required to process complaints,
      (2) reduction of value-added tax evasion rate, (3) value of seized merchandise for alleged infringement of customs
      regulations, (4) corruption cases properly submitted to the Public Ministry, and (5) number of days to start a
      business.The program partially achieved planned results related to the number of cases investigated using the
      forensics laboratory, number of government institutions implementing new standards for internal control, and
      number of government institutions exchanging public registry data.The program was not successful in increasing
      the number of government institutions subject to oversight by Congress.




28   USAID OFFICE OF INSPECTOR GENERAL
OIG made eight recommendations, including advising USAID/Paraguay to (1) coordinate with implementing
partners and the Government of Paraguay to establish an action plan to complete certain activities, (2) focus
custom and border enforcement activities more closely on Ciudad del Este, which is thought to be the center
of smuggling activity in Paraguay, (3) include indicators under the new program showing more impact toward the
MCC scorecards, (4) work with the parties involved so that boats procured for the Government of Paraguay are
functional and are being used, and (5) schedule a security system evaluation for the identification and passport
system.

USAID/Paraguay agreed to implement the recommendations and has developed specific plans to address them.
Final action has been taken on one recommendation, while a management decision has been reached on the
remaining seven.

(Audit Report No. 1-526-09-010-P)

Approximately $32,600 Recovered in Procurement Fraud Investigation. OIG initiated an investigation
after allegations that a locally employed procurement agent had submitted false invoices to the mission for local
procurements.The investigation verified that the employee had used his position to make false claims and profit
from the abuse of USAID funds.The employee was due to receive separation pay amounting to approximately
$32,600, but in collaboration with the Embassy’s regional security officer, OIG documented that the stolen money
amounted to at least this amount. As a result, no severance or other payout was made to the employee upon
termination.

Investigation Leads to Arrest and Contract Termination. Allegations that USAID had been billed for
Community Stabilization projects that were never implemented and/or completed prompted an OIG investigation.
On the basis of interviews conducted by OIG and documents obtained during the course of the investigation, a
foreign magistrate judge issued arrest warrants for 12 local nationals suspected of falsifying documents for the
alleged fictitious Community Stabilization projects billed to USAID. OIG, the Major Crimes Task Force, and local
law enforcement coordinated to obtain the arrest warrants.

Of the 12 arrest warrants issued, one arrest has been made of a dual U.S. citizen. Other arrests are pending.
The total amount of which USAID was defrauded is yet to be determined. As a result of the investigation, the
Community Stabilization contract was terminated.

Investigation Leads to $446,117 Bill of Collection. Local Peruvian landowners, in conjunction with a
contractor’s employees, unlawfully obtained USAID funds by falsifying information regarding the eradication of
coca plants and the true ownership of parcels and families participating in USAID’s Alternative Development
Program in Lima, Peru.

The investigation revealed that the contractor had made payments to individuals under fictitious names, double
payments, payments to ineligible minors, and payments to people not on the original community lists and not
eligible for benefits. Moreover, the investigation revealed that the contractor’s employees had followed an
unwritten policy to inflate the original community lists, addenda, and invoices to meet the targets and goals set by
management.

As a result of the investigation, the contractor’s chief of party and the deputy director resigned, and the
contractor entered into a settlement agreement with USAID that required the contractor to pay more than
$440,000 to resolve all issues identified by this investigation.

USAID Contract Subject to Debarment and Multiple Systemic Changes for Unlicensed Program
Services and Prostitution. An OIG investigation of a 14-year, multicontract, $250 million program in Southeast
Asia uncovered gross misconduct.The investigation disclosed that more than 100 construction subcontracts had
been sold by winning subcontractors to unlicensed contractors with the knowledge of employees at the American



                                                                  SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   29
      company that had presided over the program since 1995. A USAID employee, tasked with engineering oversight
      of many of these projects, admitted to OIG that over a period of 4 years he had accepted gifts of prostitution
      from employees of the prime contractor—including one employee who was later promoted to the second
      highest level of program command. In addition, the firm’s internal system for conducting fraud investigations was
      flawed and served to keep problem employees in place while discouraging complainants from coming forward.
      The investigation resulted in numerous systemic changes within the program. A referral sent to USAID for
      consideration of debarment from Federal programs of culpable local contracting firms and employees of the
      U.S. contractor is pending.

      Recovery of $2.1 Million Sought and Two Arrested for Fraud,Theft, False Statements, and Witness
      Tampering. OIG began an investigation after allegations were made that 90 percent of donated commodities
      distributed under a USAID-funded Democracy, Conflict, and Humanitarian Assistance Program had never reached
      the intended beneficiaries.The investigation revealed that some of the recipient communities for the food and
      building material commodities did not exist. Moreover, employees of several nongovernmental organizations
      (NGOs) tasked with implementing the program had falsified the supporting documentation for the distribution
      and receipt of the goods.As a result, USAID was billed for food distribution and community stabilization projects
      that had never been received by its intended recipients, implemented, or completed.

      The OIG investigation led to two arrest warrants issued by the Department of Justice for foreign nationals
      associated with the fraud—one of them a former senior official for one of the NGOs.The targets were accused
      of selling the food in local markets and keeping the profits.They were also alleged to have used USAID-funded
      construction materials to build multiple homes for their private use.The former senior NGO official and
      one other foreign national have been arrested and charged with multiple criminal counts of fraud, theft, false
      statements, and witness tampering. As a result of the investigation, USAID also issued a demand letter to the
      NGO to remit $2.1 million for the misuse of P.L. 480 Title II commodities.13

      Recovery of $5,000 Kickback and Termination and Arrest of a Foreign Service National. Allegations
      that a Foreign Service national (FSN) had solicited kickbacks from a USAID vendor led to an OIG investigation.
      The investigation confirmed the solicitation and receipt of the $5,000 kickback payment by the FSN. Local law
      enforcement officials arrested the employee, and USAID terminated employment services. A U.S. Government
      claim has been made on the funds, to be returned to USAID at the conclusion of the local prosecutorial process.

      Expanding Accountability
      Corruption and lack of accountability are major impediments to development. These issues threaten to negate
      years of economic growth, especially in areas of the world subject to political instability and violence. OIG audits
      and investigations afford one method of safeguarding USAID funds; however, OIG pursues additional methods
      to promote accountability and transparency. For example, OIG works with Supreme Audit Institutions (SAI) to
      expand their capabilities and provides training in cost principles and fraud awareness.

      Expanding Supreme Audit Institution Capabilities. OIG works closely with selected SAIs in countries
      where USAID is present. SAIs are the principal government audit agencies in the recipient countries and are
      often the only organizations that have a legal mandate to audit the accounts and operations of their governments.
      Therefore, SAIs may be called upon to audit funds that USAID—or other donors—provide to host governments.
      OIG and USAID missions have now signed memorandums of understanding with SAIs in 21 countries.

      Before SAIs can conduct audits for USAID, they must have professional capability and independence. OIG often
      provides training to SAIs in how to conduct financial audits of USAID funds in accordance with USAID guidelines
      and U.S. Government auditing standards. This training helps build capacity within SAIs to enhance their ability to


      13
           The Agricultural Trade Development and Assistance Act of 1954—Public Law 480,Title II,“Food for Peace.”


30   USAID OFFICE OF INSPECTOR GENERAL
audit all public funds.The SAI, the USAID mission, and OIG then sign a memorandum of understanding (MOU)
detailing standards and procedures to be used in auditing USAID funds provided to the host government.The
MOU states that OIG will provide technical advice and can perform quality-control reviews of SAI work.

Training USAID Staff and Partners. OIG remains committed to preventing losses before they occur and
continues to provide cost principles and fraud awareness training to USAID employees, contractors, grantees,
SAIs, and auditors from local accounting firms.

Cost Principles Training. USAID’s contracts and grants include provisions (cost principles) that define
what types of costs are legitimate charges to support USAID programs. Although the full text of these cost
principles is contained in voluminous sections of the Federal Acquisition Regulation (FAR) and various Office of
Management and Budget (OMB) circulars, USAID agreements generally contain only a single sentence that refers
to the applicable section of the FAR or the applicable OMB circular. To increase awareness of—and compliance
with—cost principles and to promote the highest audit standards, OIG presents training to overseas USAID staff,
contractors, grantees, and others. This training provides a general overview of U.S. Government cost principles
and specific real-world examples demonstrating concepts such as reasonableness, allocability, and various
specific cost principles (e.g., travel expenses or entertainment costs). The training also includes financial audit
requirements and accountability issues.

During this reporting period, OIG provided cost principles and related training in 4 countries and trained about
150 individuals, including USAID staff, local accounting firms, and contractors.

Fraud Awareness Training. In FY 2009, OIG conducted fraud awareness training in 16 countries for
1,668 individuals. See appendix II for more details.

Accountability Over Contractors and Grantees
USAID is required by the FAR, the Single Audit Act,14 OMB circulars, and its own internal policies and procedures 

to obtain appropriate and timely audits of its contractors, grantees, and Enterprise Funds. OIG provides oversight 

of these audit activities, ensuring that audits are conducted in accordance with appropriate quality standards and 

thereby enhancing accountability over USAID contractors and grantees. Also, in accordance with provisions in 

USAID contracts and agreements, OIG reviews audit reports of foreign organizations receiving USAID funds.


Audits of U.S.-Based Contractors. U.S.-based contractors carry out many USAID-funded activities.

The Defense Contract Audit Agency (DCAA) conducts audits, reviews, and preaward surveys of U.S.-based 

contractors on USAID’s behalf. OIG then reviews DCAA’s reports and transmits them to USAID management.


For example, a DCAA cost-incurred audit of a USAID program in Afghanistan identified $339,000 in questioned 

costs of $18.5 million audited and four reportable internal control weaknesses. On the basis of a review of 

the audit report, OIG questioned an additional $2.8 million that was not originally questioned by DCAA. OIG,

therefore, recommended that USAID/Afghanistan recover more than $339,000 in questioned costs billed to 

USAID and the $2.8 million in additional questioned costs identified.The $2.8 million in additional questioned 

costs pertained mainly to subcontractor costs incurred after the subcontract ended; the costs of acquiring and 

operating a helicopter, which should have been allocated and charged to a follow-on contract; and contract 

termination costs for which there was no USAID concurrence.


Management decisions have been reached on all report recommendations. For the questioned cost 

recommendations, the mission determined that (1) of the more than $339,000 in questioned costs, about 

$150,000 was unallowable, and (2) of the $2.8 million in additional questioned costs, about $355,000 was 

unallowable.


14
     Single Audit Act of 1984, Public Law 98–502, as amended.


                                                                 SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   31
      During this reporting period, OIG reviewed and transmitted 21 DCAA reports on U.S.-based contractors.
      These reports covered approximately $462.5 million in costs incurred by contractors and questioned more than
      $93 million.

      Audits of U.S.-Based Grantees and Enterprise Funds. U.S.-based nonprofit organizations also receive
      significant USAID funds to implement development programs overseas. As required by OMB Circular A–133,
      “Audits of States, Local Governments, and Non-Profit Organizations,” non-Federal auditors perform annual
      financial audits of USAID grantees that spend more than $500,000 of Federal funds annually.These auditors are
      required to identify

             •	   Significant deficiencies involving major programs.
             •	   Material noncompliance with laws and regulations.
             •	   Known fraud affecting a Federal award.
             •	   Misrepresentations of the status of prior audit findings.
             •	   Reasons why the auditor’s report on compliance for major programs is other than 

                  unqualified.


      OIG provides oversight for the non-Federal auditors performing these audits and reviews to determine whether
      the auditors prepared audit reports in accordance with OMB Circular A–133 reporting requirements. OIG also
      conducts quality-control reviews to determine whether the underlying audits have complied with Circular A–133
      audit requirements and U.S. Government Auditing Standards. In some instances, OIG contracts with DCAA to
      perform special financial audits and, with independent public accounting firms, to perform Agency-contracted
      financial audits of U.S.-based grantees.

      Enterprise Funds are U.S.-based nonprofit organizations established under the Support for Eastern European
      Democracy Act of 1989 (SEED Act).15 USAID has established 11 Enterprise Funds, 10 of which invest in countries
      in Eastern Europe and Eurasia, while the 11th invests in South Africa. Enterprise Funds are subject to annual
      financial statement audits performed by private accounting firms and reviewed by OIG.

      During the current reporting period, OIG

             • 	 Issued 33 desk review reports for 28 Agency-contracted audit reports and 5 A–133 

                 single audit reports covering USAID funds of approximately $937 million spent by

                 U.S.-based grantees.

             • 	 Completed one quality-control review covering approximately $80 million in grantee 

                 expenditures.

             • 	 Issued four reports completed by DCAA covering more than $68 million spent by

                 U.S.-based grantees.

             • 	 Identified more than $27.9 million in questioned costs.

      Audits of Foreign-Based Contractors and Grantees. OMB Circular A–133 does not apply to foreign-
      based contractors and grantees. Given the high-risk environment in which USAID operates, however, USAID has
      extended similar audit requirements to its foreign-based contractors and grantees through standard provisions
      included in grants, cooperative agreements, and contracts and through OIG’s “Guidelines for Financial Audits
      Contracted by Foreign Recipients.” Financial audits of foreign-based contractors and grantees are normally
      conducted by independent audit firms approved by OIG’s regional offices overseas.

      Under the Recipient-Contracted Audit Program, audits are required for all foreign nonprofit organizations that
      spend $300,000 or more per their fiscal year. USAID may also request financial audits of nonprofit organizations
      that fall below the $300,000 threshold.

      15
           Public Law 101–179, 103 Stat. 1298.



32   USAID OFFICE OF INSPECTOR GENERAL
For example, at USAID/Namibia, OIG reviewed a recipient-contracted closeout audit of a project to support a
mechanism for increased and informed interactions among elected leaders, government institutions, civil society
groups, and the public on legislative and public affairs. OIG recommended that USAID/Namibia recover, as
appropriate, about $1 million in questioned costs, covering about $2.4 million audited, and correct five material
internal control weaknesses and seven instances of material noncompliance.The questioned costs were related to
unsupported expenses for salaries and costs related to subgrants. Management decisions are pending for the audit
recommendations.

USAID’s financial audit requirements concerning its contracts, grants, and cooperative agreements are normally
satisfied under the recipient-contracted audit program. However, Agency-contracted audits may be initiated by
either USAID or OIG to provide additional audit coverage or to address specific concerns regarding USAID’s
contracts, grants, or other agreements.

At USAID/Mozambique, OIG reviewed an agency-contracted closeout audit for a contract to oversee the
management and implementation of various financial services and essential maternal and child health and family
planning. OIG recommended that USAID/Mozambique recover, as appropriate, about $2 million in questioned
costs, covering about $7.2 million audited, and correct six material internal control weaknesses and two
instances of material noncompliance. Most questioned costs were related to salaries, overhead, and travel costs.
Management decisions are pending for the audit recommendations.

OIG reviews all audit reports and, if they are found to be in compliance with the “Guidelines for Financial Audits
Contracted by Foreign Recipients,” transmits the report to the appropriate USAID mission for corrective actions.
Audit firms are also notified of any problems identified in the audit reports.

During the most recent reporting period, OIG reviewed and transmitted 111 audits of foreign-based organizations,
resulting in approximately $27 million in questioned costs. OIG also completed three quality-control reviews to
ensure that the audits were completed in accordance with appropriate audit standards.




                                                                SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   33
34   USAID OFFICE OF INSPECTOR GENERAL
                                                USADF

Audit of United States African Development Foundation’s Compliance With Provisions of the
Federal Information Security Management Act of 200216 for FY 2009. An audit was conducted to
determine whether USADF’s information system security program met FISMA requirements. OIG found that
USADF’s information security program generally complied with the requirements, but weaknesses were identified
in six areas. OIG made six recommendations to address these weaknesses. USADF’s actions in response to the
recommendations will be reviewed in the FISMA audit for FY 2010.

Management decision was reached on the six recommendations.

(Audit Report No. A-ADF-09-002-P)




16
     Public Law 107–347.



                                                              SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   35
36   USAID OFFICE OF INSPECTOR GENERAL
                                                   IAF

Audit of Inter-American Foundation’s Compliance With Provisions of FISMA for FY 2009. An audit
was conducted to determine whether IAF’s information system security program met FISMA requirements.
OIG found that IAF’s information security program generally complied with the requirements. However, OIG
made six recommendations to strengthen IAF’s information security program. IAF’s actions in response to the
recommendations will be reviewed in the FISMA audit for FY 2010.

Management decision was reached on the six recommendations.

(Audit Report No. A-IAF-09-003-P)




                                                             SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   37
38   USAID OFFICE OF INSPECTOR GENERAL
                                                                  APPENDIX I


                                      REPORTING REQUIREMENTS
                                         USAID, USADF, and IAF


                                                                          List of Tables

1.   Financial Audit Reports Issued.................................................................................................................... 41

2.   Performance Audit Reports Issued ............................................................................................................ 60

3.   Miscellaneous Audit Reports Issued .......................................................................................................... 62

4.   Afghanistan and Iraq Audits Issued ............................................................................................................ 63

5.   Unsupported, Questioned, or Disallowed Costs of Over $10 Million

     or Other Significant Findings ...................................................................................................................... 65

6.   Audit Reports Over 6 Months Old With No Management Decision ............................................... 67

7.   Significant Audit Recommendations Described in Previous Semiannual 

     Reports Without Final Action ..................................................................................................................... 69

8.   Reports Issued With Questioned and Unsupported Costs ................................................................ 72

9.   Reports Issued With Recommendations That Funds Be Put to Better Use .................................... 74





                                                                               Appendix I 




                                                                                                SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   39
40   USAID OFFICE OF INSPECTOR GENERAL
                               FINANCIAL AUDIT REPORTS ISSUED
                                           USAID

                                        April 1–September 30, 2009

                                                                                                       Amount of
                   Date of                                                                                             Type of
Report Number                                             Report Title                                  Findings
                   Report                                                                                              Findings
                                                                                                         ($000)
              AMERICAN RECOVERY AND REINVESTMENT ACT OF 2009 (ARRA)
                                Audit Finding on Funding for Information Technology Security
0-000-09-001-K    09/30/09                                                                                117              QC
                                and Upgrades
                                    FOREIGN-BASED ORGANIZATIONS
                                Audit of the Center for Social and Labor Rights, Program
                                                                                                           14              QC
0-118-09-012-R    04/16/09      under USAID Cooperative Agreement No. 118-A-00-04­
                                                                                                           13              UN
                                00047, for Fiscal Year Ended December 31, 2007
                                Audit of the Institute for Urban Economics, Program under
                                USAID Cooperative Agreements Nos. 118-A-00-01-00135,
0-118-09-017-R    04/21/09
                                118-A-00-07-00039-00, and 118-A-00-07-0060-00 for Fiscal
                                Year Ended December 31, 2007
                                Audit of RCO “GOLOS” under USAID Cooperative
0-118-09-018-R    04/07/09      Agreement No. 118-A-00-07-00028-00 for Fiscal Year Ended
                                December 31, 2007
                                Audit of AVSI Rwanda, under USAID Cooperative Agreement
0-000-09-019-R    05/19/09      No. GPO-A-00-05-00020-00, for the Period April 1, 2006
                                through September 30, 2007
                                Audit of AVSI Uganda, Program under USAID Cooperative
0-118-09-020-R    05/28/09      Agreement No. GPO-A-00-05-00020-00, for the Period
                                April 1, 2006 through September 30, 2007
                                Audit of AVSI Kenya, Program under USAID Cooperative
0-118-09-021-R    06/23/09      Agreement No. GPO-A-00-05-00020-00, for the Period
                                April 1, 2006 through September 30, 2007
                                Audit of AVSI Italy, Program under USAID Cooperative
0-000-09-022-R    07/28/09      Agreement No. GPO-A-00-05-00020-00, for the Period
                                April 1, 2006 through September 30, 2007
                                Audit of Voluntary Union of Local Governments “Association
                                of Ukrainian Cities and Communities” under USAID
0-121-09-023-R    08/12/09
                                Cooperative Agreement No. 121-G-00-05-0v712-00 for Fiscal
                                Year Ended December 31, 2007
                                Audit of Merlin, under Multiple USAID Agreements for Fiscal
0-000-09-024-R    07/20/09
                                Year Ended December 31, 2007
                                Audit of Merlin, Under USAID Cooperative Agreement No.
0-000-09-025-R    07/20/09      PPG-002-BSHN-C2-MERLIN-BPHS-AF-0-041, for Fiscal Year
                                Ended December 31, 2007




      BU—Better Use of Funds        QC—Questioned Costs          UN—Unsupported Costs            Note: UN is part of QC



                                                   Appendix I —Table 1




                                                                     SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   41

                                                                                                            Amount of
                          Date of                                                                                           Type of
     Report Number                                                 Report Title                              Findings
                          Report                                                                                            Findings
                                                                                                              ($000)
                                         Audit of The Foundation Open Society Institute Macedonia
                                         under USAID Grant Nos. 165-G-00-02-00113-00 and 165-A­
     0-165-09-026-R       06/12/09
                                         00-04-00101-00 and Cooperative Agreement No. 165-G-00­
                                         05-00102-00 for Fiscal Year Ended December 31, 2007
                                         Audit of Handicap International, Under Multiple USAID
     0-000-09-027-R       09/24/09
                                         Agreements, for Fiscal Year Ended December 31, 2007
                                         Audit of Tuberculosis Control Assistance Program under
     0-000-09-028-R       09/16/09       USAID Cooperative Agreement No. GHS-A-00-05-00019-00
                                         for Fiscal Year Ended September 30, 2006
                                         Audit of Solidarites, Under Multiple USAID Agreements for
     0-000-09-029-R       07/29/09
                                         Fiscal Year Ended December 31, 2007
                                         Audit of Action Contre La Faim, Under Multiple USAID
     0-000-09-030-R       07/20/09
                                         Agreements, for Fiscal Year Ended December 31, 2007
                                         Audit of Concern Worldwide Ltd. of Ireland, Under Multiple
     0-000-09-031-R       07/28/09                                                                               8              QC
                                         USAID Agreements, for Fiscal Year Ended December 31, 2007
                                         Audit of International HIV/AIDS Alliance, Under Multiple
     0-000-09-032-R       09/18/09
                                         USAID Agreements, for Fiscal Year Ended December 31, 2007
                                         Audit of Premiere Urgence, Under Multiple Agreements, for
     0-000-09-033-R       09/24/09
                                         Fiscal Year Ended June 30, 2007
                                         Audit of the New Eurasia Foundation, under Multiple
     0-118-09-034-R       09/14/09
                                         Agreements, for Fiscal Year Ended December 31, 2007
                                         Audit of the Fund Accountability Statement of the Contract
                                         No. 504-C-00-07-00100-00, Managed by the Community
     1-504-09-001-N       05/15/09
                                         Support and Development Services Inc. (CSDS), for the
                                         Period From May 25, 2007 to June 30, 2008
                                         Close-Out Audit of the Program “Program Opportunities for
                                         Regional Economic Development to Reduce Social Exclusion,”
                                         Agreement No. FFP-A-00-02-00023-00 for the Period January 1           163              QC
     1-527-09-049-R       06/11/09
                                         Through December 31, 2007 and “Emergency Humanitarian                  70              UN
                                         Aid,” Agreement No. 527-A-00-07-00062-00 for the Period
                                         August 23 Through December 15, 2007
                                         Financial Audit of the Project Activities to Improve Teacher
                                         Effectiveness, Under Cooperative Agreement No. 517-A-00­
     1-517-09-051-R       04/14/09       06-00102-00, Managed by the Pontificia Universidad Catolica
                                         Madre y Maestra, for the Period From July 1, 2007 to June 30,
                                         2008
                                         Close-Out Audit of the Agreement No. 512-A-00-06-00022­
                                         00, Managed by Fundacao Centro de Estudos do Comercio
     1-512-09-052-R       05/11/09                                                                             238              QC
                                         Exterior (FUNCEX), for the Period From October 1, 2006 to
                                         September 30, 2008
                                         Audit of the Fund Accountability Statement of the Expanding
                                         Education Horizons Project No. 532-0012, Managed by the               418              QC
     1-532-09-053-R       05/21/09
                                         Ministry of Education, for the Period September 1, 2006 to            417              UN
                                         June 30, 2007

             BU—Better Use of Funds          QC—Questioned Costs          UN—Unsupported Costs         Note: UN is part of QC


                                                            Appendix I —Table 1



42   USAID OFFICE OF INSPECTOR GENERAL
                                                                                                      Amount of
                   Date of                                                                                            Type of
Report Number                                            Report Title                                  Findings
                   Report                                                                                             Findings
                                                                                                        ($000)
                               Audit of the Cooperative Agreement No. 518-A-00-07­
                               00056-00,“Program for the Protection of Water Resources
                               to Keep the Biodiversity: Financial Mechanisms for the
1-518-09-054-R    05/22/09     Protection of the Watersheds of Ecuador,” Managed by the
                               Fideicomiso Mercantil Fondo Ambiental Para la Proteccion de
                               las Cuencas y Agua, for the Period From September 15, 2007
                               to September 30, 2008

                               Audit of the Fund Accountability Statement of the USAID/
                               Trade Investment and Competitiveness Program, Cooperative
1-522-09-055-R    05/29/09     Agreement No. 522-A-00-05-00303-00, Managed by the
                               Foundation for Investment and Development of Exports, for
                               the Period From January 1 to December 31, 2008

                               Close-Out Audit of the Cooperative Agreement No. 596-A­
                               00-04-00205-00 for the “Sustainable Management of
1-520-09-056-R    06/02/09     the Usumacinta River mid Basin Project,” Managed by                         1             QC
                               Fundacion Defensores de la Naturaleza, for the Period From
                               September 27, 2004 to September 26, 2006
                               Audit of the Fund Accountability Statement of the Project
                               “National Survey of Family Health - FESAL,” Cooperative
1-519-09-057-R    06/09/09     Agreement No. 519-A-00-07-00049-00, Managed by the
                               Asociacion Demografica Salvadorena, for the Period From
                               September 3, 2007 to December 31, 2008
                               Audit of the Fund Accountability Statement of the
                               Environmental Support Program, Limited Scope Agreement
1-518-09-058-R    06/11/09
                               No. 518-0126, Managed by the Galapagos National Park, for
                               the Year Ended December 31, 2007
                               Audit of the Fund Accountability Statement of the Project No.
                               596-A-00-06-00099-00, Managed by the Water Center for the
1-596-09-059-R    06/16/09
                               Humid Tropics of Latin America and the Caribbean, for the
                               Period From September 18, 2006 to September 30, 2007
                               Audit of the Fund Accountability Statement of Cooperative
                               Agreement No. 527-A-00-08-00014-00:“Youth Development
                               in Peruvian Coca Growing Areas,” Managed by the
1-527-09-060-R    08/14/09
                               Information and Education Center for the Prevention of
                               Drug Abuse (CEDRO), for the Period from March 1, 2008 to
                               February 28, 2009
                               Audit of the Fund Accountability Statement of the Program
                               to Strengthen Competitiveness of Guatemalan Business
                               and Products, Cooperative Agreement No. 520-A-00-05­
1-520-09-061-R    08/20/09
                               00009-00, Administered by the Asociacion Guatemalteca de
                               Exportadores (AGEXPORT), for the Year Ended
                               December 31, 2008




      BU—Better Use of Funds       QC—Questioned Costs          UN—Unsupported Costs            Note: UN is part of QC


                                                  Appendix I —Table 1



                                                                    SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   43
                                                                                                            Amount of
                          Date of                                                                                           Type of
     Report Number                                                 Report Title                              Findings
                          Report                                                                                            Findings
                                                                                                              ($000)
                                         Closeout Audit of the Fund Accountability Statement of
                                         the Bridging Activity for the Uplifting Adolescents Project,
                                         Cooperative Agreement No. 532-C-00-05-00097-00, Managed
     1-532-09-062-R       08/26/09                                                                               1              QC
                                         by the People’s Action for Community Transformation
                                         (PACT), for the Period from September 16, 2005 to
                                         February 28, 2006
                                         Audit of the Fund Accountability Statement of the Project
                                         “Hydra, Forest and Biodiversity Resources Managed for
                                         Sustainable Economic Development” Sub Agreement Managed
     1-511-09-063-R       08/27/09
                                         by the Amazonian Forest Development Center (CADEFOR)
                                         Under the Cooperative Agreement No. 511-A-00-02-00200­
                                         00, for the Year Ended December 31, 2007
                                         Agency Contracted Audit of USAID Resources Managed by
                                         Wits Health Consortium (WHC) under the Cooperative
                                         Agreement Nos. 674-A-00-05-00003-00 and 674-A-00-05­
                                         00004-00 and Agency Contracted Closeout Audit of USAID
                                                                                                              1,419             QC
     4-674-09-012-N       05/11/09       Resources Managed by Wits Health Consortium (WHC)
                                                                                                                5               UN
                                         under the Bilateral Grant Agreement No. 674-0320-G-00­
                                         5053-10, Project Implementation Letters Nos. 10, 14, 15,
                                         16, 17, 19, 20, 21 and 23 for the period January 1, 2004 to
                                         December 31, 2005
                                         Agency Contracted Audit of USAID Resources Managed
                                         by Mission for Essential Drugs and Supplies (MEDS) under               97              QC
     4-615-09-013-N       06/24/09
                                         Contract No. 623-C-00-05-00008-00 for the period                       95              UN
                                         November 8, 2004 to March 31, 2008
                                         Agency Contracted Audit of USAID Resources Managed By
                                         Southern African Development Community Parliamentary
                                                                                                                11              QC
     4-674-09-015-N       08/11/09       Forum (SADC-PF) Under Strategic Objective Grant
                                                                                                                 1              UN
                                         Agreement (SOAG) No. 690-0305 for the Period April 1,
                                         2007 to March 31, 2009
                                         Close-out Audit of USAID Resources Managed by Ernst &
                                                                                                                73              QC
     4-656-09-016-N       09/14/09       Young Under Contract No. 656-I-00-01-00080-00 for the
                                                                                                                 2              UN
                                         Period October 10, 2001 to March 31, 2005
                                         Close-out Audit of USAID Resources Managed by Deloitte
                                         & Touche Under Contract Nos. 656-I-00-01-00078-00 Task
                                         Order No. 01 (Health) for the Period March 11, 2002 to
                                         June 30, 2004, 656-I-00-01-00078-00 Task Order No. 08                1,980             QC
     4-656-09-017-N       09/14/09
                                         Center for Promotion of Rural Financial Services for the               3               UN
                                         Period August 1, 2003 to March 31, 2005, and 656-C-00-00­
                                         00066-00 Project Management Unit for the Period August 21,
                                         2000 to December 31, 2002
                                         Audit of USAID Resources Managed by Foundation for
                                         Community Development, Maputo Development Corridor
     4-656-09-036-R       04/08/09
                                         Project under Cooperative Agreement No. 656-A-00-04­
                                         00041-00 for the year ended September 30, 2006



             BU—Better Use of Funds          QC—Questioned Costs          UN—Unsupported Costs         Note: UN is part of QC


                                                            Appendix I —Table 1



44   USAID OFFICE OF INSPECTOR GENERAL
                                                                                                      Amount of
                   Date of                                                                                            Type of
Report Number                                            Report Title                                  Findings
                   Report                                                                                             Findings
                                                                                                        ($000)
                               Recipient Contracted Audit of USAID Resources Managed
                               by the Amhara National Regional State Food Security
4-663-09-037-R    04/08/09     Coordination and Disaster Prevention Office (AFSCDPO)
                               under Strategic Grant Agreement (SOAG) No. 663-016-016
                               for the year ended December 31, 2007
                               Audit of USAID Resources Managed by Foundation for
                               Community Development, Maputo Development Corridor
4-656-09-038-R    04/08/09
                               Project under Cooperative Agreement No. 656-A-00-04­
                               00041-00 for the year ended September 30, 2007
                               Closeout Audit of USAID Resources Managed by Transparency
                               International Zimbabwe under Cooperative Agreement
4-674-09-039-R    04/09/09                                                                                12             QC
                               No. 690-A-00-05-00104-00 for the thirty months ended
                               December 15, 2007
                               Audit of USAID Resources Managed by Pastoral Activities and
                               Services for People with AIDS Dar es Salaam Archdiocese
                               (PASADA), To Provide Support for a Program in Scaling
                               up HIV/AIDS Services Including Support to Orphans and
4-621-09-040-R    05/11/09
                               Vulnerable Children (OVC), Community Education and
                               Voluntary Counseling and Testing (VCT), Cooperative
                               Agreement No. 621-A-00-06-00011-00 for the period
                               October 1, 2006 to December 31, 2007
                               Audit of USAID Resources Managed by Deloitte Consulting
                               Limited for TUNAJALI program to HIV/AIDS Care and
                               Treatment and Rapid Funding Envelope under Contract
                               No. 621-C-007-00002-00, Community Care for People
                               Living With HIV/AIDS (PLWHA) and Orphans/Vulnerable
4-621-09-041-R    05/11/09     Children (OVC) under Cooperative Agreement No. 621­                        25             QC
                               A-00-07-00023-00, and the winding up of Quick Start Care
                               & Treatment and Rapid Funding Envelope for HIV/AIDS
                               under Strategic Objective Agreement No. 621001-01 under
                               Contract No. 623-C-00-03-00004-00 for the period
                               October 26, 2006 to December 31, 2007
                               Audit of USAID Resources Managed by The Children of
                               God Relief Institute (COGRI) under Lea Toto Orphans
4-615-09-042-R    05/11/09     and Vulnerable Children (OVC) programs, Cooperative                         3             QC
                               Agreement No. 623-A-00-06-00037-00 for the year ended
                               June 30, 2008
                               Recipient Contracted Audit of USAID Resources Managed by
4-617-09-043-R    05/11/09     Hospice Africa Uganda, under Cooperative Agreement No.
                               617-A-00-05-00010-00 for the year ended March 31, 2008
                               Closeout Audit of USAID Resources Managed by Educational
                               Opportunities Council under Cooperative Agreement No.                      558            QC
4-674-09-044-R    05/11/09
                               674-A-00-90-00038, for the period January 1, 2003 to                       506            UN
                               March 31, 2004




      BU—Better Use of Funds       QC—Questioned Costs          UN—Unsupported Costs            Note: UN is part of QC


                                                 Appendix I —Table 1



                                                                    SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   45
                                                                                                              Amount of
                           Date of                                                                                            Type of
      Report Number                                                Report Title                                Findings
                           Report                                                                                             Findings
                                                                                                                ($000)
                                         Recipient Contracted Close-Out Audit of USAID Resources
                                         Managed by Right To Care, under Cooperative Agreement
     4-674-09-045-R       05/11/09                                                                                 2              QC
                                         No. 674-A-00-02-00018-00 for the 21-month period
                                         January 1, 2006 to September 30, 2007
                                         Recipient Contracted Audit of USAID Resources Managed
                                         by Counseling Services Unit, under Grant Agreement                       11              QC
     4-613-09-046-R       05/26/09
                                         No. 613-G-00-01-00244-00 for the period October 1, 2005                  11              UN
                                         to December 31, 2007
                                         Recipient Contracted Audit of USAID Resources Managed by
                                         Mildmay International-Kenya under Cooperative Agreement
     4-615-09-047-R       06/08/09       No. 623-A-00-07-00014-00, USAID support for strengthening                58              QC
                                         the home based care services in Kenya for the period
                                         January 1, 2007 to March 31, 2008
                                         Recipient Contracted Audit of USAID Resources Managed
                                         by Kenya Wildlife Services (KWS), under Development                      65              QC
     4-615-09-048-R       06/10/09
                                         Assistance Grant Agreement No. 615-005, Implementation                   25              UN
                                         Letter No. 8, for the period July1, 2006 to June 30, 2007
                                         Recipient Contracted Audit of USAID Resources Managed
                                         by Lewa Wildlife Conservancy under Cooperative Agreement
     4-615-09-049-R       06/19/09                                                                                19              QC
                                         No. 623-A-00-05-00010-00 for the period December 1, 2004
                                         to December 31, 2007
                                         Audit of USAID Resources managed by the Government of
                                         the United Republic of Tanzania’s Ministry of Health and Social
                                         Welfare—Primary Health Care Institute (PHCI) Iringa Project
     4-621-09-050-R       06/24/09
                                         Under Strategic Objective Grant Agreement No. 621-0011­
                                         01, Implementation Letters No. 6 and 10 for the period
                                         July 1, 2007 to June 30, 2008
                                         Audit of USAID Resources Managed by the Ministry of Health
                                         and Social Welfare—Centre for Educational Development
     4-621-09-051-R       06/24/09       in Health Arusha (CEDHA) under Strategic Objective Grant
                                         Agreement No. 621-0001-01, Implementation Letter No. 11
                                         for the July 1, 2007 to June 30, 2008
                                         Recipient Contracted Close-Out Audit of USAID Resources
                                         Managed by Namibia Institute for Democracy under the
                                         Program: Strengthening the Interaction between Civil                    1,021            QC
     4-673-09-052-R       07/06/09
                                         Society and Selected Government Institutions Cooperative                 348             UN
                                         Agreement No. 690-A-00-04-00267-00 for the period
                                         January 1, 2006 to June 30, 2008
                                         Recipient Contracted Audit of USAID Resources Managed
                                         by the Association for Strengthening Agricultural Research in
     4-623-09-053-R       07/06/09       Eastern and Central Africa (ASARECA) under Cooperative
                                         Agreement No. 623-A-00-06-00082-00 for the year ended
                                         December 31, 2008




             BU—Better Use of Funds          QC—Questioned Costs         UN—Unsupported Costs            Note: UN is part of QC


                                                            Appendix I —Table 1



46   USAID OFFICE OF INSPECTOR GENERAL
                                                                                                      Amount of
                   Date of                                                                                            Type of
Report Number                                            Report Title                                  Findings
                   Report                                                                                             Findings
                                                                                                        ($000)
                               Recipient Contracted Audit of USAID Resources Managed
                               by Kara Counseling and Training Trust (KCTT), under
4-000-09-054-R    07/20/09                                                                                 1             QC
                               Cooperative Agreement No. GHH-A-00-07-00012-00, for
                               year ended December 31, 2007
                               Audit of the USAID Resources Managed by Kenya Agricultural
                               Research Institute under USAID the Strategic Objective and
4-615-09-055-R    07/20/09
                               Development Assistance Grant Agreement No. 615-007 (PIL
                               Nos. 3 and 7) for the period July 1, 2006 to June 30, 2007
                               Recipient Contracted Audit of USAID Resources Managed by
                               Mildmay International Tanzania under Cooperative Agreement                 124            QC
4-621-09-056-R    07/20/09
                               No. 621-A-00-07-00008-00 for the 15 months period ended                     19            UN
                               March 31, 2008
                               Recipient Contracted Audits of USAID Resources Managed
                               by Regional Centre for Quality of Health Care under
                               Limited Scope Grant Agreement No. 6230010.40-00002                         32             QC
4-623-09-057-R    07/20/09
                               and the Strategic Objective Grant Agreement No.                             7             UN
                               623SAOG6230011.02-60088 for the year ended
                               June 30, 2008
                               Audit of USAID Resources Managed by the Ministry of
                               Health’s Improved Family Health under Strategic Objective                  14             QC
4-663-09-058-R    07/22/09
                               Grant Agreement (SOGA) No. 663-008 & 0017 for the                           7             UN
                               period July 8, 2004 to July 7, 2007
                               Audit of USAID Resources Managed by Right to Care under
4-674-09-059-R    07/24/09     Cooperative Agreement No. 674-A-00-08-00007-00 for the                     15             QC
                               year ended September 30, 2008
                               Recipient Contracted Audit of USAID Resources Managed
                               by Commonwealth Regional health Community for East,
                               Central and Southern Africa (CRHC-ECSA) under Limited
4-623-09-060-R    07/27/09
                               Scope Grant Agreement No. 6980483.23.80003 and Strategic
                               Objective Grant Agreement No. 6230011.02-60087 for the
                               year ended June 30, 2008
                               Audit of USAID Resources Managed by Joint Clinical
                                                                                                          939            QC
4-617-09-061-R    07/27/09     Research Centre under Cooperative Agreement No. 617-A­
                                                                                                           4             UN
                               00-04-00003-00 for the year ended June 30, 2008
                               Audit of USAID Resources Managed by Business Against
                                                                                                          688            QC
4-674-09-062-R    07/29/09     Crime under Cooperative Agreement No. 674-A-00-02­
                                                                                                          688            UN
                               00012-00 for the year ended May 31, 2008
                               Recipient Contracted Audit of USAID Resources Managed
                               by Afar Pastoral, Agriculture and Rural Development Bureau,
4-663-09-063-R    09/15/09                                                                                14             QC
                               under Limited Scope Grant Agreement (LSGA) No. 663-016,
                               for the Period November 15, 2006 to July 7, 2008




      BU—Better Use of Funds       QC—Questioned Costs          UN—Unsupported Costs            Note: UN is part of QC


                                                  Appendix I —Table 1



                                                                    SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   47
                                                                                                        Amount of
                           Date of                                                                                      Type of
      Report Number                                               Report Title                           Findings
                           Report                                                                                       Findings
                                                                                                          ($000)
                                         Recipient Contracted Audit of USAID Resources Managed
                                         by Kenya Plant Health Inspectorate Services, Under the
                                         Agribusiness Development Support Project (ADSP) No.
     4-615-09-064-R       09/15/09
                                         615-0268-024 & 047 and Increased Rural Household Incomes
                                         (SO7) Project No. 615-007-009, for the Period March 1, 2001
                                         to September 30, 2005
                                         Recipient Contracted Audit of USAID Resources Managed by
                                                                                                             1              QC
     4-663-09-065-R       09/21/09       Addis Ababa Fistula Hospital under Grant No. 663-G-00-06­
                                                                                                             1              UN
                                         00418-00 for the year ended June 30, 2008
                                         Close-out Audit of USAID Resources Managed by Coast
                                         Development Authority under Development Assistance
                                         Grant Agreement No. 615-005, Implementation Letter No. 2
     4-615-09-066-R       09/21/09       for Kenya Coastal Management Program and Limited Scope             26              QC
                                         Agreement No. 615-007-LSGA-001 Implementation Letter
                                         No. 1 for Coastal Microenterprise Development Program for
                                         the period August 19, 2003 to June 30, 2007
                                         Recipient Contracted Audit of USAID Resources Managed by
                                         CTA-Confederacao das Associacoes Economicas
                                                                                                            379             QC
     4-656-09-067-R       09/21/09       de Mocambique under Cooperative Agreement No.
                                                                                                            340             UN
                                         656-A-00-04-00050-00 for the period October 1, 2005 to
                                         September 30, 2008
                                         Recipient Contracted Audit of USAID Resources Managed by
                                         Olive Leaf Foundation 1989 under Cooperative Agreements
                                                                                                            439             QC
     4-674-09-068-R       09/28/09       Numbered GPO-A-00-05-00007-00 and GPO-A-00-00014-00,
                                                                                                            420             UN
                                         as well as Sub Agreement No. M5-G-002 for the year ended
                                         December 31, 2006
                                         Recipient Contracted Audit of USAID Resources Managed
                                         by Inter-Governmental Authority on Development
                                         (IGAD)/Conflict Early Warning and Response Mechanism
     4-623-09-069-R       09/28/09
                                         (CEWARN) under Limited Scope Grant Agreement (LSGA)
                                         No. 6230009.02-03-600082 for the year ended
                                         December 31, 2008
                                         Recipient contracted close-out audit of USAID resources
                                         managed by Egerton University under Strategic Objective
                                                                                                           1,434            QC
     4-615-09-070-R       09/28/09       Grant Agreement No. 615-007 and Project Agreement
                                                                                                           1,292            UN
                                         No. 615-0268 for the period October 1,2005 to
                                         September 30, 2006
                                         Financial Audit of USAID Resources Managed by the
                                         Department of Health Services, Government of Nepal, Under
                                         USAID Strategic Objective Grant Agreement Project No.              29              QC
     5-367-09-003-N       05/13/09
                                         367-02A1, Implementation Letter No. 41 for the Period from          8              UN
                                         July 16, 2004, to July 15, 2005, and Implementation Letter
                                         No. 44 for the Period from July 16, 2005 to July 15, 2006




             BU—Better Use of Funds         QC—Questioned Costs         UN—Unsupported Costs       Note: UN is part of QC


                                                           Appendix I —Table 1



48   USAID OFFICE OF INSPECTOR GENERAL
                                                                                                       Amount of
                   Date of                                                                                              Type of
Report Number                                            Report Title                                   Findings
                   Report                                                                                               Findings
                                                                                                         ($000)
                               Financial Audit of the Budgetary Support, USAID/Pakistan
                               Program Assistance Agreement Nos. 391-005-ES-05 and 391­
5-391-09-006-N    08/13/09
                               005-ES-06, Managed by the Ministry of Finance, Government
                               of Pakistan, for the years ended June 30, 2006 and 2007
                               Financial Audit of the Aga Khan University - Examination
                               Board (AKU-EB), USAID/Pakistan Cooperative
5-391-09-007-R    04/29/09
                               Agreement No. 391-A-00-03-01003-00, for the Period from
                               January 1, 2006, to December 31, 2006
                               Financial Audit of the College Improvement Program,
                               USAID/Pakistan Grant Agreement No. 391-G-00-04-01036­
5-391-09-008-R    04/30/09                                                                                1,164           QC
                               00, Managed by Forman Christian College, Lahore (FCC), for
                               the Period from August 23, 2004 to June 30, 2007
                               Financial Audit of Institutional Development/Maternal/Child
                               Health/Reproductive Health, USAID’s Cooperative Agreement
                                                                                                           283            QC
5-442-09-009-R    05/08/09     No. 493-A-00-04-00005-00, Managed by Reproductive and
                                                                                                           283            UN
                               Child Health Alliance (RACHA), for the Year Ended
                               December 31, 2007
                               Financial Audit of the Institutional Development and Service
                               Delivery Support Project, USAID/Cambodia Cooperative
                                                                                                           58             QC
5-442-09-010-R    05/08/09     Agreement No. 442-A-00-99-00033-00, Managed by the
                                                                                                           58             UN
                               Reproductive Health Association of Cambodia (RHAC), for
                               the Year Ended December 31, 2007
                               Financial Audit of USAID Funds Managed by the ICICI Bank
5-386-09-011-R    05/12/09
                               Limited, for the Years Ended March 31, 2008 and May 31, 2008
                               Closeout Financial Audit of the Strengthening Support Service
                               and Institutional Infrastructure for India’s Microfinance Sector,
                               Award No. 386-A-00-02-00205-00, Managed by Sa-Dhan
5-386-09-012-R    05/13/09
                               (Societies Registered under the Andhra Pradesh,Telengana
                               Area, Public Societies Registration Act 1350), for the Period
                               April 1, 2007 to March 31, 2008
                               Financial Audit of the Developing Non-Bankable Territories
                               for Financial Services Program, USAID/Pakistan Cooperative
5-391-09-013-R    06/25/09
                               Agreement No. 391-A-00-03-01011-00, Managed by Khushhali
                               Bank, for the Period from January 1 to December 31, 2007
                               Financial Audit of the Grant Funds Received by UPecon
                               Foundation, Inc. pertaining to the Health Policy Development
                               Program funded by United States Agency for International
5-492-09-014-R    07/07/09                                                                                 95             QC
                               Development under Cooperative Agreement No.
                               492-A-00-06-00031 for the period October 6, 2006 to
                               December 31, 2007
                               Financial Audit of the National Integrated Population and
                               Health (NIPH) Program, USAID/Bangladesh Cooperative
5-388-09-015-R    07/23/09     Agreement No. 388-A-00-97-00033-00, Managed by the Social                   48             QC
                               Marketing Company (SMC) for the 36-month period ended
                               September 30, 2006


      BU—Better Use of Funds       QC—Questioned Costs          UN—Unsupported Costs             Note: UN is part of QC


                                                   Appendix I —Table 1



                                                                     SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   49
                                                                                                            Amount of
                          Date of                                                                                           Type of
     Report Number                                                 Report Title                              Findings
                          Report                                                                                            Findings
                                                                                                              ($000)
                                         Closeout Audit of the National Integrated Population and
                                         Health (NIPH) Program, USAID/Bangladesh Cooperative
     5-388-09-016-R       07/23/09       Agreement No. 388-A-00-97-00033-00, Managed by the                      1              QC
                                         Social Marketing Company (SMC) for the Period from
                                         October 1, 2006 to December 31, 2007
                                         Financial Audit of the AVERT Project, USAID/India Project
                                                                                                                 4              QC
     5-386-09-017-R       07/31/09       No. 386-0544, Managed by the AVERT Society, for the Period
                                         from April 1, 2007 to March 31, 2008
                                         Financial Audit of the CAP Foundation, USAID/India Award
                                         No. 386-G-00-06-00125-00 for the Workforce Development
                                         Initiative Project and USAID Award No. 386-A-00-06-00180­
     5-386-09-018-R       08/10/09
                                         00 for the Madrasa Project, Managed by the CAP Foundation,
                                         for the Periods from September 12, 2006 to March 31, 2008
                                         and September 29, 2006 to March 31, 2008, respectively
                                         Closeout Audit of the Project Titled “Targeted Intervention
                                         Economic Reform and Governance—Institutional Grant
                                         for Policy Development” USAID/Philippines Cooperative
     5-492-09-019-R       09/03/09
                                         Agreement No. 492-A-00-04-00024-00, Managed by the
                                         Ateneo de Manila University (AdMU), for the Period from
                                         April 1, 2007 to June 30, 2008
                                         Financial Audit of USAID Resources Managed by Voluntary               171              QC
     5-386-09-020-R       09/04/09
                                         Health Services (VHS), for the Year Ended March 31, 2008               7               UN
                                         Financial Audit of the Program “Regenerating Murad Khane,
                                         Restoring, Refurbishing and Revitalizing the Old City,” USAID/
     5-306-09-021-R       09/29/09       Afghanistan Cooperative Agreement No. 306-A-00-09-00503­                5              QC
                                         00, Managed by the Turquoise Mountain Trust (TMT), for the
                                         Period from November 2, 2008 to December 31, 2008
                                         Examination Procedures Related to Resources Provided to
                                         the Palestinian Authority Through the Ministry of Finance
     6-294-09-009-N       05/21/09       Under the Cash Transfer Grant Agreement Dated
                                         March 19, 2008, For the Period From March 19, 2008 to
                                         April 30, 2008
                                         Audit of the Cost Representation Statement of USAID
                                         Resources Managed by DPK Consulting, Under Contract
     6-294-09-010-N       05/27/09       Number DFD-I-00-04-00173-00,“NETHAM Rule of Law
                                         Program,” for the Period From September 30, 2006 to
                                         September 30, 2007
                                         Final Financial Audit of the National Law Commission,
                                         Financial Sector Modernization Program, Competitive
                                                                                                               182              QC
     6-263-09-011-R       04/07/09       Environment for Investment, Under USAID Agreement
                                                                                                               157              UN
                                         Number 263-0289-02, Implementation Letter No. 3, for the
                                         Period From October 1, 2007 to January 31, 2009




             BU—Better Use of Funds          QC—Questioned Costs          UN—Unsupported Costs         Note: UN is part of QC


                                                            Appendix I —Table 1



50   USAID OFFICE OF INSPECTOR GENERAL
                                                                                                   Amount of
                 Date of                                                                                            Type of
Report Number                                        Report Title                                   Findings
                 Report                                                                                             Findings
                                                                                                     ($000)
                            Financial Audit of USAID Resources Managed by Credit
                            Guarantee Company, Small & Medium Scale Enterprise,
6-263-09-012-R   04/09/09
                            Cooperative Agreement No. 263-A-00-03-00020-00, for the
                            Period From January 1, 2005 Through December 31, 2006
                            Financial Audit of USAID Resources Managed and
                            Expenditures Incurred by the State Information Service/
                            Information, Education and Communication Center Under
6-263-09-013-R   04/30/09
                            USAID/Egypt Grant Agreement Number 263-0287.05,
                            Implementation Letter Number 1, for the Period From
                            October 1, 2006 to December 31, 2007
                            Financial Audit of USAID Resources Managed and
                            Expenditures Incurred by Financial Sector Modernization
                            Program/Competitive Environment for Investment/Advisory
6-263-09-014-R   05/19/09
                            and Monitoring Unit, USAID/Egypt Grant Agreement No. 263­
                            0289.02, Implementation Letter No. 2, for the Period From
                            January 1, 2007 to December 31, 2007
                            Financial Audit of USAID Resources Managed and
                            Expenditures Incurred by the Ministry of Health and
                            Population, Strengthening Avian Influenza Detection and
6-263-09-015-R   06/18/09   Response Project, USAID/Egypt Grant Agreement Number
                            263-0287, Element Number A050, Implementation Letter
                            Number 1, for the Period From October 1, 2007 Through
                            December 31, 2008
                            Financial Audit of USAID Resources Managed and
                            Expenditures Incurred by Forum for Development and
6-263-09-016-R   06/16/09   Human Rights Dialogue, Under “An Eye on the Community”
                            Program, Grant Agreement Number 263-G-00-07-00087-00,
                            for the Period From September 5, 2007 to October 31, 2008
                            Financial Audit of the Fund Accountability Statement of the
                            American Chamber of Commerce in Egypt,Trade Related
6-263-09-017-R   07/21/09   Assistance Center, Grant Agreement Number 263-G-00­
                            06-00001-00, for the Period From January 1, 2008 Through
                            December 31, 2008
                            Financial Audit of Ministry of Health and Population,
                            Integrated Maternal Child Health, Reproductive Health
6-263-09-018-R   09/17/09   Services, Family Planning Project, Under USAID Agreement
                            Number 263-0287.07, Implementation Letter No. 1, for the
                            Period From January 1, 2006 Through December 31, 2007
                            Financial Audit of USAID/Egypt Resources Managed and
                            Expenditures Incurred by Financial Sector Modernization
                            Program/Financial Services Project, Mortgage Finance
6-263-09-019-R   09/28/09
                            Authority Experts, Grant Agreement Number 263-0289.01,
                            Implementation Letter No. 4, for the Period From
                            January 1, 2007 to December 31, 2008




                                               Appendix I —Table 1



                                                                 SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   51
                                                                                                         Amount of
                          Date of                                                                                        Type of
     Report Number                                                 Report Title                           Findings
                          Report                                                                                         Findings
                                                                                                           ($000)
                                         Final Financial Audit of USAID/Egypt Resources Managed
                                         and Expenditures Incurred by the Customs Reform Unit,
     6-263-09-020-R       09/28/09       Grant Agreement Number 263-0284, Implementation
                                         Letter Number 3, for the Period From July 1, 2
                                         008 to August 31, 2009
                                         Audit of Massar Associates Cost Representation Statement,
                                         Subcontract Number PITA-WBG-002, Under Chemonics
                                         International Incorporated, Contract Number PCE-I-00-98­
     6-294-09-023-N       09/29/09
                                         00015-00,Task Order Number 22,With Palestinian Integrated
                                         Trade Arrangement, for the Period From October 7, 2005 to
                                         May 15, 2008
                                         Audit of USAID Resources Managed by Holy Family Hospital,
                                         Under Cooperative Agreement Number 294-A-00-05-00236­
     6-294-09-024-N       09/30/09       00,“Partnership for Expanded Access to Quality Maternal and         11              QC
                                         Neonatal Health Care for Palestinian Women and Infants,” for
                                         the Period From October 1, 2006 to September 30, 2007
                                         Close-Out Audit of the Fund Accountability Statement of
                                         USAID Resources Managed by Maan Development Center,
                                         Under Sub-Grant From World Vision, Inc., Cooperative
     6-294-09-027-N       09/30/09
                                         Agreement Number 294-A-00-02-00226-00,“Job
                                         Opportunities Through Basic Services,” for the Period
                                         From September 1, 2005 to December 31, 2006
                                         Closeout Audit of the USAID Resources Managed by
                                         Concern Universal under Program No. 688-A-00-03-00028­             257              QC
     7-635-09-001-N       06/30/09
                                         00, Enhancing Economic Stability and Social Unity in The            75              UN
                                         Gambia for the period March 14, 2003 to July 31, 2006
                                         Agreed-upon Procedures Review of USAID Funds Managed
                                         by “Le Soutien” in Cote d’Ivoire under Cooperative
     7-681-09-001-O       07/31/09                                                                          285              QC
                                         Agreement No. GHH-A-00-07-00022-00 for the Period
                                         December 1, 2006 through June 30, 2008
                                         Audit of the Fund Accountability Statement of “Office du
                                         Niger” for the Construction of the Canal KL IV under
                                         the Sustainable Economic Growth Objective Program
     7-688-09-005-R       05/29/09                                                                            7              QC
                                         (CED—688-0273) and the Accelerated Economic Growth
                                         (SOAG No. 688-009-00) for the Period from January 20, 2004
                                         through December 31, 2006
                                         Recipient Contracted Audit of USAID Resources Managed by
                                         the Gembu Centre for HIV/AIDS Advocacy Nigeria Under                27              QC
     7-620-09-006-R       09/03/09
                                         Grand Agreement No. 620-A-00-08-00076-00 for the period             25              UN
                                         beginning January 15, 2008 and ending January 14, 2009




             BU—Better Use of Funds          QC—Questioned Costs          UN—Unsupported Costs      Note: UN is part of QC


                                                            Appendix I —Table 1



52   USAID OFFICE OF INSPECTOR GENERAL
                                                                                                       Amount of
                   Date of                                                                                              Type of
Report Number                                            Report Title                                   Findings
                   Report                                                                                               Findings
                                                                                                         ($000)
                               Audit of Costs Recorded by Sabre International Security
                               under USAID Cooperative Agreement No. 267-A-00-06­
                               00507-00 for the Period of September 30, 2006 through                     14,067            QC
E-267-09-012-D    06/02/09
                               September 30, 2007; and USAID Agreement No. 267-A-00­                     13,986            UN
                               06-00503-00 for the Period May 29, 2006 through
                               September 30, 2007
                                     LOCAL CURRENCY TRUST FUND
                               Financial Audit of USAID/Pakistan’s Rupee Trust Fund for
5-391-09-002-N    05/11/09     Operating Expenses, for Fiscal Years Ended September 30,
                               2005 and 2006
                                        U.S.-BASED CONTRACTORS
                               ECIAfrica Consulting (Pty) Ltd. (ECI), Report on Audit of
0-000-09-029-D    04/07/09
                               Fiscal Year 2005 Incurred Costs
                               ECIAfrica Consulting (Pty) Ltd. (ECI), Report on Audit of
0-000-09-030-D    04/08/09
                               Fiscal Years 2002 through 2004 Incurred Costs
                               IFES, Inc., Report on Review of Adequacy and Compliance of
0-000-09-031-D    04/08/09
                               Initial Disclosure Statement
                               CH2M HILL International Services, Inc., Report on Final
0-000-09-032-D    04/17/09     Indirect Rates and Corporate Home Office Allocations for
                               Fiscal Year 2005
                               Partnership for Supply Chain Management, Inc., Review of
0-000-09-033-D    04/24/09     Incurred Direct Costs for Contract GPO-I-00-05-00032-00,
                               Task Orders 1 and 2
                               IBM Global Business Services, Public Sector - Federal Report
0-000-09-034-D    04/22/09     on IBM Federal Cost Accounting Standard (CAS) 405
                               Noncompliance—Fiscal Year 2006
0-000-09-035-D    05/04/09     BearingPoint, Inc., Report on Audit of Financial Capability
                               MacFadden and Associates, Inc., Flash Report on Accounting
0-000-09-036-D    05/14/09
                               System Deficiencies Fiscal Years 2002 through 2006
                               Abt Associataes, Inc., Review of Compliance with Cost
0-000-09-037-D    05/18/09     Accounting Standard (CAS) 403—Allocation of Home Office
                               Expenses to Segments
                               Tetra Tech EM, Inc., Report on Audit of Costs Incurred
                               from September 29, 2003 through October 28, 2007 under
0-000-09-038-D    06/10/09                                                                                 234             QC
                               Contract No. 492-C-00-03-00022, Fisheries Improved for
                               Sustainable Harvest
                               BearingPoint, Inc., Flash Report on Accounting System
0-000-09-039-D    06/23/09     Deficiencies Disclosed During Fieldwork on Direct Cost,
                               Financial Capability, and Labor Floor Check Testing
0-000-09-040-D    07/17/09     TCG International, LLC, Post-Award Accounting System Audit
                               Report on Audit of Direct Costs of Pricewaterhouse, LLP for
0-000-09-041-D    08/06/09
                               Fiscal Years Ended June 30, 1995 and 1996



      BU—Better Use of Funds       QC—Questioned Costs           UN—Unsupported Costs            Note: UN is part of QC



                                                   Appendix I —Table 1




                                                                     SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   53

                                                                                                             Amount of
                          Date of                                                                                            Type of
     Report Number                                                 Report Title                               Findings
                          Report                                                                                             Findings
                                                                                                               ($000)
                                         IBM Global Business Services, Public Sector/Federal, Audit
     0-000-09-042-D       08/27/09
                                         Report on Calendar Year 2006 Incurred Cost Rate Proposal
                                         University Research Corporation, LLC, Report on Adequacy
     0-000-09-043-D       09/14/09
                                         of Initial Disclosure Statement Dated May 19, 2008
                                         Audit of Costs Incurred in the United States by The Louis
                                         Berger Group, Inc. to Implement the Rehabilitation of
                                                                                                               3,143             QC
     5-306-09-001-D       06/18/09       Economic Facilities and Services Program, USAID/Afghanistan
                                                                                                               1,908             UN
                                         Contract No. 306-C-00-02-00500-00, for the Period from
                                         January 1, 2007 to May 31, 2008
                                         Audit of Costs Incurred and Billed by BearingPoint, Inc.,
     5-306-09-002-D       08/19/09       USAID/Afghanistan Contract No. 306-C-00-03-00001-00, for
                                         the Period from November 1, 2002 to December 15, 2005
                                         Financial Audit of the Specified Line Items of the Statement
                                         of Costs Incurred and Billed to USAID/Indonesia by
                                         Development Alternatives, Inc. to Implement the Support a
                                                                                                                192              QC
     5-497-09-004-N       05/29/09       Peaceful Process of Democratization in Indonesia Program,
                                                                                                                 18              UN
                                         USAID/Indonesia Contract No. DOT-I-03-800-00004-00,
                                         Task Order No. 800, for the Period From August 1, 2004 to
                                         January 31, 2007
                                         Financial Audit of Local Costs Incurred by the Joint Venture
                                         Louis Berger Group, Inc./Black & Veatch Special Projects Corp.
                                         to implement the Afghanistan Infrastructure Rehabilitation             268              QC
     5-306-09-005-N       06/25/09
                                         Program, USAID/Afghanistan Contract No. 306-I-00-06­                   259              UN
                                         00517, for the Period from August 25, 2006 to September 30,
                                         2007
                                         Audit of the Cost Representation Statement of USAID
                                         Resources Managed by Development Alternatives, Inc., Under
                                         Task Order Number DFD-I-00-04-00129-00,“Strengthening
     6-294-09-018-N       09/23/09                                                                                1              QC
                                         the Accountability and Transparency of the Legislative
                                         Process,” for the Period From September 30, 2005 to
                                         September 30, 2007
                                         Close-Out Audit of USAID Resources Managed by
                                         Development Alternatives, Inc., Under Contract Number
     6-294-09-019-N       09/24/09
                                         294-C-00-99-00060-00,“Market Access Program,” for the
                                         Period From September 1, 2004 to July 1, 2005
                                         Audit of the Cost Representation Statement of USAID
                                         Resources Managed by Chemonics International Incorporated,
                                         Contract Number PCE-I-0098-0015-00,Task Order Number
     6-294-09-022-N       09/29/09
                                         22, Palestinian Integrated Trade Arrangement Project,
                                         Covering Locally Incurred Costs, for the Period From
                                         September 29, 2006 to May 15, 2008




             BU—Better Use of Funds          QC—Questioned Costs          UN—Unsupported Costs          Note: UN is part of QC


                                                             Appendix I —Table 1



54   USAID OFFICE OF INSPECTOR GENERAL
                                                                                                      Amount of
                   Date of                                                                                             Type of
Report Number                                            Report Title                                  Findings
                   Report                                                                                              Findings
                                                                                                        ($000)
                               Close-Out Audit of the Cost Representation Statement
                               of USAID Resources Managed by Camp Dresser & McKee
                               International, Inc., Under Task Order 803, Contract Number
6-294-09-028-N    09/30/09
                               HRN-I-803-99-00011-00, “Village Water and Sanitation
                               Program,” for the Period From February 1, 2005 to
                               February 28, 2005
                               Close-Out Audit of the Cost Representation Statement
                               of USAID Resources Managed by Camp Dresser & McKee
                               International, Inc., Under Task Order 806, Contract Number
6-294-09-029-N    09/30/09
                               HRN-I-806-99-00011-00, “Village Water and Sanitation
                               Program and Emergency Water Operations Center,” for the
                               Period From February 1, 2005 to February 28, 2005
                               Report on the Application of Agreed-Upon Procedures
                               on Bechtel National Inc.’s Settlement of Subcontractors’
E-267-09-010-D    05/08/09     Requests for Equitable Adjustments-Iraq Infrastructure
                               Reconstruction Project Phase I and II Contract Nos. EEE-C­
                               00-03-00018-00 and SPU-C-00-04-00001-00
                               Audit of Direct Costs Incurred by Research Triangle Institute
E-267-09-013-D    06/25/09     under Contract No. 267-C-00-05-00505-00 from January 1,                    848             QC
                               2007 through December 31, 2007
                               Audit on Costs Verified for BearingPoint, Inc. Under USAID
                                                                                                        73,363            QC
E-267-09-016-D    07/20/09     Contract No. 267-C-00-04-00405-00 for the Period October 1,
                                                                                                        73,363            UN
                               2007 through May 15, 2009
                               Audit of Costs and Payments Made to Business Systems
                                                                                                        15,530            QC
E-267-09-017-D    08/03/09     House (BSH) by Research Triangle Institute (RTI) for the
                                                                                                        13,550            UN
                               Period from March 23, 2003, to September 30, 2007
                                           U.S.-BASED GRANTEES
                               Report on Audit of Incurred Costs of the University of Texas
0-000-09-001-N    07/08/09     at San Antonio for the Period October 1, 2005 to March 31,                  9              QC
                               2009
                               Report on Audit of Incurred Costs of Chicago State                         189             QC
0-000-09-002-N    07/08/09
                               University for the Period October 1, 2005 to March 31, 2009                 46             UN
                               Report on Audit of Incurred Costs of South Carolina State                   8              QC
0-000-09-003-N    07/08/09
                               University for the Period October 1, 2005 to March 31, 2009                 5              UN
                               Report on Audit of Incurred Costs of Mississippi Consortium
0-000-09-004-N    07/08/09     for International Development for the Period October 1,                     7              QC
                               2005 to March 31, 2009
                               Audit Report on Audit of Incurred Costs of CubaNet News,                   336             QC
0-000-09-005-N    05/18/09
                               Inc. for the Three Year Period Ending June 30, 2008                        184             UN
                               A–133 Audit Reports of CARE USA for Fiscal Years Ending                  21,527            QC
0-000-09-005-T    06/12/09
                               June 30, 2004, 2006, and 2007                                            18,302            UN




      BU—Better Use of Funds       QC—Questioned Costs          UN—Unsupported Costs            Note: UN is part of QC



                                                  Appendix I —Table 1




                                                                    SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   55

                                                                                                             Amount of
                          Date of                                                                                            Type of
     Report Number                                                 Report Title                               Findings
                          Report                                                                                             Findings
                                                                                                               ($000)
                                         Audit Report on Audit of Incurred Costs of the National
                                                                                                                  1              QC
     0-000-09-006-N       05/18/09       Democratic Institute for International Affairs for the Three
                                                                                                                  1              UN
                                         Year Period Ending June 30, 2008
                                         Review of U.S. Ukraine Foundation for the Fiscal Year Ending
     0-000-09-006-T       04/09/09
                                         August 31, 2003
                                         Audit Report on Audit of Incurred Costs of Georgetown
     0-000-09-007-N       05/18/09
                                         University for the Three Year Period Ending June 30, 2008
                                         Review of Audit Report of Center for Economic Initiatives,
     0-000-09-007-T       04/09/09
                                         Inc. for Fiscal Year Ended December 31, 2003
                                         Audit Report on Audit of Incurred Costs at Freedom House,               55              QC
     0-000-09-008-N       05/18/09
                                         Inc. for the Three Year Period Ending June 30, 2008                     55              UN
                                         Review of Audit Reports of Christian Children’s Fund, Inc., for
     0-000-09-008-T       09/22/09                                                                               14              QC
                                         Fiscal Years Ending June 30, 2007 and June 30, 2008
                                         Audit Report on Incurred Costs of Center for a Free Cuba                41              QC
     0-000-09-009-N       05/18/09
                                         for the Three Year Period Ending June 30, 2008                          10              UN
                                         Review of Audit Reports of ACCION International for the
     0-000-09-009-T       09/24/09       Years Ended December 31, 2004, December 31, 2006 and
                                         December 31, 2007
                                         Audit Report on Incurred Costs of Loyola University Chicago             19              QC
     0-000-09-010-N       05/18/09
                                         for the Three Year Period Ending June 30, 2008                          19              UN
                                         Audit Report on Audit of Incurred Costs at Plantados until
                                                                                                                143              QC
     0-000-09-011-N       05/18/09       Freedom and Democracy in Cuba for the Three Year Period
                                                                                                                 98              UN
                                         Ending June 30, 2008
                                         Audit Report on Audit of Incurred Costs at Pan American
                                                                                                                 67              QC
     0-000-09-012-N       05/18/09       Development Foundation, Inc. for the Three Year Period
                                                                                                                 67              UN
                                         Ending June 30, 2008
                                         Audit Report on Audit of Incurred Costs at the University of
     0-000-09-013-N       04/03/09
                                         Miami for the Three Year Period Ending June 30, 2008
                                         Audit Report on Audit of Incurred Costs of Florida
                                                                                                                 33              QC
     0-000-09-014-N       05/18/09       International University for the Three Year Period Ending
                                                                                                                 30              UN
                                         June 30, 2008
                                         Report on Audit of Incurred Costs of Elizabeth City State
     0-000-09-015-N       07/08/09                                                                               60              QC
                                         University for the Period October 1, 2005 to March 31, 2009
                                         Report on Audit of Incurred Costs of Alabama A&M
     0-000-09-016-N       07/08/09
                                         University for the Period October 1, 2005 to March 31, 2009
                                         Agency Contracted Agreed-Upon Procedures Review of
                                         USAID Resources Managed by John Snow Incorporation
                                         Research and Training Institute (JSI) under the Cooperative           3,732             QC
     4-650-09-014-N       07/06/09
                                         Agreement No. 623-A-00-04-00042-00, Sudan Health                      2,834             UN
                                         Transformation Program, for the period April 23, 2004 to
                                         December 31, 2007




             BU—Better Use of Funds          QC—Questioned Costs          UN—Unsupported Costs          Note: UN is part of QC


                                                             Appendix I —Table 1



56   USAID OFFICE OF INSPECTOR GENERAL
                                                                                                      Amount of
                   Date of                                                                                            Type of
Report Number                                            Report Title                                  Findings
                   Report                                                                                             Findings
                                                                                                        ($000)
                               Audit of the Fund Accountability Statement of USAID
                               Resources Managed by the International Foundation for
6-294-09-011-N    07/22/09     Election Systems, Under USAID Associate Cooperative                         4             QC
                               Agreement Number 294-A-00-05-00202-00, for the Period
                               From January 1, 2006 to December 31, 2006
                               Audit of the Fund Accountability Statement of USAID
                               Resources Managed by John Snow Incorporated Research
6-294-09-012-N    08/30/09     and Training Institute Inc., Under Cooperative Agreement No.
                               294-A-00-05-00201-00, “Maternal Child Health and Nutrition
                               Project (Hanan),” for the Year Ended December 31, 2005
                               Audit of the Fund Accountability Statement of USAID
                               Resources Managed by America-Mideast Educational and
6-294-09-013-N    08/31/09     Training Services, Under Cooperative Agreement Number
                               294-A-00-07-00214-00, Model School Networks Program, for
                               the Period from September 30, 2007 to June 30, 2008
                               Audit of USAID Resources Managed by Save the Children
                               Federation, Inc., Under Cooperative Agreement Number
6-294-09-014-N    08/31/09     294-A-00-07-00210-00, “Vocational Training and Education
                               Development Program,” for the Period from September 30,
                               2007 to June 30, 2008
                               Audit of the Fund Accountability Statement of USAID
                               Resources Awarded to CARE International, Under
6-294-09-015-N    09/16/09     Cooperative Agreement Number 294-A-00-05-00235-00,
                               “Emergency Medical Assistance Program-Phase III,” for the
                               Period from October 1, 2005 to September 30, 2006
                               Audit of the Fund Accountability Statement of USAID
                               Resources Awarded to International Foundation for Election
                               Systems, Under Cooperative Agreement Number 294-A-00­
6-294-09-016-N    09/22/09     05-00202-00,“Technical Assistance to the Central Election
                               Commission of the Palestinian Authority and to the Elections
                               Reform Support Group,” for the Period From December 10,
                               2004 to December 31, 2005
                               Audit of the Fund Accountability Statement of USAID
                               Resources Managed by Internews Networks,Associate
                               Award Number 294-A-00-06-00208-00, Under Leader Award
6-294-09-017-N    09/23/09
                               Agreement Number GEG-A-00-01-00005-00,With PACT Inc.,
                               “Independent Media Program in West Bank and Gaza,” for the
                               Period From October 24, 2006 to September 30, 2007
                               Close-Out Audit of USAID Resources Managed by American
                               Jewish Joint Distribution Committee, Under Grant Agreement
6-294-09-020-N    09/29/09
                               No. 294-G-00-05-00222-00, for the Period From September 2,
                               2006 to May 2, 2007




      BU—Better Use of Funds       QC—Questioned Costs          UN—Unsupported Costs            Note: UN is part of QC


                                                  Appendix I —Table 1



                                                                    SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   57
                                                                                                             Amount of
                          Date of                                                                                            Type of
     Report Number                                                 Report Title                               Findings
                          Report                                                                                             Findings
                                                                                                               ($000)
                                         Audit of the Fund Accountability Statement of USAID
                                         Resources Awarded to Cooperative Housing Foundation,
     6-294-09-021-N       09/29/09       Under Cooperative Agreement Number 294-A-00-04-00223­
                                         00,“Palestinian Infrastructure for Needed Employment,” for
                                         the Period From October 1, 2004 to September 30, 2005
                                         Audit of the Fund Accountability Statement of USAID
                                         Resources Managed by Academy for Educational
     6-294-09-025-N       09/30/09       Development, Under Cooperative Agreement Number 294­
                                         A-00-02-00228-00, for the Period From September 1, 2003 to
                                         January 15, 2006
                                         Audit of the Fund Accountability Statement of Locally
                                         Incurred Costs of USAID Resources Managed by World
     6-294-09-026-N       09/30/09       Vision, Inc., Under Cooperative Agreement Number 294-A­
                                         00-02-00226-00,“Job Opportunities Through Basic Services,”
                                         for the Period From October 1, 2005 to December 31, 2006
                                         Audit of Direct Costs Incurred and Billed by CHF
                                         International under USAID Agreement No.AFP-A-00-03­
                                                                                                               1,648             QC
     E-267-09-011-D       05/28/09       00004-00 (ICAP I) for August 1, 2005 through April 30, 2007,
                                                                                                                 95              UN
                                         and USAID Agreement No. 267-A-00-06-00507-00 (ICAP II)
                                         for September 30, 2006 through September 30, 2007
                                         Audit of Costs Incurred and Billed by International Business
                                         and Technical Consultants, Inc. Under USAID Contract No.
     E-267-09-014-D       06/25/09
                                         267-C-00-05-00508-00 for the Period of January 1, 2007
                                         through December 31, 2007
                                         DCAA Evaluation Report on Floor Checks of BearingPoint’s
     E-267-09-015-D       07/14/09       Financial Management Information System Project Employees
                                         in Iraq
                                         DCAA Evaluation Report on BearingPoint, Inc.’s Purchase
     E-267-09-018-D       08/10/09
                                         Existence and Consumption Practices in Baghdad, Iraq




             BU—Better Use of Funds          QC—Questioned Costs          UN—Unsupported Costs          Note: UN is part of QC


                                                            Appendix I —Table 1



58   USAID OFFICE OF INSPECTOR GENERAL
                          FINANCIAL AUDIT REPORTS ISSUED
                                   USADF and IAF

                               April 1–September 30, 2009
                                                                                          Amount of
                Date of                                                                                   Type of
Report Number                               Report Title                                   Findings
                Report                                                                                    Findings
                                                                                            ($000)




                                 NOTHING TO REPORT





                                      Appendix I —Table 1



                                                        SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   59
                                PERFORMANCE AUDIT REPORTS ISSUED
                                             USAID

                                                April 1–September 30, 2009
                                                                                                         Amount of
                           Date of                                                                                       Type of
      Report Number                                               Report Title                            Findings
                           Report                                                                                        Findings
                                                                                                           ($000)
                                                ECONOMY AND EFFICIENCY
                                         Audit of Reporting on Operational Costs by Selected
      1-598-09-008-P       05/05/09      Missions and Offices in the Bureau for Latin America and the
                                         Caribbean
                                         Audit of USAID/Honduras’ Democracy and Governance                   377             QC
      1-522-09-009-P       06/04/09
                                         Program                                                             377             UN
                                         Audit of the Millennium Challenge Corporation Threshold
      1-526-09-010-P       09/02/09                                                                          357             BU
                                         Program Administered by USAID/Paraguay
      4-650-09-006-P       05/21/09      Audit of USAID/Sudan’s Civil Society Program
                                         Audit of USAID/Kenya’s PEPFAR-Funded Activities and
      4-615-09-007-P       08/17/09      Commodities for the Prevention of Mother-to-Child 

                                         Transmission of HIV

                                         Audit of USAID/Tanzania’s PEPFAR-Funded Activities
      4-621-09-008-P       08/28/09      and Commodities for the Prevention of Mother-to-Child
                                         Transmission of HIV
      4-650-09-009-P       09/28/09      Audit of USAID/Sudan’s Road Infrastructure Activities
                                         Audit of USAID/Afghanistan’s Local Governance and
      5-306-09-003-P       05/11/09      Community Development Project in Southern and Eastern 

                                         Regions of Afghanistan

                                         Audit of USAID/Afghanistan’s Land Titling and Economic 

      5-306-09-004-P       06/08/09
                                         Restructuring in Afghanistan Project
                                         Audit of USAID/Lebanon’s Lebanon Education Assistance for
      6-268-09-005-P       07/14/09
                                         Development Program
                                         Audit of USAID/West Africa’s Procurement and Distribution
      7-624-09-002-P       05/08/09      of Commodities in Côte d’Ivoire for the President’s
                                         Emergency Plan for AIDS Relief
      9-000-09-006-P       04/30/09      Audit of USAID’s Commodities for Avian Influenza Activities         106             BU
                                         Audit of USAID’s Reporting on Global Development
      9-000-09-007-P       06/04/09
                                         Alliances
                                         Audit of USAID/Ethiopia’s PEPFAR-Funded Activities
      9-663-09-008-P       06/25/09      and Commodities for the Prevention of Mother-to-Child
                                         Transmission of HIV
      9-000-09-009-P       07/17/09      Audit of USAID’s Faith-Based and Community Initiatives

                                         Audit of USAID’s Implementation of the Millennium 

      9-000-09-010-P       08/12/09
                                         Challenge Corporation’s Threshold Program




             BU—Better Use of Funds         QC—Questioned Costs         UN—Unsupported Costs        Note: UN is part of QC


                                                           Appendix I —Table 2



60   USAID OFFICE OF INSPECTOR GENERAL
                                                                                                 Amount of
                 Date of                                                                                         Type of
Report Number                                      Report Title                                   Findings
                 Report                                                                                          Findings
                                                                                                   ($000)
                            Worldwide Audit of USAID’s Procurement and Distribution
9-000-09-011-P   08/13/09   of Commodities for the President’s Emergency Plan for AIDS
                            Relief
                            Audit of USAID/Iraq’s Local Governance Program II
E-267-09-003-P   05/31/09
                            Activities
E-267-09-004-P   06/03/09   Audit of USAID/Iraq’s Economic Governance II Program
E-267-09-005-P   08/16/09   Audit of USAID/Iraq’s Iraq Rapid Assistance Program (IRAP)




                     PERFORMANCE AUDIT REPORTS ISSUED
                                  USADF

                                   April 1–September 30, 2009
                                                                                                 Amount of
                 Date of                                                                                         Type of
Report Number                                      Report Title                                   Findings
                 Report                                                                                          Findings
                                                                                                   ($000)
                            Audit of the United States African Development
A-ADF-09-002-P   09/30/09   Foundation’s Compliance With Provisions of the Federal
                            Information Security Management Act of 2002 for FY 2009




                     PERFORMANCE AUDIT REPORTS ISSUED
                                   IAF

                                   April 1–September 30, 2009
                                                                                                 Amount of
                 Date of                                                                                         Type of
Report Number                                      Report Title                                   Findings
                 Report                                                                                          Findings
                                                                                                   ($000)
                            Audit of Inter-American Foundation’s Compliance With
A-1AF-09-003-P   09/30/09   Provisions of the Federal Information Security Management
                            Act for FY 2009




                                             Appendix I —Table 2



                                                               SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   61
                              MISCELLANEOUS AUDIT REPORTS ISSUED
                                            USAID

                                                April 1–September 30, 2009
                                                                                                          Amount of
                           Date of                                                                                    Type of
      Report Number                                               Report Title                             Findings
                           Report                                                                                     Findings
                                                                                                            ($000)
                                               QUALITY CONTROL REVIEWS
                                         Quality Control Review of Raffa, P.C.’s Audit of International
     0-000-09-002-Q        05/15/09      Relief and Development, Inc., Fiscal Year Ended December 31,
                                         2006
                                         Quality Control Review of the USAID Resources Managed
     4-674-09-002-Q        08/31/09      by Right to Care under Cooperative Agreement No. 674-A­
                                         00-08-00007-00 for the year ended September 30, 2008
                                         Quality Control Review of the Audit Report and Audit
                                         Documentation for the Financial Audit Conducted by A.F.
                                         Ferguson & Co. of the College Improvement Program,
     5-391-09-001-Q        04/30/09
                                         USAID/Pakistan Grant Agreement No. 391-G-00-04-01036­
                                         00, Managed by Forman Christian College, Lahore (FCC), for
                                         the Period from August 23, 2004 to June 30, 2007
                                         Quality Control Review of KPMG Hazem Hassan Financial
                                         Audit Report Covering the American Institutes for Research,
     6-263-09-004-Q        09/10/09      Under USAID Agreement No. 263-A-00-04-00005-00, for
                                         the Period From October 1, 2005 through September 30,
                                         2007




                              MISCELLANEOUS AUDIT REPORTS ISSUED
                                         USADF and IAF

                                                April 1–September 30, 2009
                                                                                                          Amount of
                           Date of                                                                                    Type of
     Report Number                                               Report Title                              Findings
                           Report                                                                                     Findings
                                                                                                            ($000)




                                                    NOTHING TO REPORT




                                                           Appendix I —Table 3



62   USAID OFFICE OF INSPECTOR GENERAL
                 AFGHANISTAN AND IRAQ AUDIT REPORTS ISSUED
                                   USAID

                                      April 1–September 30, 2009
                                                                                                     Amount of
                    Date of                                                                                           Type of
Report Number                                           Report Title                                  Findings
                    Report                                                                                            Findings
                                                                                                       ($000)
                                               AFGHANISTAN
                               Audit of Costs Incurred in the United States by The
                               Louis Berger Group, Inc. to Implement the Rehabilitation
                                                                                                        3,143            QC
5-306-09-001-D     06/18/09    of Economic Facilities and Services Program, USAID/
                                                                                                        1,908            UN
                               Afghanistan Contract No. 306-C-00-02-00500-00, for the
                               Period from January 1, 2007 to May 31, 2008
                               Audit of Costs Incurred and Billed by BearingPoint, Inc.,
5-306-09-002-D     08/19/09    USAID/Afghanistan Contract No. 306-C-00-03-00001-00, for
                               the Period from November 1, 2002 to December 15, 2005
                               Financial Audit of Local Costs Incurred by the Joint
                               Venture Louis Berger Group, Inc./Black & Veatch Special
                               Projects Corp. to implement the Afghanistan Infrastructure                268             QC
5-306-09-005-N     06/25/09
                               Rehabilitation Program, USAID/Afghanistan Contract No.                    259             UN
                               306-I-00-06-00517, for the Period from August 25, 2006 to
                               September 30, 2007
                               Audit of USAID/Afghanistan’s Local Governance and
5-306-09-003-P     05/11/09    Community Development Project in Southern and Eastern
                               Regions of Afghanistan
                               Audit of USAID/Afghanistan’s Land Titling and Economic
5-306-09-004-P     06/08/09
                               Restructuring in Afghanistan Project
                               Financial Audit of the Program “Regenerating Murad Khane,
                               Restoring, Refurbishing and Revitalizing the Old City,”
                               USAID/Afghanistan Cooperative Agreement No. 306-A-00­
5-306-09-021-R     09/29/09                                                                               5              QC
                               09-00503-00, Managed by the Turquoise Mountain
                               Trust (TMT), for the Period from November 2, 2008 to
                               December 31, 2008
                                                        IRAQ
                               Report on the Application of Agreed-Upon Procedures
                               on Bechtel National Inc.’s Settlement of Subcontractors’
E-267-09-010-D     05/08/09    Requests for Equitable Adjustments-Iraq Infrastructure
                               Reconstruction Project Phase I and II Contract Nos. EEE-C­
                               00-03-00018-00 and SPU-C-00-04-00001-00
                               Audit of Direct Costs Incurred and Billed by CHF
                               International under USAID Agreement No.AFP-A-00-03­
                                                                                                        1,648            QC
E-267-09-011-D     05/28/09    00004-00 (ICAP I) for August 1, 2005 through April 30, 2007,
                                                                                                         95              UN
                               and USAID Agreement No. 267-A-00-06-00507-00 (ICAP II)
                               for September 30, 2006 through September 30, 2007



      BU—Better Use of Funds      QC—Questioned Costs          UN—Unsupported Costs            Note: UN is part of QC



                                                 Appendix I —Table 4




                                                                   SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   63
                                                                                                             Amount of
                           Date of                                                                                           Type of
      Report Number                                               Report Title                                Findings
                           Report                                                                                            Findings
                                                                                                               ($000)
                                         Audit of Costs Recorded by Sabre International Security
                                         under USAID Cooperative Agreement No. 267-A-00-06­
                                         00507-00 for the Period of September 30, 2006 through                 14,077            QC
     E-267-09-012-D        06/02/09
                                         September 30, 2007; and USAID Agreement No. 267­                      13,996            UN
                                         A-00-06-00503-00 for the Period May 29, 2006 through
                                         September 30, 2007
                                         Audit of Direct Costs Incurred by Research Triangle Institute
     E-267-09-013-D        06/25/09      under Contract No. 267-C-00-05-00505-00 from January 1,                 848             QC

                                         2007 through December 31, 2007
                                         Audit of Costs Incurred and Billed by International Business
                                         and Technical Consultants, Inc. Under USAID Contract No.
     E-267-09-014-D        06/25/09
                                         267-C-00-05-00508-00 for the Period of January 1, 2007
                                         through December 31, 2007
                                         DCAA Evaluation Report on Floor Checks of BearingPoint’s
     E-267-09-015-D        07/14/09      Financial Management Information System Project Employees
                                         in Iraq
                                         Audit on Costs Verified for BearingPoint, Inc. Under USAID
                                                                                                               73,363            QC

     E-267-09-016-D        07/20/09      Contract No. 267-C-00-04-00405-00 for the Period
                                                                                                               73,363            UN

                                         October 1, 2007 through May 15, 2009
                                         Audit of Costs and Payments Made to Business Systems
                                                                                                               15,530            QC

     E-267-09-017-D        08/03/09      House (BSH) by Research Triangle Institute (RTI) for the
                                                                                                               13,550            UN

                                         Period from March 23, 2003, to September 30, 2007
                                         DCAA Evaluation Report on BearingPoint, Inc.’s Purchase
     E-267-09-018-D        08/10/09
                                         Existence and Consumption Practices in Baghdad, Iraq
                                         Audit of USAID/Iraq’s Local Governance Program II
      E-267-09-003-P       05/31/09
                                         Activities
      E-267-09-004-P       06/03/09      Audit of USAID/Iraq’s Economic Governance II Program
      E-267-09-005-P       08/16/09      Audit of USAID/Iraq’s Iraq Rapid Assistance Program (IRAP)




             BU—Better Use of Funds         QC—Questioned Costs         UN—Unsupported Costs            Note: UN is part of QC


                                                           Appendix I —Table 4



64   USAID OFFICE OF INSPECTOR GENERAL
                        UNSUPPORTED, QUESTIONED,

                 OR DISALLOWED COSTS OF OVER $10 MILLION

                      OR OTHER SIGNIFICANT FINDINGS

                                  USAID

                                     April 1–September 30, 2009

                                                                                                               Questioned
Report Number    Instrument                           Report Title/Description                                    Costs
                                                                                                                 ($000)
                              Audit of Costs Incurred and Billed by BearingPoint, Inc., USAID/
                              Afghanistan Contract No. 306-C-00-03-00001-00, for the Period
                              From November 1, 2002, to December 15, 2005. Description—The
                              Defense Contract Audit Agency (DCAA) audited the incurred and
                              billed costs for this contract. DCAA disclaimed an opinion on this
                              audit because of problems in obtaining required information from
5-306-09-002-D    Contract    BearingPoint. In addition, BearingPoint’s computerized general ledger              95,800
                              had numerous blank files and manual adjustments that could not be
                              explained. Also, direct costs in the general ledger did not reconcile
                              to USAID invoices, and direct-labor hours did not reconcile to
                              employee timesheets. As a result, DCAA could not express an
                              opinion on the audit, and OIG questioned the entire $95.8 million as
                              unsupported costs.
                              Audit of Costs Verified for BearingPoint, Inc., Under USAID Contract
                              No. 267-C-00-04-00405-00 for the Period October 1, 2007,Through
                              May 15, 2009. Description—DCAA audited the incurred and billed
                              costs for this contract. DCAA determined that BearingPoint’s
                              accounting system did not ensure that current, complete, and
                              accurate accounting records and supporting documentation were
E-267-09-016-D    Contract    maintained to support the allowability and reasonableness of costs                 73,400
                              charged to Government contracts. In addition, BearingPoint’s billing
                              system lacked policies and procedures for excluding nonbillable items
                              from the billings.The cumulative effect of the matters identified in the
                              report provided sufficient cause to question the entire costs billed
                              by BearingPoint. BearingPoint, Inc., filed a voluntary petition for relief
                              under chapter 11 of the U.S. Bankruptcy Code in February 2009.
                              Audit of Costs and Payments Made to Business Systems House
                              (BSH) by Research Triangle Institute (RTI) for the Period From
                              March 23, 2003, to September 30, 2007. Description—Human
E-267-09-017-D    Contract                                                                                       15,500
                              resource and payroll services, outsourcing services, software and
                              licensing fees, and indirect costs of more than $15.5 million were
                              inadequately supported or ineligible. USAID/Iraq requested this audit.




                                               Appendix I —Table 5



                                                                 SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   65
                                                                                                                 Questioned
      Report Number        Instrument                           Report Title/Description                            Costs
                                                                                                                   ($000)

                                         Audit of Costs Recorded by Sabre International Security Under
                                         USAID Cooperative Agreement No. 267-A-00-06-00507-00 for the
                          Subcontract
                                         Period of September 30, 2006, through September 30, 2007; and
                             issued
                                         USAID Agreement No. 267-A-00-06-00503-00 for the Period May 29,
     E-267-09-012-D         under a                                                                                14,100
                                         2006, through September 30, 2007. Description—Rates charged for
                          Cooperative
                                         fuel and insurance were not included in the subcontract, billed labor
                          Agreement
                                         costs could not be substantiated, and travel costs were billed at a
                                         higher rate than specified in the grant agreement.
                                         A–133 Audit Reports for CARE USA for Fiscal Years Ending June 30
                                         in 2004, 2006, and 2007. Description—As the Federal cognizant
                                         agency for CARE USA, OIG performed a review of the A–133 audit
                          Grants and
                                         reports for the fiscal years ending June 30 in 2004, 2006, and 2007.
     0-000-09-005-T       Cooperative                                                                              21,500
                                         For FY 2007, we reported 17 significant deficiencies in internal
                          Agreements
                                         control for major programs, 15 of which were classified instances
                                         of noncompliance with requirements.The OIG review for FY 2007
                                         disclosed a pattern of repeat findings.




                               UNSUPPORTED, QUESTIONED,

                        OR DISALLOWED COSTS OF OVER $10 MILLION

                             OR OTHER SIGNIFICANT FINDINGS

                                      USADF and IAF

                                              April 1–September 30, 2009

                                                                                                                 Questioned
      Report Number        Instrument                           Report Title/Description                            Costs
                                                                                                                   ($000)




                                                  NOTHING TO REPORT





                                                         Appendix I —Table 5



66   USAID OFFICE OF INSPECTOR GENERAL
                         AUDIT REPORTS OVER 6 MONTHS OLD

                          WITH NO MANAGEMENT DECISION

                                       USAID

                                        April 1–September 30, 2009

   Report                              Issue                                    Current
                      Auditee
   Number                              Date                               Recommendation Status

                                                 Recommendation No. 5—Pursuant to the provisions of the Privacy
                                                 Act of 1974 (5 U.S.C. 552a), USAID established new system of
                                                 records entitled the “Partner Vetting System” (PVS).The information
                                                 collected would be used to conduct screening to ensure that
                                                 USAID funds and USAID-funded activities are not purposefully or
                                                 inadvertently used to provide support to entities or individuals
                                                 deemed to be a risk to national security. On November 6, 2007, OIG
                                                 made a recommendation to USAID’s Office of Security to develop
                                                 a plan to expand and then implement its antiterrorism vetting
                                                 database for worldwide use.

                                                 On January 2, 2009, USAID published a proposed Rule in the Federal
                                                 Register, exempting the proposed PVS from certain provisions of
                                                 the Privacy Act.This Rule, after certain extensions, was effective on
                 Office of Security              August 4, 2009. On June 26, 2009, USAID also published a proposed
9-000-08-001-P                        11/06/07
                       (SEC)                     Rule in the Federal Register, seeking to apply vetting to acquisition
                                                 instruments. USAID is drafting the Final Rule for acquisition
                                                 instruments on the basis of comments received from the public.The
                                                 Office of Security, General Counsel, and the Office of Acquisition
                                                 and Assistance have developed draft policy and related procedures
                                                 to support a vetting program in USAID. The Acting Administrator
                                                 further formed a vetting steering committee headed by the Office
                                                 of the Chief Operating Officer.The steering committee has met
                                                 weekly to review progress on the effort; address concerns raised
                                                 by congressional officials and nongovernmental organizations; and
                                                 to review policy, procedures, and legal matters.The committee has
                                                 drafted an implementation plan and identified a small number of
                                                 missions that would serve as pilot locations for screening the PVS.
                                                 The pilot implementation plan is expected to be undertaken early in
                                                 FY 2010.




                                                 Appendix I —Table 6



                                                                   SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   67
                                AUDIT REPORTS OVER 6 MONTHS OLD

                                 WITH NO MANAGEMENT DECISION

                                          USADF and IAF

                                         April 1–September 30, 2009

         Report                          Issue                               Current
                             Auditee
         Number                          Date                          Recommendation Status




                                             NOTHING TO REPORT





                                                 Appendix I —Table 6



68   USAID OFFICE OF INSPECTOR GENERAL
                    SIGNIFICANT AUDIT RECOMMENDATIONS

                      DESCRIBED IN PREVIOUS SEMIANNUAL

                       REPORTS WITHOUT FINAL ACTION

                                    USAID

                                      April 1–September 30, 2009

                                                                                                                       Final
                                                                                                    Management
   Report                                                                       Issue       Rec.                      Action
                                    Subject of Report                                                Decision
   Number                                                                       Date        No.                       Target
                                                                                                       Date
                                                                                                                       Date

                 Audit of Compliance with Forward Funding
1-598-08-006-P   Requirements by Missions in the Latin America and the        07/29/08       1.9      12/19/08         11/09
                 Caribbean Bureaus
                 Audit of USAID’s Compliance with the Federal                                 4       09/29/08         04/10
A-000-08-009-P   Information Security Management Act for Fiscal Year          09/29/08
                 2008                                                                        17       09/29/08         12/09

                 Audit of USAID/Angola’s Democracy and Governance
4-654-08-006-P                                                                09/30/08        3       09/30/08         12/09
                 Activities
                 Audit of USAID’s Financial Statements for Fiscal Years
0-000-09-001-C                                                                11/14/08        1       11/14/08         09/10
                 2008 and 2007
                 Audit of USAID/Ukraine’s Displaced Children and
9-000-09-002-P                                                                11/20/08        1       11/20/08         11/09
                 Orphans Fund Activities
5-306-09-002-P   Audit of USAID/Afghanistan’s Higher Education Project        12/04/08        2       12/04/08         12/09
                                                                                              1       01/15/09         01/10
                                                                                              2       01/15/09         01/10
                                                                                              3       01/15/09         01/10
                 Audit of Engender Health’s Management of Activities                          4       01/15/09         01/10
1-511-09-004-P                                                                01/15/09
                 Financed by USAID/Bolivia                                                    5       01/15/09         01/10
                                                                                              6       01/15/09         01/10
                                                                                              7       04/27/09         04/10
                                                                                              8       04/27/09         04/10

                                                                                              1       05/18/09         03/10
                                                                                              2       05/18/09         03/10
                                                                                              3       05/18/09         03/10
                 Audit of the USAID/Honduras Trade, Investment, and
1-522-09-006-P                                                                02/26/09        4       05/18/09         03/10
                 Competitiveness Program
                                                                                              5       05/18/09         03/10
                                                                                              6       05/18/09         03/10
                                                                                              8       05/18/09         03/10




                                                 Appendix I —Table 7



                                                                   SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   69
                                                                                                               Final
                                                                                                 Management
          Report                                                                Issue     Rec.                Action
                                            Subject of Report                                     Decision
          Number                                                                Date      No.                 Target
                                                                                                    Date
                                                                                                               Date

                                                                                           1      03/06/09    02/10
                                                                                           2      03/06/09    02/10
                                                                                           3      03/06/09    10/09
                                                                                           4      03/06/09    01/10
      1-514-09-007-P      Audit of USAID/Colombia’s Human Rights Program       03/06/09    5      03/06/09    10/09
                                                                                           6      03/06/09    12/09
                                                                                           7      03/06/09    01/10
                                                                                           8      03/06/09    11/09
                                                                                           9      03/06/09    10/09

                                                                                          1.1     06/26/09    11/09
                                                                                          1.2     06/26/09    11/09
                                                                                           2      05/11/09    11/09
                                                                                          4.1     03/30/09    11/09
                                                                                          4.2     03/30/09    11/09
                                                                                          5.1     03/30/09    11/09
      4-621-09-005-P      Audit of USAID/Tanzania’s Basic Education Program    03/30/09   5.2     03/30/09    11/09
                                                                                          6.1     03/30/09    11/09
                                                                                          6.2     03/30/09    11/09
                                                                                           7      03/30/09    11/09
                                                                                           8      03/30/09    11/09
                                                                                           9      03/30/09    11/09
                                                                                          10      03/30/09    11/09




                                                        Appendix I —Table 7




70   USAID OFFICE OF INSPECTOR GENERAL
         SIGNIFICANT AUDIT RECOMMENDATIONS

           DESCRIBED IN PREVIOUS SEMIANNUAL

            REPORTS WITHOUT FINAL ACTION

                      USADF and IAF

                 April 1–September 30, 2009
                                                                                                  Final
                                                                               Management
Report                                                     Issue       Rec.                      Action
                Subject of Report                                               Decision
Number                                                     Date        No.                       Target
                                                                                  Date
                                                                                                  Date




                     NOTHING TO REPORT





                            Appendix I —Table 7



                                              SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   71
                                      REPORTS ISSUED WITH QUESTIONED

                                         AND UNSUPPORTED COSTS

                                                    USAID

                                                   April 1–September 30, 2009
                                                                                                               Unsupported
                                                                          Number of Audit   Questioned Costs
                                       Reports                                                                    Costs1
                                                                             Reports               ($)
                                                                                                                   ($)
                A. For which no management decision had been
                                                                                  48          $9,695,2182,3    $5,438,2342,3
                   made as of April 1, 2009
                B.   Add: Reports issued, April 1–September 30,
                                                                                  81         148,957,8644      130,094,9784
                     2009

                           Subtotal                                              129          158,653,082      135,533,212

                C. Less: Reports with a management decision
                                                                                  825         22,508,0216      12,388,4806
                   made, April 1–September 30, 2009
                           Value of recommendations disallowed by
                                                                                               6,094,250        2,188,857
                           Agency officials
                           Value of recommendations allowed by
                                                                                              16,413,771       10,199,623
                           Agency officials
                D. For which no management decision had been
                                                                                  47         136,145,0617      123,144,7327
                   made as of September 30, 2009

     1
      Unsupported costs are included in questioned costs, but they are provided as additional information, as required
     by the Inspector General Act, as amended 1988 (Public Law 100–504).

     2
      The ending balance at March 31, 2009, for questioned costs totaling $10,706,161 and for unsupported costs
     totaling $5,358,240 was decreased by $1,010,943 and increased by $79,994, respectively, to reflect adjustments in
     recommendations from prior periods.

     3
      Amounts include $3,040,867 in questioned costs and $537,118 in unsupported costs for audits performed for
     OIG by other Federal audit agencies.

     4
      Amounts include $110,896,543 in questioned costs and $10,408,047 in unsupported costs for audits performed
     for OIG by other Federal audit agencies.

     5
      Unlike the monetary figures of this row, this figure is not being subtracted from the subtotal. Some audit reports
     counted here may be or may not be again counted in the figure below it.

     6
     Amounts include $6,417,641 in questioned costs and $2,445,614 in unsupported costs for audits performed for
     OIG by other Federal audit agencies.

     7
      Amounts include $105,455,834 in questioned costs and $100,993,791 in unsupported costs for audits performed
     for OIG by other Federal audit agencies.




                                                                 Appendix I —Table 8



72       USAID OFFICE OF INSPECTOR GENERAL
  REPORTS ISSUED WITH QUESTIONED

     AND UNSUPPORTED COSTS

             USADF and IAF

          April 1–September 30, 2009
                                                                         Unsupported
                      Number of Audit        Questioned Costs
Reports                                                                     Costs1
                         Reports                    ($)
                                                                             ($)




            NOTHING TO REPORT





                 Appendix I —Table 8



                                   SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   73
                           REPORTS ISSUED WITH RECOMMENDATIONS

                              THAT FUNDS BE PUT TO BETTER USE

                                            USAID

                                                April 1–September 30, 2009

                                                                                    Number of      Amount
                                              Reports
                                                                                   Audit Reports     ($)

              A. For which no management decision had been made as of April 1,
                                                                                        0             0
                 2009

              B. Add: Reports issued April 1–September 30, 2009                         2          $463,320

                      Subtotal                                                          2          463,320

              C. Less: Reports with a management decision made, April
                                                                                        2          463,320
                  1–September 30, 2009

                      Value of recommendations agreed to by agency officials                       463,320

                      Value of recommendations not agreed to by Agency officials                      0

              D. For which no management decision had been made as of
                                                                                        0             0
                  September 30, 2009




                           REPORTS ISSUED WITH RECOMMENDATIONS

                              THAT FUNDS BE PUT TO BETTER USE

                                         USADF and IAF

                                                April 1–September 30, 2009

                                                                                    Number of      Amount
                                              Reports
                                                                                   Audit Reports     ($)




                                                    NOTHING TO REPORT




                                                            Appendix I —Table 9



74   USAID OFFICE OF INSPECTOR GENERAL
                                                    APPENDIX II


                            REPORTING REQUIREMENTS

                               USAID, USADF, and IAF



                                                            List of Tables

1. Summary of Audits Conducted and Results ............................................................................................ 77

2. Summary of Investigative Activity and Results ........................................................................................ 78

3. Fraud Awareness Briefings Conducted Worldwide ............................................................................... 79





                                                                 Appendix II




                                                                                 SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   75

76   USAID OFFICE OF INSPECTOR GENERAL
The following tables show summary data related to OIG audits and investigations.

                              SUMMARY OF AUDITS CONDUCTED
                                      AND RESULTS

                                           As of September 30, 2009
                                                                                                 Amount of
                                                                   Number of
                          Type of Report                                                      Recommendations
                                                                    Reports
                                                                                                   ($)*
     Financial Audits

       USAID (ARRA)                                                         1                         $116,710

       USAID Programs and Operations                                       0                                   0

       Foundations’ Programs and Operations                                0                                   0

       U.S.-Based Contractors                                              28                       93,577,487

       U.S.-Based Grantees                                                 37                       27,892,928

                  Quality Control Reviews                                   1                                  0

       Foreign-Based Organizations                                     111                          26,993,883

                  Quality Control Reviews                                   3                                  0

       Enterprise Funds                                                     0                                  0

     Performance Audits

       USAID Economy and Efficiency                                        20                          840,176

       Foundations’ Economy and Efficiency                                  2                                  0

     Other                                                                 1                                   0


                              Total                                   204                     $149,421,184



   * Monetary recommendations include questioned costs and funds put to better use.




                                                    Appendix II —Table 1



                                                                      SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   77
                                           SUMMARY OF

                                INVESTIGATIVE ACTIVITY AND RESULTS

                                               USAID

                                               As of September 30, 2009

                                Workload                                                   Civil

           Investigations opened                         66       Civil referrals                                1


           Investigations closed                         53       Civil declinations                             0

                                                                  Complaints                                     0

                                                                  Judgments / Recoveries                         0

                                                                  Settlements                                    0

                                   Criminal                                            Administrative

           Prosecutive referrals                         10       Reprimands / Demotions                         0

           Prosecutive declinations                       3
      Personnel suspensions                          4


           Arrests                                        6
      Resignations / Terminations                    1


           Indictments                                    1
      Other administrative actions                   0

           Convictions                                    3
      Recoveries                                     2


           Sentencing                                                                  Procurements

           Fines                                          0       Suspensions / Debarments                       1


           Restitutions                                   0       Terminations                                   1


                                                                  Savings                                        2


                                                                  Recoveries                                     2


                                                                  Systemic changes                               1





             Judicial recoveries                                                                            0

             Administrative recoveries                                                             $9,995,285

             Savings                                                                               62,063,278

                          Total investigative savings and recoveries                               $72,058,563




                                                        Appendix II —Table 2




78   USAID OFFICE OF INSPECTOR GENERAL
                         FRAUD AWARENESS BRIEFINGS

                          CONDUCTED WORLDWIDE


                                 As of September 30, 2009

Month         Location               Sessions          Attendees                 Professional Affiliation

        Baghdad, Iraq                   1                      32                   USAID contractors
Apr.    Islamabad, Pakistan             6                  242                      USAID contractors
        Washington, DC                  2                      58                   USAID personnel

May     Washington, DC                   1                     48                   USAID personnel

        Addis Ababa, Ethiopia           7                  120                      USAID contractors
June    Kigali, Rwanda                  3                      73                   USAID contractors
        Pristina, Kosovo                2                      84                   USAID contractors
        Washington, DC                  1                      39                   USAID personnel

        Baghdad, Iraq                   3                      75                   USAID personnel
        Chisinau, Moldova               1                      20                   USAID personnel
 July
        Nairobi, Kenya                  1                      57                   USAID personnel
        Washington, DC                  1                      24                   USAID personnel

        Washington, DC                  2                      65                   USAID personnel
Aug.    Jakarta, Indonesia               3                 133                      USAID contractors
        Lilongwe, Malawi                3                      53                   USAID personnel

        Pretoria, South Africa          4                      66                   USAID contractors
        Lusaka, Zambia                 10                  129                      USAID contractors
        Cairo, Egypt                    1                      25                   USAID contractors
        Dar es Salaam,Tanzania          4                  137                      USAID contractors
Sept.
        Washington, DC                  5                      48                   USAID personnel
        Ulaanbaatar, Mongolia           1                      5                    USAID personnel
        Conakry, Guinea                 6                      86                   USAID contractors
        Addis Ababa, Ethiopia           3                      49                   USAID personnel

                 Total                 71                  1,668




                                       Appendix II —Table 3




                                                          SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   79

80   USAID OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT TO THE CONGRESS


 Millennium Challenge Corporation (MCC)




                       SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   81

82   USAID OFFICE OF INSPECTOR GENERAL
                                             INTRODUCTION

                                                  MCC
As MCC’s operations have begun to mature, with many compacts well underway, OIG has used several audit
mechanisms to oversee the Corporation’s financial and performance accountability. This oversight has resulted
in tangible benefits to improve MCC’s operations. Financial audits of U.S. taxpayer monies granted to compact
recipients continue to be an important component of OIG’s audit activities. With the assistance of independent
public accounting firms, OIG issued 10 audit reports covering approximately $146.9 million expended by compact
recipients. The audits identified questioned costs of about $1.4 million.

During this period, OIG completed limited-scope reviews in Cape Verde, El Salvador, Lesotho, and Nicaragua. We
identified questioned costs of $159,000 and determined that MCC has significantly reduced outstanding cash
balances held by the accountable entities.17

Notable activity during this reporting period included an audit of MCC’s Threshold Program. The audit found no
clear indication that the program was assisting countries in becoming eligible for compacts. The audit also found
that the program, as designed and implemented, contained several deficiencies. Performance audits were also
carried out for compact programs in Ghana (Agricultural Credit Program) and Georgia (Regional Infrastructure
Rehabilitation Project and Regional Development Fund).

OIG also contracted with an independent public accounting firm to determine whether MCC’s information
security program was in compliance with FISMA requirements. The audit disclosed that MCC is not meeting all
FISMA requirements.




17
  An “accountable entity” is an organization or entity with the legal authority to oversee implementation of an MCC compact’s
programs, including the compact’s funds and accounts, for the duration of the compact. The accountable entity is usually known as a
“Millennium Challenge Account” and is chosen by the compact recipient.



                                                                          SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   83
84   USAID OFFICE OF INSPECTOR GENERAL
                           SIGNIFICANT ACCOMPLISHMENTS

                                        MCC
                      ECONOMIC GROWTH AND PROSPERITY

Economic Security
Audit of the Millennium Challenge Corporation’s Management of the Threshold Program. The
Threshold Program of the Millennium Challenge Corporation (MCC) was established by the Millennium
Challenge Act of 200318 to assist countries that are close to qualifying for eligibility for compact assistance and
have demonstrated a significant commitment to improving their performance on eligibility criteria. MCC assists
countries by funding their Threshold country plans, which are designed to improve country performance in
targeted policy areas that prevent the country from becoming compact eligible.The objectives of this audit were
to determine whether the Threshold Program had assisted countries in becoming compact eligible by improving a
targeted policy area (control of corruption), and whether the Threshold Program had achieved its planned results.
The audit also assessed the impact of the program.The Threshold Program in Albania was selected as part of this
audit.

The audit did not find that the MCC Threshold Program was assisting countries in becoming compact eligible.
The program does assist countries by ensuring that programmatic interventions focus on the targeted policy
indicators when countries fall below the qualifying median point in comparison with their peers. However, the use
of the corruption policy indicator to measure the program’s success is problematic for several reasons, including
attribution of MCC’s efforts and other factors such as ongoing government reforms and other donor activity.

MCC’s guidance provided general criteria for selecting countries to participate in the Threshold Program, but
the criteria may not be stringent enough to ensure that the selected countries can become eligible for compacts
within 3 years. Also, MCC did not develop guidance on the use of the indicator analysis, which would have
reinforced the importance of linking identified weaknesses to the targeted policy indicators. Finally, unlike the
compact development process, the Threshold Program does not require a consultative process with a wide range
of stakeholders to identify and prioritize specific projects, even though such a process could achieve a greater
sense of country ownership and help sustain the changes.

MCC acknowledges that the selection process allows countries to become eligible for compacts without
completing their Threshold Program. Even so, MCC continues with a country’s Threshold Program because the
country has invested extensive effort and money in developing its program. Countries have also become eligible
and received compacts without participating in the Threshold Program.The following analysis, conducted during
the audit, shows that country eligibility for compact assistance cannot be attributed to Threshold Program results:

       • 	 Eight of the twelve countries that will complete the Threshold Programs as of the end 

           of FY 2009 became compact eligible before completing their Threshold Programs.Three 

           of the eight countries became eligible as early as about 1 month before or after their 

           Threshold Program started.

       • 	 Three of the twelve countries did not become compact eligible.Two of the three 

           countries did not become eligible after completing their Threshold Programs; instead,

           MCC approved another Threshold agreement (stage II). Both of these countries were

           approved for stage II agreements between 3 and 5 months before their first Threshold 

           Programs ended. Also, a program in one of the three countries is ongoing and is 


18
     Public Law 108–199.


                                                                  SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   85
               scheduled to end in September 2009.
           • 	 One of the twelve countries received compact assistance about 11 months before its 

               Threshold Program ended.


      In Albania, the program did not achieve MCC’s goal of improving the targeted policy indicator (control of
      corruption) so that Albania could become compact eligible.The corruption indicator for Albania was at the
      23rd percentile at the start of the Threshold Program and declined to the 22nd percentile when it was being
      considered for a stage II Threshold Program. Nonetheless, according to MCC, the program did reduce corruption
      and bribery in tax administration, public procurement, and business registration by 23 percent, 25 percent, and
      19 percent, respectively. Furthermore, only 6 out of 38 indicators (16 percent) did not meet their targets.

      The audit identified some issues specific to the Albania Threshold Program. Performance indicators that were
      initially developed by Albania, USAID, and MCC were not always measurable, relevant, or attributable to the
      project intervention. An assessment of performance indicators that were developed in January 2006 resulted in
      removal of almost half the indicators from the Albanian Threshold Program in April 2008. The Albanian Threshold
      Program also included developing an information technology system to help reduce corruption in tax administration,
      public procurement, and business registration (electronic government or e-government), but the system lacked
      internal controls. Finally, data quality assessments were not performed on Threshold Program data to ensure that
      accurate data were being reported and indicators were being met.The lack of a data quality assessment may affect
      the accuracy of the data that MCC used to report the results of the Albanian Threshold Program and that OIG
      used to analyze the program results.

      Of the nine recommendations, MCC agreed with eight and disagreed with one. OIG considers that final action
      has been taken on one recommendation and management decisions on seven recommendations. A management
      decision is pending on one recommendation.

      (Audit Report No. M-000-09-003-P)

      Compact Programs
      The compact is the chief grant instrument for MCC. Compact recipients must ensure that certain conditions are
      met after the agreement is signed, which can take several months to resolve.When the agreement conditions are
      met, the agreement timeline begins, and the agreement is said to “enter into force.” According to MCC officials,
      “entry into force” is the point at which a binding commitment is recognized and compact funds are obligated.
      Each compact recipient identifies an agency or entity that will manage the compact funds or accounts. Such
      organizations are usually called “Millennium Challenge Accounts” (MCA) and refer to the funds of the compact.

      Audit of Agricultural Credit Program in Ghana. On August 1, 2006, MCC and the Government of Ghana
      signed a 5-year agreement that totaled more than $547 million and entered into force on February 16, 2007.
      The compact goals are to reduce poverty through economic growth by enhancing the profitability of agricultural
      production, improve the delivery of business and technical services that support commercial agriculture
      expansion, reduce transportation costs affecting agricultural commerce, and strengthen rural institutions that
      provide services to agricultural projects under the compact.The Government of Ghana designated the Millennium
      Development Authority (MiDA) as the accountable entity to implement the compact goals.

      One way MiDA plans to achieve the compact goal is through implementation of the Agricultural Credit Program
      (ACP), which began on March 31, 2008, and will end February 16, 2012.




86   USAID OFFICE OF INSPECTOR GENERAL
The audit found that although MiDA has met the targets for five of the six program indicators within the first year
of implementation, the following implementation problems could prevent the program from achieving its planned
program and compact goals: (1) 7 of the 11 participating banks have not begun repaying their loans to the Bank of
Ghana (central bank), the implementing entity, as required by the program’s manual, (2) the central bank has not
established borrowing limits to ensure that no participating bank receives more loans than it is able to manage,
(3) the central bank has not conducted annual reviews of participating banks to ensure that they continue to meet




                   A MiDA sign for the Yilo Krobo District, 1 of 23 districts in the intervention
                    zone where beneficiaries can benefit from loans through the Agricultural
                                   Credit Program in Ghana. (Photo by OIG)



certain criteria for continued eligibility for the program, (4) the central bank and MiDA have overlooked the
business practices of one participating bank that approved loans to borrowers with a high credit risk, refinanced
and preapproved loans, and approved inappropriate use of ACP loans, and (5) the MiDA fiscal agent did not
provide program bank statements to the program unit at the central bank, which would have allowed that unit to
notify participating banks of loan terms promptly.

MCC agreed with all five recommendations. OIG considers that management decisions have been reached on
four of them, but final action has not been taken because MCC and implementing partners are in the process
of resolving them. In addition, a management decision was reached for the remaining recommendation, but final
action will not be taken until MCC provides additional documentation as support for improvement.

(Audit Report No. M-000-09-005-P)

Audit of MCC’s Regional Infrastructure Rehabilitation Project. In September 2005, MCC signed a
5-year, $295.3 million compact with the Government of Georgia to improve the two main barriers to economic
growth—a lack of reliable infrastructure and the slow development of businesses, particularly agribusiness.
The MCC compact in Georgia entered into force in April 2006. In November 2008, MCC and the Georgian
Government signed a compact amendment providing up to $100 million of additional funds to the Millennium
Challenge Georgia Fund (MCG) and increasing the overall value of the compact to $395.3 million.These funds will
be used to complete works in the Samtskhe-Javakheti Roads Rehabilitation, Regional Infrastructure Development
(RID), and Energy Infrastructure Development Projects contemplated by the original compact. The audit reviewed
only the roads and regional infrastructure development projects.




                                                                  SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   87
                                         New pipe being laid in Kutaisi, Georgia. (Photo by OIG)



      As of June 30, 2009, $9.2 million of a total budget of $64.5 million had been disbursed.The project planned to
      rehabilitate water supply systems in the cities of Poti, Kobuleti, Kutaisi, Bakuriani, and Borjomi.The audit could
      not determine whether the project will achieve its intended results in Kobuleti, Bakuriani, and Borjomi because
      rehabilitation works are ongoing and not scheduled to be completed until the fourth quarter of 2010. However,
      the project is achieving its intended results of rehabilitating water supply systems in Poti and Kutaisi. For example,
      the mayor of Poti noted that the city had once received water only every 2 days for 5 to 6 hours, but now the
      city has water 24 hours a day.The mayor of Kutaisi noted that, before MCC assistance, the city did not have
      a proper water supply. During a site visit, the audit team noted that pipes were being laid and connected to
      individual homes.

      The Samtskhe–Javakheti Road Rehabilitation Project (the Road Project) aimed at restoring the road and
      transport network in the region.With a total budget of $183.6 million, the project plans to rehabilitate the
      223.9-kilometer road in the Kvemo Kartli and Samtskhe–Javakheti Regions.Through May 31, 2009, MCC had
      disbursed $23.7 million (12.9 percent) of the compact funds for the Road Project. However, the Road Project may
      not achieve its intended results of fostering economic development in the Samtskhe–Javakheti area as a result of
      the following factors:

           • 	 A major contractor, responsible for 50 percent of the Road Project, fell seriously 

               behind schedule.The contractor had completed only 13.8 percent of road construction 

               within a 12-month period and had about 13 months to complete the remaining road 

               projects—nearly 86 percent.With the original contractor behind schedule on one of 

               its three road sections, MCG awarded a contract for one section of road to another 

               contractor in an attempt to complete the Road Project within the compact timeframe.

           • 	 A road design was flawed because the initial design had not been physically validated 

               before it was finalized.

           • 	 Procurements were delayed because the initial bids were rejected for being too high.

               Rebidding delayed the commencement of three sections of the road projects by about 

               8 months.

           • 	 Team leaders did not provide sufficient oversight to ensure that the Road Project was 

               on schedule for completion.





88   USAID OFFICE OF INSPECTOR GENERAL
                       An old Soviet tank buried in the hillside near the Turkish border and
                       town of Kartsakhi, Georgia, would be in the path of the planned road.
                                                 (Photo by OIG)


The major contractor also received an advance payment of $6.5 million for mobilization; however, supporting
documentation on the use of these funds was not available in order to determine whether the funds were not
used for other purposes.The contractor still had not fully mobilized a year after signing a contract with MCG.

The report included four recommendations. As a result of MCC’s response to the draft report, OIG has
withdrawn the issue related to one of them and revised another. Management decisions have not been reached
on the three remaining recommendations, and OIG has requested that MCC provide written notice within
30 days of any additional information related to the actions planned or taken to implement them.

(Audit Report No. M-000-09-007-P)

Audit of the Georgia Regional Development Fund. The September 12, 2005, compact between MCC and
the Government of Georgia established the Georgia Regional Development Fund (GRDF) to provide access
to long-term risk capital on viable terms and develop management skills in small and medium enterprises. The
compact provided $30 million in committed capital for investment in enterprises and $2 million for technical
assistance. The primary objective of GRDF is to maximize development impact, as well as to earn a reasonable
and positive financial return, from investments in small and medium enterprises in agribusiness, tourism, and other
sectors, primarily outside of Tbilisi, Georgia’s capital city.

The audit found that GRDF was pursuing its intended purpose of investing in small and medium enterprises in
rural Georgia to foster development and earn a positive financial return. Currently, the fund’s investments are
making an impact at the firm level.The investments in firms ranged from $1.5 million to $3 million, and the funds
have been used to purchase equipment and renovate facilities. However, OIG believes that development impact
is being sacrificed in the pursuit of higher financial returns by the fund manager, because the structure of the
compensation in the fund management agreement provides compensation on the basis of the financial returns
of the investments. Under this arrangement, the fund manager receives a fixed payment during the first 5 years
of the contract, and during the second 5 years receives no fixed payment but instead receives 20 percent of
the fund’s profits. Further, the fund manager has acknowledged that the twin goals of development impact and
financial return may not be compatible and that tough choices will have to be made. MCC did not provide the
fund manager guidance as how to balance these goals.



                                                                 SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   89
      In addition, OIG identified problems with the implementation of the program in Georgia.The objective of the
      program—maximizing development impact and achieving a positive and reasonable financial return—was not
      clearly defined, and MCC did not have targets in place to measure performance against the program’s objective.
      Also, the due diligence performed by the fund manager was not always supported as to the nature and extent
      of work done on portfolio companies, including character and environmental due diligence and antiterrorism
      vetting of potential investees, so that OIG could independently verify these efforts. Also, proper precautions were
      not taken in handling asbestos roofing and its disposition at facilities being renovated by an investee. Lastly, one
      investment did not meet the intent of the fund to provide risk capital to firms otherwise unable to obtain funding.

      Of the eight recommendations, MCC agreed with four, disagreed with three, and chose not to make a
      management decision on one pending further research.We consider that final action has been taken on one
      recommendation and management decisions on four others. Management decisions are pending on the three
      remaining recommendations.

      (Audit Report No. M-000-09-006-P)



                                     MANAGEMENT CAPABILITIES
      MCC Federal Information Security Management Act FY 2009 Independent Audit. OIG contracted
      with an independent public accounting firm, Cotton & Company LLP, to conduct an audit to determine whether
      MCC’s information security program meets FISMA requirements for an agencywide information security program
      to protect MCC’s information and assets.The audit disclosed that MCC’s information security program does not
      meet all FISMA requirements. As a result, 22 recommendations were made to address the deficiencies.Three of
      the recommendations were the result of problems that had been identified in FISMA audits conducted in previous
      years. Cotton & Company did not feel that action taken had properly addressed the issued identified. Therefore,
      Cotton & Company advised that the recommendations be reopened.

      (Audit Report No. M-000-09-004-P)

      Financial Management
      Audit of MCC’s Financial Statements, Internal Controls, and Compliance for the Periods Ending
      September 30 in 2009 and 2008. OIG contracted with an independent public accounting firm to conduct an
      audit of MCC’s financial statements, internal controls, and compliance with laws and regulations for the periods
      ending September 30, 2009, and September 30, 2008.This audit will be issued no later than November 16, 2009.

      Limited-Scope Review of El Salvador’s and Nicaragua’s Common Payment System. In Audit
      Report No. M-000-06-001-C (December 6, 2005), OIG recommended that MCC management “develop policies
      and procedures to ensure that the payment schedules and other agreements entered into with grantees are
      reflective of the Treasury requirements concerning advances and immediate cash needs.” This recommendation
      arose because OIG observed that several of MCC’s accountable entities had cash balances that exceeded their
      immediate cash needs. In response, MCC piloted the common payment system (CPS) at MCA-Mali in June 2007
      and implemented the CPS at the other accountable entities in 2008, including MCA-Nicaragua (July 2008) and
      Fondo del Milenio (FOMILENIO/MCA-El Salvador) in April 2008. Under this system, once the fiscal agent has
      received and approved an original invoice from the vendor, MCC’s accountable entities use CPS to request U.S.
      Treasury funds through the National Business Center. As a result, MCC does not need to transfer large cash
      balances to its accountable entities before funds are needed to pay vendors, employees, and others.The overall
      goal of CPS is to eliminate cash balances that are greater than the immediate cash needs of the accountable
      entities. OIG elected to review the CPS implementation and operations in Nicaragua and El Salvador in
      conjunction with other OIG work being performed at these locations.


90   USAID OFFICE OF INSPECTOR GENERAL
The audit found that once CPS had been implemented, MCC significantly reduced the excess cash balances held
by the accountable entities.This reduction was reflected in the total amount of cash held by the accountable
entities at the end of FY 2007, compared with the first quarter of FY 2009. Specifically, at fiscal yearend 2007
(September 30, 2007), 9 accountable entities maintained cash balances totaling $22 million, whereas at the end
of the first quarter of FY 2009 (December 31, 2008), 15 accountable entities maintained cash balances totaling
$7.5 million.This represents a decrease of $14.5 million in cash outstanding, even though during the period the
number of accountable entities increased from 9 to 15.

The range of cash balances held by the accountable entities also showed significant improvement.To illustrate,
the cash balances maintained by the 9 accountable entities at fiscal yearend 2007 ranged from $515,500 to
$4.5 million, whereas the cash balances maintained by the 15 accountable entities at the end of the first quarter
of FY 2009 ranged from $1,300 to $3.3 million.

The audit also found that the fiscal agent at FOMILENIO did not comply with all of MCC’s “Policies and
Procedures for Common Payment System” nor with its own fiscal accountability plan (FAP). In contrast, MCA-
Nicaragua complied with both MCC’s “Policies and Procedures for Common Payment System” and its own
FAP. OIG made no recommendations for MCC to take action regarding FOMILENIO’s noncompliance with the
CPS. Instead, OIG issued guidance to the independent audit firms to include steps to assess compliance with
the CPS during all semiannual audits of the accountable entities.

The audit also found that the expenditures at both FOMILENIO and MCA-Nicaragua were in compliance with
MCC’s “Cost Principles for Government Affiliates Involved in MCC Compact Implementation.”

In its comments to the draft report, MCC noted that its own evaluation of CPS came to conclusions similar to
those in the OIG review. MCC also noted that FOMILENIO had been informed to stop the prohibited practice
of submitting payment request forms before the invoices were received. MCC was in agreement with the
independent auditors to include steps in its semiannual audits to test for compliance with the CPS.

(Audit Report No. M-000-09-001-S)

Limited-Scope Review of Lesotho. OIG performed this review in part to determine whether (1) MCA-
Lesotho was complying with MCC’s “Policies and Procedures for Common Payment System” and its own
individual fiscal accountability plan (FAP) and (2) MCA-Lesotho’s expenditures were allowable, allocable, and
reasonable per MCC’s “Chapter 37: Cost Principles for Government Affiliates Involved in MCC Compact
Implementation.”

The review verified that MCA-Lesotho had complied with both MCC’s “Policies and Procedures for Common
Payment System” and its own FAP.

However, our review also identified numerous instances in which MCA-Lesotho’s expenditures were not
allowable, allocable, or reasonable per MCC’s “Chapter 37: Cost Principles for Government Affiliates Involved
in MCC Compact Implementation.” We identified questioned costs of $159,244 at MCA-Lesotho for taxes paid
of $90,120, a luxury vehicle in the amount of $51,789, business class airfare of $14,067, and travel per diem of
$3,268.We recommended that MCC recover any portion of the $159,244 in questioned costs determined to be
unallowable.

(Audit Report No. M-000-09-002-S)

Limited-Scope Review of Cape Verde. OIG performed this review, in part, to determine whether MCA-
Cape Verde was complying with (1) the “Cost Principles for Government Affiliates Involved in MCC Compact
Implementation” and (2) the establishment of policies and procedures to ensure that MCC’s accountable entities’
employees were hired at reasonable salary levels.



                                                                 SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   91
      The review identified unallowable travel expenditures; however, because the amounts were insignificant, we did
      not issue actionable audit recommendations.

      The results of the salary review, as well as other MCC countries, will be consolidated and issued in a future audit
      report.

      (Audit Report No. M-000-09-003-S)

      Fund Accountability Statements
      Fund Accountability Statement Audits. OIG’s financial audit team is responsible for reviewing and issuing
      semiannual fund accountability statement audits of accountable entities. The audits are conducted by independent
      public auditors as required by compact agreements. The team also performs limited-scope audits of accountable
      entities different from those audited by independent public auditors, reviews the quality of audit work performed
      by independent public auditors (quality control reviews), and approves audit firms to ensure their eligibility to
      conduct audits of compact funds. This section discusses the audit reports issued and the supporting work under
      the financial audit program.

      Under the terms of MCC’s compacts, funds expended by a recipient country are required to be audited at least
      annually but are usually audited twice a year. The recipient establishes a fund—often titled “MCA”—and produces
      financial statements documenting account activity.The audit of the fund accountability statement is conducted by
      a firm that OIG has approved. The audits include four elements that may or may not be applicable in all compacts.
      The main elements are as follows:

           • 	 Expressing an opinion on the fund accountability statement produced by the entity that 

               oversees the financial aspects of compact administration.

           • 	 Evaluating and obtaining an understanding of the entity’s internal control structure and 

               issuing findings of internal control deficiencies that may be of such size or scope as to 

               potentially influence the financial statements, making them material.

           • 	 Determining whether the compact complies with its terms and applicable laws and 

               regulations and issuing findings of noncompliance.

           • 	 Determining whether cost-sharing contributions were provided and accounted for 

               in accordance with the terms of the compact and supplemental agreements, where 

               applicable.


      The auditor issues an opinion on whether the financial statements present fairly, in all material respects, the
      program revenues and costs incurred and reimbursed in conformity with the terms of a compact agreement and
      related supplemental agreements for the period being audited. The audit is required to employ generally accepted
      government auditing standards in performing the audits. All audit reports are reviewed and issued by OIG.

      During the reporting period, audits for incurred costs were issued for MCC-funded programs in Armenia, Benin,
      Cape Verde, El Salvador, Georgia, Ghana, Lesotho, Mali, Nicaragua, and Vanuatu.

      Armenia. The MCA-Armenia audit covered fund balances of nearly $11.8 million for the period from July 1
      through December 31, 2008. The $235.65 million, 5-year compact will focus on reducing rural poverty through a
      sustainable increase in the economic performance of the agricultural sector.

      The auditors reported that, except for questioned costs of $46,800, the fund accountability statement presented
      fairly, in all material respects, program revenues and expenditures for the period audited. The questioned costs
      pertained to unsupported bonuses paid to MCA employees. On the basis of its review of the audit report,




92   USAID OFFICE OF INSPECTOR GENERAL
the OIG recommended that the responsible MCC official make a management decision on the $46,800 in
unsupported costs and recover any amounts determined to be unallowable.

(Audit Report No. M-000-09-015-N)

Benin. The MCA-Benin audit covered incurred costs of nearly $10.6 million for the period from July 1 to
December 31, 2008.The 5-year compact for approximately $307.3 million addresses key constraints to economic
growth and poverty reduction.The auditors reported that the fund accountability statement presented fairly, in all
material respects, program revenue and costs incurred for the period audited.The auditors questioned
$3,999 associated with travel advances that MCA employees have not accounted for within the timeframe
required by the FAP.
The auditors documented an internal control deficiency that fully adequate travel policies and procedures
were not prepared and adopted. In addition, MCA-Benin did not comply with its existing travel policies and
procedures because not all international travel expenditures were adequately supported with appropriate
documentation. Additional deficiencies and weaknesses in the internal control structure involved
    •   Employment contracts that reflected employees’ net salary, instead of gross salary.
    •   Fuel coupons and fuel consumption that were not monitored effectively.

In addition, the auditors identified material instances of noncompliance pertaining to

    •   FAP requirements related to travel advances.
    •   FAP requirement related to physical counts of fixed assets.

OIG recommended that the responsible MCC official make a management decision on the $3,999 in questioned
costs and recover any amounts determined to be unallowable. In addition, OIG issued a recommendation
requesting that MCC have MCA-Benin correct the internal control deficiencies and noncompliance issues.

(Audit Report No. M-000-09-020-N)

Cape Verde. The MCA-Cape Verde audit covered incurred costs of $6.5 million from January 30 through July 30,
2008.The 5-year compact for $110 million supports watershed management, agriculture, infrastructure, and
private sector development.

The MCA-Cape Verde fund accountability statement presented fairly, in all material respects, program revenue
received and expenses incurred and reimbursed during the period under audit. In addition, no internal control or
compliance problems were reported during this period.

However, previous audits had identified internal control deficiencies that persist, relating to the following:

    •   Value-added tax reimbursement.
    •   Bank reconciliation.
    •   Government contribution report.
    •   Quarterly report.

Moreover, three areas of noncompliance previously identified persist, relating to property and equipment and a
tax refund.

(Audit Report No. M-000-09-016-N)




                                                                   SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   93
      El Salvador. The MCA-El Salvador audit covered incurred costs of nearly $10.7 million from July 1 through
      December 31, 2008.The 5-year compact for $460.9 million contains projects to increase human and physical
      capital, expand production and employment, and reduce travel time and costs.

      The fund accountability statement presented fairly, in all material respects, program revenues as well as costs
      incurred and reimbursed. The audit did not disclose internal control deficiencies or noncompliance issues.

      (Audit Report No. M-000-09-014-N)

      Georgia. The MCA-Georgia audit covered incurred costs of nearly $38.6 million from July 1 through
      December 31, 2008. The 5-year, $294.7 million compact provides funding for projects in the following areas:

           •    	Samtskhe–Javakheti Road.
           •    	Energy rehabilitation.
           •    	Regional infrastructure development.
           •	    Georgian Regional Development Fund.
           •    	Agribusiness development.

      Additional funding of $100 million was granted to the Government of Georgia in November 2008.

      The auditors reported that, except for unsupported questioned costs of almost $1.2 million, the fund
      accountability statement presented fairly, in all material respects, program revenues as well as costs incurred and
      reimbursed.

      The audit questioned the following costs:

           • 	 The Samtskhe–Javakheti Road civil works project lacked support documentation for 

               interim payments of nearly $1.2 million.

           • 	 The remaining amounts relate to lack of support for the allocation of costs to the 

               Georgian Regional Development Fund (GRDF) and ineligible expenses paid to the Board 

               of Directors.


      The audit found the following material and significant internal control deficiencies:

           • 	 The Samtskhe–Javakheti Road civil works lacked sufficient documentation for interim 

               payments.

           • 	 Agribusiness Development project activity lacked documentation for the milestone 

               achievements.

           • 	 Costs allocated from GRDF’s fund manager to the Georgian Regional Development 

               Fund were not properly documented.


      The audit found a material noncompliance issue centering on inconsistencies between the GRDF management
      agreement and the GRDF Board of Directors travel and compensation guidelines.

      (Audit Report No. M-000-09-018-N)

      Ghana. The Millennium Development Authority (MiDA)-Ghana audit covered incurred costs of $24.3 million
      from July 1 through December 31, 2008.The 5-year compact for $547 million is designed to reduce poverty and
      promote economic growth in the Republic of Ghana.




94   USAID OFFICE OF INSPECTOR GENERAL
The auditors reported that, except for unsupported and ineligible costs of $73,051, the fund accountability
statement presented fairly, in all material respects, program revenues and expenditures for the period audited.
The questioned costs of $73,051 relate to unsupported outstanding travel advances of $52,910, ineligible costs
connected to uninsured assets of $12,100, and value-added taxes paid of $8,041.

The independent auditors found a material weakness in internal controls regarding inadequate monitoring of
employee travel advances.

The independent auditors also disclosed the following material instances of noncompliance:

    •   Assets procured with MCC assets were not insured, as required by the compact.
    •   Value-added taxes were paid with MCC resources.

(Audit Report No. M-000-09-023-N)

Lesotho. The MCA-Lesotho audit covered incurred costs of $3.7 million from July 1 through December 31,
2008. The 5-year compact for $362.6 million addresses poverty reduction by improving the health system,
removing barriers to foreign and local private sector investment, and providing a water supply for industrial and
domestic use.

The auditors reported that, except for unsupported questioned costs of $21,730, the fund accountability
statement presented fairly, in all material respects, program revenues and expenditures for the period audited.
The questioned costs pertained to $22,510 for outstanding value-added tax claims due to MCA-Lesotho from
the Lesotho Revenue Authority and an offset of $780 in overstated funds in petty cash, for which MCA-Lesotho
failed to produce supporting documents.

The auditors identified the following six significant deficiencies in internal control, one of which was a material
weakness:

    •   Check preparation (material weakness).
    •   Reconciliation with suppliers’ statements.
    •   Staff advances.
    •   Recording of contract proposals.
    •   Correction of contract tender documents.
    •   Confirmation of deliverables/outputs.

In addition, the auditors identified the multiple material instances of noncompliance pertaining to:

    •   Procurement plan compliance.
    •   Fiscal agent invoice verification.
    •   Fiscal agent invoice approval.
    •   Invoices on which payments are based.
    •   Excluded parties’ checking procedures.
    •   Value-added tax.

OIG recommended that MCC make a management decision on the $21,730 in questioned (unsupported) costs
and recover any amounts deemed unallowable. In addition, OIG issued a recommendation requesting that MCC
have MCA-Lesotho correct the internal control deficiencies and noncompliance issues.

(Audit Report No. M-000-09-017-N)




                                                                   SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   95
      Mali. The MCA-Mali audit covered $6.8 million of costs incurred from July 1 through December 31, 2008. The
      5-year compact for $460.8 million is designed to reduce poverty and promote economic growth in the Republic
      of Mali.

      The auditors reported that, except for unsupported questioned costs of $74,702, the fund accountability
      statement presented fairly, in all material respects, program revenues and expenditures for the period audited.
      The unsupported questioned costs of $74,702 relate to salaries and social charges (payroll contributions) paid for
      eight employees whose employment contracts had expired.

      The independent auditors disclosed multiple significant material deficiencies in internal controls:

           • 	 The new Procurement Operating Manual applied by MCA-Mali does not provide any 

               guidelines for procurements with a budget of less than $50,000.

           • 	 Salaries and social charges for the eight employees whose employment contracts had 

               expired totaled $74,702.


      OIG recommended that MCC request that MCA-Mali submit a corrective action plan designed to correct the
      internal control deficiencies described in the Report on Internal Control. In addition, OIG recommended that
      MCC make a management decision on the $74,702 in unsupported questioned costs described in the Report on
      the Fund Accountability Statement and recover any amounts determined to be unallowable.

      (Audit Report No. M-000-09-019-N)

      Nicaragua. The MCA-Nicaragua audit covered incurred costs of approximately $21 million from July 1 through
      December 31, 2008. The 5-year compact for $175 million addresses economic growth and poverty reduction.
      The auditors reported that the MCA-Nicaragua fund accountability statement presented fairly, in all material
      respects, program revenues and expenditures for the period audited.

      The audit found deficiencies in internal controls related to the following:

           • 	 Weaknesses in the control system for the Rural Business Project.
           • 	 Lack of formal documentation for the creation of the user profiles (authorized 

               users) in the Financial Accounting Information System.


      OIG recommended that MCC request that MCA-Nicaragua submit a corrective action plan for the internal
      control deficiencies.

      (Audit Report No. M-000-09-022-N)

      Vanuatu. The MCA-Vanuatu audit covered incurred costs totaling $12.9 million from July 1 through
      December 31, 2008.The 5-year compact for $65.69 million is designed to strengthen infrastructure and
      institutions.

      The auditors reported that, except for unsupported questioned costs of $1,619, the fund accountability
      statement presented fairly, in all material respects, program revenues and expenditures for the period audited.
      The questioned costs relate to the failure of MCA-Vanuatu to secure funds that were subject to misappropriation.

      The audit disclosed no deficiencies in internal control or compliance.

      (Audit Report No. M-000-09-021)




96   USAID OFFICE OF INSPECTOR GENERAL
Quality-Control Review—El Salvador. OIG conducted a quality-control review of work by the audit firm
that conducts the semiannual audits of the compact funds in El Salvador.The review found that the audit work was
adequately planned and that the working papers generally supported the audit report’s conclusions in accordance
with generally accepted government auditing standards and other guidelines. Seven matters for comment were
discussed, and concurred to, with the audit firm to improve future audits.

(Quality-Control Review Report No. M-000-09-004-Q)

Quality-Control Review—Cape Verde. OIG conducted a quality-control review of work by the audit firm that
conducts the semiannual audits of the compact funds in Cape Verde.The review found that the audit work was
adequately planned and that the working papers generally supported the audit report conclusions in accordance
with generally accepted government auditing standards and other guidelines.Three matters for comment were
discussed, and concurred to, with the audit firm to improve future audits.

(Quality-Control Review Report No. M-000-09-005-Q)

Quality-Control Review—Lesotho. OIG conducted a quality-control review of work by the audit firm that
conducts the semiannual audits of the compact funds in Lesotho.The review found that the audit work was
adequately planned and that the working papers generally supported the audit report conclusions in accordance
with generally accepted government auditing standards and other guidelines. Eight matters for comment were
discussed, and concurred to, with the audit firm to improve future audits.

(Quality-Control Review Report No. M-000-09-006-Q)




                                                               SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   97
98   USAID OFFICE OF INSPECTOR GENERAL
                                                           APPENDIX III


       REPORTING REQUIREMENTS AND SUMMARY

                       MCC



                                                                      List of Tables

 1.   Financial Audit Reports Issued..................................................................................................................101

 2.   Performance Audit Reports Issued ..........................................................................................................103

 3.   Miscellaneous Audit Reports Issued ........................................................................................................104

 4.   Limited-Scope Review Audit Reports Issued ........................................................................................105

 5.   Audit Reports Over 6 Months Old With No Management Decision .............................................106

 6.   Significant Audit Recommendations Described in Previous Semiannual Reports 

      Without Final Action ..................................................................................................................................107

 7.   Reports Issued With Questioned and Unsupported Costs ..............................................................108

 8.   Reports Issued With Recommendations That Funds Be Put to Better Use ..................................109

 9.   Summary of Audits Conducted and Results ..........................................................................................110

10.   Fraud Awareness Briefings Conducted ...................................................................................................111





                                                                          Appendix III 




                                                                                             SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009          99
100   USAID OFFICE OF INSPECTOR GENERAL
                        FINANCIAL AUDIT REPORTS ISSUED
                                     MCC

                                      April 1–September 30, 2009
                                                                                                    Amount of
                    Date of                                                                                          Type of
Report Number                                           Report Title                                 Findings
                    Report                                                                                           Findings
                                                                                                      ($000)
                                       MCA AUDITS AND REVIEWS
                               Audit of the Millennium Challenge Corporation (MCC)
                               Resources Managed by Millennium Challenge Account—El
M-000-09-014-N     04/15/09    Salvador (MCA-El Salvador), Under the Compact Agreement
                               Between the MCC and The Government of El Salvador from
                               July 1, 2008 to December 31, 2008
                               Audit of the Millennium Challenge Corporation (MCC)
                               Resources Managed by Millennium Challenge Account—
M-000-09-015-N     05/12/09    Armenia S.N.C.O. (MCA-Armenia), Under the Compact                        47                QC
                               Agreement between The MCC and The Government of
                               Armenia from July 1, 2008 to December 31, 2008
                               Audit of the Millennium Challenge Corporation (MCC)
                               Resources Managed by Millennium Challenge Account—
M-000-09-016-N     05/12/09    MCA-Cape Verde, Under the Compact Agreement between
                               the MCC and the Government of Cape Verde from
                               January 1, 2008 to June 30, 2008
                               Audit of the Millennium Challenge Corporation (MCC)
                               Resources Managed by Millennium Challenge Account—
M-000-09-017-N     06/23/09    Lesotho (MCA-Lesotho), Under the Compact Agreement                       22                QC
                               between the MCC and the Government of Lesotho from
                               July 1, 2008 to December 31, 2008
                               Audit of the Millennium Challenge Corporation (MCC)
                               Resources managed by Millennium Challenge Fund Georgia
                                                                                                      1,154               QC

M-000-09-018-N     06/24/09    (MCG), Under the Compact Agreement between the
                                                                                                      1,154               UN

                               MCC and the Government of Georgia from July 1, 2008 to
                               December 31, 2008
                               Audit of the Millennium Challenge Corporation (MCC)
                               Resources Managed by Millennium Challenge Account—Mali
                                                                                                        75                QC

M-000-09-019-N     06/25/09    (MCA-Mali), Under the Compact Agreement Between the
                                                                                                        75                UN

                               MCC and the Government of the Republic of Mali from
                               July 1, 2008 to December 31, 2008
                               Audit of the Millennium Challenge Corporation (MCC)
                               Resources Managed By Millennium Challenge Account—
                                                                                                         4                QC

M-000-09-020-N     07/20/09    Benin (MCA-Benin), Under the Compact Agreement dated
                                                                                                         4                UN

                               February 22, 2006 between the MCC and the Government
                               of Benin from July 1, 2008 to December 31, 2008




      BU—Better Use of Funds      QC—Questioned Costs          UN—Unsupported Costs             Note: UN is part of QC



                                                Appendix III —Table 1




                                                                  SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   101
                                                                                                       Amount of
                           Date of                                                                                       Type of
      Report Number                                                Report Title                         Findings
                           Report                                                                                        Findings
                                                                                                         ($000)
                                          Audit of the Millennium Challenge Corporation (MCC)
                                          Resources Managed by Millennium Challenge Account—
      M-000-09-021-N      08/06/09        Vanuatu (MCA-Vanuatu), under the Compact Agreement
                                          between the MCC and the Government of Vanuatu from
                                          July 1, 2008 to December 31, 2008
                                          Audit of the Millennium Challenge Corporation
                                          (MCC) Resources Managed by Millennium Challenge
                                          Account—Nicaragua (MCA-Nicaragua), Under the Compact
      M-000-09-022-N      08/26/09
                                          Agreement Between the MCC and the Government of the
                                          Republic of Nicaragua from July 1, 2008 to December 31,
                                          2008
                                          Audit of the Millennium Challenge Corporation (MCC)
                                          Resources Managed by Millennium Development
                                                                                                           73                 QC
      M-000-09-023-N      09/10/09        Authority—Ghana (MiDA), Under the Compact Agreement
                                                                                                           53                 UN
                                          between the MCC and the Government of the Republic of
                                          Ghana from July 1, 2008 to December 31, 2008




             BU—Better Use of Funds          QC—Questioned Costs          UN—Unsupported Costs      Note: UN is part of QC



                                                           Appendix III —Table 1




102   USAID OFFICE OF INSPECTOR GENERAL
                      PERFORMANCE AUDIT REPORTS ISSUED
                                   MCC

                                      April 1–September 30, 2009

                                                                                                   Amount of
                  Date of                                                                                           Type of
Report Number                                        Report Title                                   Findings
                  Report                                                                                            Findings
                                                                                                     ($000)
                                     ECONOMY AND EFFICIENCY
                             Audit of the Millennium Challenge Corporation’s
M-000-09-003-P
   04/29/09
                             Management of the Threshold Program
M-000-09-004-P
   09/30/09   Millennium Challenge Corporation Federal Information
                             Security Management Act, Fiscal Year 2009, Independent
                             Audit Report No. M-000-09-004-P
M-000-09-005-P
   09/30/09   Audit of Agricultural Credit Program in Ghana
M-000-09-006-P
   09/30/09   Audit of the Georgia Regional Development Fund
                             Audit of the Millennium Challenge Corporation’s Regional
M-000-09-007-P
   09/30/09
                             Infrastructure Rehabilitation Project In Georgia




                                               Appendix III —Table 2



                                                                 SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   103
                              MISCELLANEOUS AUDIT REPORTS ISSUED
                                             MCC

                                                  April 1–September 30, 2009

                                                                                                        Amount of
                           Date of                                                                                  Type of
      Report Number                                                Report Title                          Findings
                           Report                                                                                   Findings
                                                                                                          ($000)
                                             QUALITY-CONTROL REVIEWS (QCR)
                                          QCR of the audit report and documentation related to the
                                          audit titled Audit of the Millennium Challenge Corporation
                                          (MCC) Resources Managed by the Millennium Challenge
      M-000-09-004-Q      04/02/09        Account, El-Salvador (MCA-El Salvador also referred to as:
                                          FOMILENIO) Under the Compact Agreement Between the
                                          Government of the Republic of El Salvador from January 1,
                                          2008 to June 30, 2008
                                          QCR of the audit report and documentation related to the
                                          audit titled Audit of the Fund Accountability Statement of
                                          the Millennium Challenge Corporation (MCC) Resources
                                          Managed by the Millennium Challenge Account-Cape Verde
      M-000-09-005-Q      09/21/09
                                          (MCA-Cape Verde) under the Compact Agreement dated
                                          July 4, 2005 between MCC and the Government of Cape
                                          Verde for the audit period from January 1, 2008 to June 30,
                                          2008
                                          QCR of the audit report and documentation related to the
                                          audit titled Audit of the Fund Accountability Statement of
                                          the Millennium Challenge Corporation (MCC) Resources
      M-000-09-006-Q      09/30/09        Managed by the Millennium Challenge Account—Lesotho
                                          (MCA-Lesotho) under the Compact Agreement between
                                          MCC and the Government of Lesotho for the audit period
                                          from July 1, 2008 to December 31, 2008




                                                             Appendix III —Table 3



104   USAID OFFICE OF INSPECTOR GENERAL
                 LIMITED-SCOPE REVIEW AUDIT REPORTS ISSUED
                                    MCC

                                         April 1–September 30, 2009
                                                                                                        Amount of
                   Date of                                                                                               Type of
Report Number                                              Report Title                                  Findings
                   Report                                                                                                Findings
                                                                                                          ($000)
                                            LIMITED-SCOPE REVIEWS
                                Report on (a) MCC’s reduction of the excess balances held by
                                accountable entities once the common payment system was
                                implemented, (b) selected accountable entities’ compliance
                                with the MCC’s “Policies and Procedures for Common
M-000-09-001-S     09/28/09
                                Payment System” and the applicable fiscal accountability
                                plans, and (c) selected accountable entities’ compliance with
                                “Cost Principles for Government Affiliates Involved in MCC
                                Compact Implementation.”
                                Report on (a) MCA-Lesotho’s compliance with “Chapter 37:
                                Cost Principles for Government Affiliates Involved in MCC
                                Compact Implementation,” (b) MCA-Lesotho’s compliance
                                with the MCC “Policies and Procedures for Common
M-000-09-002-S     09/30/09                                                                                159                QC
                                Payment System” and its fiscal accountability plan, and (c)
                                the establishment of policies and procedures to ensure
                                that MCC’s accountable entities’ employees were hired at
                                reasonable salary levels.
                                Report on (a) MCA-Cape Verde’s compliance with the
                                “Cost Principles for Government Affiliates Involved in MCC
M-000-09-003-S     09/30/09     Compact Implementation,” and (b) the establishment of
                                policies and procedures to ensure that MCC’s accountable
                                entities’ employees were hired at reasonable salary levels.




       BU—Better Use of Funds        QC—Questioned Costs           UN—Unsupported Costs             Note: UN is part of QC



                                                    Appendix III —Table 4




                                                                      SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   105
                                AUDIT REPORTS OVER 6 MONTHS OLD

                                 WITH NO MANAGEMENT DECISION

                                              MCC

                                            As of September 30, 2009

         Report                             Issue                                   Current
                               Auditee
         Number                             Date                              Recommendation Status

                                                         A Management Decision has not been reached on Recommendation
                           MCC—Dep’t
                                                         No. 2 until MCC provides a detailed analysis of how the Rural
      M-000-09-001-P        of Compact     12/24/08
                                                         Development Project caused the increase in farm and employment
                          Implementation
                                                         income.

                                                         A Management Decision has not been reached for
                                                         Recommendations Nos. 1 and 2. Specifically, Recommendation
                                                         No.1 addressed the need for MCC to request MCA-Mali to submit
                                                         a corrective action plan to address an internal control deficiency
      M-000-09-013-N         MCA-Mali      03/19/09
                                                         described in the Independent Auditor’s Report on Internal Control.
                                                         Recommendation No. 2 addressed the need for MCC to make a
                                                         management decision on $20,975 in questioned costs and recover
                                                         any amounts determined to be unallowable.




                                                      Appendix III —Table 5



106   USAID OFFICE OF INSPECTOR GENERAL
                    SIGNIFICANT AUDIT RECOMMENDATIONS

                      DESCRIBED IN PREVIOUS SEMIANNUAL

                       REPORTS WITHOUT FINAL ACTION

                                     MCC

                                       As of September 30, 2009

                                                                                                                  Final Action
   Report                                                                Issue         Rec.     Management
                                Subject of Report                                                                    Target
   Number                                                                Date          No.      Decision Date
                                                                                                                      Date

                                                                                        1          12/24/08          06/09
                                                                                        2            None             NA
                 Audit of the Millennium Challenge Corporation
M-000-09-001-P                                                          12/24/08        3          12/24/08          12/09
                 Programs in Honduras
                                                                                        4          12/24/08          12/09
                                                                                        5          12/24/08          12/09




                                               Appendix III —Table 6




                                                                 SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   107

                                  REPORTS ISSUED WITH QUESTIONED

                                     AND UNSUPPORTED COSTS

                                                MCC

                                               April 1–September 30, 2009
                                                                                        Questioned   Unsupported
                                                                         Number of
                                 Reports                                                  Costs         Costs
                                                                        Audit Reports
                                                                                           ($)           ($)
         A. For which no management decision had been
                                                                               5        $206,201      $133,996
            made as of April 1, 2009
         B.   Add: Reports issued, April 1–September 30,
                                                                               7        1,533,215     1,285,166
              2009

                    Subtotal                                                  12        1,739,416     1,419,162

         C. Less: Reports with a management decision
                                                                               4         185,226       113,021
            made, April 1–September 30, 2009
                    Value of recommendations disallowed by
                                                                                          55,018        6,355
                    Agency officials
                    Value of recommendations allowed by Agency
                                                                                         130,208       106,666
                    officials
         D. For which no management decision had been
                                                                               8        1,554,190     1,306,141
            made as of September 30, 2009




                                                             Appendix III —Table 7



108   USAID OFFICE OF INSPECTOR GENERAL
              REPORTS ISSUED WITH RECOMMENDATIONS

                 THAT FUNDS BE PUT TO BETTER USE

                               MCC

                                    April 1–September 30, 2009


                                                                                   Number of                Amount
                                Reports
                                                                                  Audit Reports               ($)


A. For which no management decision had been made as of April 1, 2009                    0                     0

B. Add: Reports issued April 1–September 30, 2009                                        0                     0

       Subtotal                                                                          0                     0

C. Less: Reports with a management decision made,
                                                                                         0                     0
   April 1–September 30, 2009

       Value of recommendations agreed to by agency officials                                                  0

       Value of recommendations not agreed to by Agency officials                                              0

D. For which no management decision had been made as of
                                                                                         0                     0
   September 30, 2009




                                               Appendix III —Table 8




                                                                 SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   109

                                   SUMMARY OF AUDITS CONDUCTED

                                           AND RESULTS

                                               MCC

                                                 As of March 31, 2009
                                                                                         Amount of
                                                                          Number of
                               Type of Report                                         Recommendations
                                                                           Reports
                                                                                           ($)*
       Financial Audits

          MCC Fund Accountability Statement Audits                             10        $1,373,971

          Limited-Scope Reviews                                                 3          159,244

          Quality Control Reviews                                               3                0

       Performance Audits

          MCC Economic Growth and Prosperity                                    4                0

          Management Capabilities                                               1                0

       Other                                                                    0                0


                                    Total                                      21       $1,533,215



       * Monetary recommendations include questioned costs.




                                                       Appendix III —Table 9



110   USAID OFFICE OF INSPECTOR GENERAL
        FRAUD AWARENESS BRIEFINGS CONDUCTED
                        MCC

                            As of September 30, 2009

Month           Location           Sessions            Attendees             Professional Affiliation


Apr.    NA                            NA                   NA                     NA


May     Washington, DC                 1                   6                      MCC personnel


June    NA                             NA                  NA                     NA


 July   NA                             NA                  NA                     NA


Aug.    Washington, DC                 2                   4                      MCC personnel



        Washington, DC                 1                   3                      MCC personnel
Sept.
        Ulaanbaatar, Mongolia          5                   88                     MCC personnel



                  Total                9                   101




                                 Appendix III —Table 10




                                                   SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   111

112   USAID OFFICE OF INSPECTOR GENERAL
                            APPENDIX IV


                          ABBEVIATIONS



COTR       contracting officer’s technical representative
DCAA       Defense Contract Audit Agency
FAP        fiscal accountability plan
FAR        Federal Acquisition Regulation
FISMA      Federal Information Security Management Act of 2002 (Public Law 107–347)
FSN        Foreign Service national
FY         fiscal year
HIV/AIDS   human immunodeficiency virus/acquired immunodeficiency syndrome
IAF        Inter-American Foundation
LES        locally employed staff
MCC        Millennium Challenge Corporation
MOU        memorandum of understanding
NGO        nongovernmental organization
OMB        Office of Management and Budget
PEPFAR     President’s Emergency Plan for AIDS Relief
PMTCT      prevention of mother-to-child transmission (of HIV)
PRT        provincial reconstruction team
SAI        Supreme Audit Institution
USADF      United States African Development Foundation
USAID      United States Agency for International Development




                                    Appendix IV



                                                  SEMIANNUAL REPORT TO THE CONGRESS: April 1–September 30, 2009   113
        U.S. Agency for International Development 

               Ofﬁce of Inspector General 

               1300 Pennsylvania Avenue, NW 

                         Room 6.6D 

                   Washington, DC 20523


                       www.usaid.gov/oig




The Semiannual Report to the Congress is available on the Internet at 

    www.usaid.gov/oig/public/semiann/semiannual_recent.htm

